<html>
<title> - NCLB: PREVENTING DROPOUTS AND ENHANCING SCHOOL SAFETY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       NCLB: PREVENTING DROPOUTS 
                      AND ENHANCING SCHOOL SAFETY 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 23, 2007

                               __________

                           Serial No. 110-23

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                 ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

34-631 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























































































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director










































































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 23, 2007...................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    76
    McCarthy, Hon. Carolyn, a Representative in Congress from the 
      State of New York, questions for the record................    77
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     2
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of the Delaware Statewide Academic 
          Growth Assessment Pilot................................    88

Statement of Witnesses:
    Montecel, Maria Robledo, Ph.D., executive director, 
      Intercultural Development Research Association.............    18
        Prepared statement of....................................    20
    Norwood, Dr. Jane, vice-chair, North Carolina State Board of 
      Education..................................................    13
        Prepared statement of....................................    15
    Smith, Kenneth M., president, Jobs for America's Graduates...    23
        Prepared statement of....................................    25
    Trump, Kenneth S., president and CEO, National School Safety 
      and Security Services, Inc.................................    27
        Prepared statement of....................................    29
        Responses to Mrs. McCarthy's questions...................    81
    Wise, President, Hon. Bob, Alliance for Excellent Education, 
      former Governor, State of West Virginia....................     5
        Prepared statement of....................................     7


                       NCLB: PREVENTING DROPOUTS
                      AND ENHANCING SCHOOL SAFETY

                              ----------                              


                         Monday, April 23, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 3:02 p.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Scott, 
Hinojosa, McCarthy, Tierney, Wu, Grijalva, Bishop of New York, 
Sanchez, Sestak, Loebsack, Hirono, Yarmuth, Hare, Clarke, Shea-
Porter, McKeon, Castle, Biggert, and Davis of Tennessee.
    Staff Present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Alice Cain, Senior Education Policy 
Advisor (K-12); Adrienne Dunbar, Legislative Fellow, Education; 
Denise Forte, Director of Education Policy; Ruth Friedman, 
Senior Education Policy Advisor (Early Childhood); Lloyd 
Horwich, Policy Advisor for Subcommittee on Early Childhood, 
Elementary and Secondary Education; Lamont Ivey, Staff 
Assistant, Education; Danielle Lee, Press/Outreach Assistant; 
Jill Morningstar, Education Policy Advisor; Ricardo Martinez, 
Policy Advisor for Subcommittee on Higher Education, Lifelong 
Learning and Competitiveness; Joe Novotny, Chief Clerk; Lisette 
Partelow, Staff Assistant, Education; Rachel Racusen, Deputy 
Communications Director; Mark Zuckerman, Staff Director; James 
Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Robert Borden, Minority General Counsel; Steve 
Forde, Minority Communicatins Director; Taylor Hansen, Minority 
Legislative Assistant; Victor Klatt, Minority Staff Director; 
Susan Ross, Minority Director of Education and Human Services 
Policy; and Linda Stevens, Minority Chief Clerk/Assistant to 
the General Counsel.
    Chairman Miller. The Committee on Education and Labor will 
come to order for the purposes of holding a hearing on 
preventing school dropouts and enhancing school safety. And I 
want to welcome everybody to this afternoon's hearings.
    These two issues are critically important to students, 
parents, educators and communities across the country; and we 
plan to address them during the Elementary and Secondary Act 
reauthorization. Nationally, only about 70 percent of students 
graduate from high school with regular high school diplomas. In 
fact, each year schools lose approximately 1.2 million students 
who drop out for a wide range of reasons. This means that 
nearly one-third of our students are missing the opportunities 
provided by a high school diploma. This is a serious problem 
that demands our attention and hard work.
    It hurts more than the students. It also harms our economy 
and our economic competitiveness.
    While we have to do more to ensure that all children 
graduate from high school, the dropout rate is far worse for 
poor minority students and students with disabilities. Only 
about half of all African American and Hispanic students 
graduate from high school on time with a regular diploma. High 
school students living in low-income families drop out of 
school at six times the rate of students of high-income 
families and students with disabilities are twice as likely to 
drop out as those who do not have disabilities.
    We know that earning a high school diploma is a critical 
prerequisite to joining the middle class. High school dropouts 
earn over a quarter of a million dollars less in a lifetime 
than those who hold high school diplomas. The disparity widens 
to a million dollars when dropouts' incomes are compared with 
college graduates' incomes.
    We are far from solving this dropout crisis, and that is 
why we are having this hearing. As a part of our ongoing 
process to reauthorize the Elementary and Secondary Education 
Act, this committee is reviewing elements of successful dropout 
prevention programs, many of which you will hear about today. 
Beyond just socioeconomic factors, experts have identified 
early indicators that help schools predict when a student is 
likely to drop out of high school. Research in four school 
districts shows that we can identify over half of the future 
dropouts as early as the sixth grade by looking at a small 
number of telling indicators: attendance, discipline, and 
trouble mastering basic reading and math skills.
    Programs across the country that have successfully 
identified and prevented high school dropouts have common 
elements. Among other things, they seem to focus on meeting 
both academic and nonacademic needs of students in a caring, 
nonthreatening environment. One key element of students' 
success is ensuring the schools are safe and free from drugs 
and violence.
    No Child Left Behind contains several provisions that 
attempt to encourage safe learning environments for students 
and teachers. Research shows that if students do not feel safe, 
they are more likely to have academic problems and they are 
more likely to drop out.
    I want to thank Congresswoman McCarthy for her leadership 
on school safety issues, and today's witnesses will help us 
approach the NCLB reauthorization with a strong focus on how to 
promote safe learning environments and to help students most at 
risk of dropping out.
    And I want to thank all the witnesses in advance.
    And at this point, I would like to turn to Congressman 
McKeon, our senior Republican on the committee.
    Mr. McKeon. Thank you, Mr. Chairman. I want to thank you 
for convening today's hearings. And at the outset I would like 
to recognize Dr. Herb Fisher, the elected Superintendent of the 
San Bernardino County schools, the largest county in the 
country. I represent half that county. It is good to have him 
here today.
    I am pleased the issues of graduation rates and school 
safety are included in our series of hearings on No Child Left 
Behind. For the past year, we have been weighing in a very 
bipartisan way the successes and shortcomings of the No Child 
Left Behind Act, and indeed, the two issues before us today are 
critical to the foundation of our school systems and to the 
NCLB reauthorization.
    Under No Child Left Behind, as we know, in addition to 
meeting academic achievement standards in reading and math, 
public schools and school districts must meet at least one 
additional academic indicator in order to be deemed as having 
made adequate yearly progress. For a high school this 
additional indicator must be its graduation rate.
    This afternoon I look forward to more closely examining the 
high school graduation and dropout provisions in No Child Left 
Behind and to hearing recommendations for improving the law. In 
particular, I will be eager to learn more about how graduation 
rates are calculated by States and school districts, what is 
being done to ensure those rates are accurate, how they must be 
reported to ensure schools are increasing the academic 
achievement of their students, and what States and school 
districts are doing to improve student outcomes in high school.
    I am pleased that this hearing will also focus on school 
safety. After last week's events at Virginia Tech, the memories 
of Columbine, the flurry of school shootings of last fall and 
other unspeakable tragedies which have taken place in our 
Nation's classrooms have become all too fresh in our minds once 
again.
    The issue of school safety is not new to this committee. 
Currently, No Child Left Behind includes various components to 
help protect students, including the Safe and Drug-Free Schools 
and Communities program, which provides funds to States and 
school districts to support drug and violence prevention 
efforts.
    No Child Left Behind also allows a child to transfer out of 
a school identified as persistently dangerous regardless of 
whether that child has been the victim of a violent crime at 
school. Under the law, each State must establish a policy 
requiring that a student attending a persistently dangerous 
public school be allowed to attend a safe school within his or 
her school district, including a public charter school.
    Unfortunately, States' efforts to implement the 
persistently dangerous schools provision have been uneven. For 
example, States may not uniformly define violations or 
offenses. States vary in establishing a threshold number of 
incidents which must occur before a school is identified as 
persistently dangerous; and States may differ in establishing a 
time frame during which incidents or offenses must occur in 
order for a school to be defined as persistently dangerous. 
This uneven nature is a matter I look forward to discussing 
today, because I believe it goes to the heart of our effort to 
improve the lives of students who are trapped in dangerous 
schools.
    Mr. Chairman, working collaboratively to ensure classroom 
safety is among our highest callings. Simply put, parents must 
not have to question the safety of their children when they are 
at school, and teachers and school personnel should be 
confident that they will be safe when they go to work each day.
    Again, thank you for holding this hearing on two very 
important topics, and I once again thank our witnesses for 
joining us.
    Chairman Miller. Thank you.
    Our first witness is Governor Bob Wise. Bob Wise is 
President of the Alliance for Excellent Education, and he has 
held that position since February 2005. Prior to joining the 
Alliance, Governor Wise was Governor of West Virginia, and 
prior to that he was our colleague here in the House of 
Representatives from 1983 to 2001, where he was very active on 
the issues of clean air, and mental health where he provided 
the first parity bill.
    Is that right? Yes. And we welcome you here today, Governor 
Wise, and I look forward to your testimony.
    We will also hear from Jane Norwood, who is the Vice Chair 
of the North Carolina State Board of Education, and a professor 
in the Department of Curriculum and Instruction at Appalachian 
State University. Dr. Norwood is also Past President of both 
the North Carolina College Professors of Reading and the North 
Carolina Council of International Reading Association.
    Dr. Cuca Maria Robledo Montecel is the Executive Director 
of the Intercultural Development Research Association in San 
Antonio. Dr. Robledo Montecel is a nationally recognized expert 
on the prevention and recovery of dropouts. She has chaired the 
San Antonio Community Education Leadership program and has 
served as a board member of the Hispanic Chamber of Commerce.
    Kenneth Smith is President and CEO of the Jobs for 
America's Graduates, Inc. And prior to founding Jobs for 
American Graduates, Mr. Smith served as staff aide to President 
Nixon and founded 70001 Limited, a nonprofit organization 
dedicated to helping high school dropouts obtain employment. He 
also served as a senior advisor to Delaware Governor Pierre du 
Pont.
    And I believe Mrs. McCarthy is going to introduce our 
remaining witness, Mr. Trump.
    Mrs. McCarthy. Thank you, Mr. Chairman, and thank you for 
having this hearing. I would like to introduce Ken Trump to the 
panel.
    Ken is an expert in the area of K-through-12 school safety 
and emergency preparedness training and consulting, and is 
based in Cleveland, Ohio. He has over 20 years of full-time 
experience in the school safety profession and has worked with 
school and public safety officials in 45 States.
    Ken has authored two books and 45 articles on school safety 
and emergency preparedness issues. He is also knowledgeable in 
gang prevention and intervention and related youth safety 
topics serving on an anti-gun committee in Cleveland.
    He was also an invited attendee at the White House 
Conference on School Safety in October of 2006. Ken has also 
testified before the Senate Health, Education, Labor, and 
Pensions Committee as a school safety and crisis expert.
    Mr. Trump, I want to thank you for your tireless efforts on 
school safety and for your being here today. The committee will 
benefit greatly from your input on the issue of school safety.
    Chairman Miller. Thank you.
    Welcome to all of you. We look forward to your testimony. 
Those of you who have not testified, when you begin to speak, 
we will ask you to turn on your microphone and bring it toward 
you so everybody in the room can hear. And a green light will 
go on in front of you; and then when you have a minute 
remaining, an orange light will go on, and you should consider 
trying to wrap up your remarks; and then a red light, and that 
should allow us time for questions from the members of the 
committee.
    Governor Wise, Bob, welcome to the committee. And I just 
would like to say to the witnesses, this is a topic that is 
discussed among the Members of Congress on the floor of the 
House when we are having conversations about our districts. The 
questions of these two issues, of dropout--school dropout rates 
and what causes that, and what we can do to prevent it. And, of 
course, the issue of school safety.
    So your appearance here is important to us, and we 
appreciate your taking your time and for all of your experience 
in these fields.

 STATEMENT OF HON. BOB WISE, PRESIDENT, ALLIANCE FOR EXCELLENT 
     EDUCATION, AND FORMER GOVERNOR, STATE OF WEST VIRGINIA

    Mr. Wise. Thank you, Mr. Chairman. And it is a pleasure to 
be back in front of you and the members of the committee 
around, also, your importance in tying together safety and 
learning because learning can't take place if it is not in a 
safe environment. Since you have taken about the first 3 
minutes of my statement, eloquently outlining the crisis--and 
indeed it is a crisis in high schools----
    Chairman Miller. Oh, you are far more eloquent though. So 
you can go ahead and repeat it, and they won't even recognize 
it.
    Mr. Wise [continuing]. I am going to move forward to 
recommendations, except to make one point that when many of us 
have the privilege of attending high school commencements 
during this next month, and we watch those young people 
joyfully walk across the commencement stage, just remember that 
there are also over 1 million that are not walking across that 
stage that started in the ninth grade with them. Unfortunately, 
for those young people, graduation day is just another day of 
either being in the unemployment line or minimum wage job.
    So--almost one out of three of our ninth graders starting 
will not finish in a 4-year period, so we know and you laid out 
well, I thought, Mr. Chairman, in your statement the nature of 
the crisis in high schools.
    Could I talk a little about what can be done under No Child 
Left Behind and also why we are where we are? I would like, 
first, to address the missing middle in our Nation's secondary 
schools. And that is the Federal funding that goes to middle 
and high schools.
    If I could draw an air graph, starting from the table to 
the top here and that is $18 billion, this reflects what the 
Federal Government spends directly for K-through-6, Title I-
Head Start, pre-K-to-6 and a billion dollars for Reading First 
for $18 billion.
    Over here is higher education, postsecondary; it is around 
$16 billion. It is Pell Grants, financial aid, does not include 
guaranteed student loans, that would be much higher.
    So what are we spending then, in comparison, on middle and 
high schools? Here is middle schools at about $2.5, and here 
are high schools at about $2.5 for a total of $5 billion in our 
secondary schools system.
    We don't want one penny taken out of these other areas. 
They don't get enough. But we do think we ought to be looking 
at the commitment that is being made in middle and high 
schools.
    Secondary to look at is No Child Left Behind, which I 
support the concepts of, but it does not hold true 
accountability at the high school level. The law looks at test 
scores, but it does not look at whether students actually 
graduate. It is like running students around the mile track, 
and we rigorously assess them at every tenth of a mile except 
the finish line, and then we throw it out. And so Congressman 
Hinojosa, for instance, has been trying to address this problem 
for some years now with the Graduation for All Act.
    Beyond accountability, the school improvement requirements 
under NCLB, namely school choice and supplemental educational 
services, don't work at the high school level. One reason, 75 
percent of school districts only have one high school; choice 
doesn't apply there.
    There is another major reason that really affects all of 
Title I, or all of high schools, and that is that the main 
carrot and the stick under NCLB is Title I funding and yet only 
8 percent of students receiving Title I services are in high 
schools. Therefore, whether or not a high school makes AYP or 
not really doesn't matter; the supports and the sanctions 
simply aren't available for them.
    Now, there are successful models. Ken Smith talks for Jobs 
for America's Graduates; the Institute for Student Achievement, 
talent development; go look at Jeb Stewart just a few miles 
from here in Virginia, Granger High School. All have proven 
that with the right elements that you referred to, Mr. 
Chairman, even schools filled with low-income and minority 
students, who start out way behind, can succeed.
    What can we do to address this problem? Well, one thing we 
can do is to have improved measures of AYP that also have 
graduation rates as a strong determinant.
    Second is then using this improved measure of AYP to 
determine whether or not schools qualify for a new high school 
improvement fund that uses proven strategies to turn around 
low-performing schools. This would be essentially State run. 
The districts would have the turnaround teams, but the Federal 
Government would team with them.
    Incidentally, this new vision for high school reform is 
actually included in bipartisan legislation being introduced in 
the Senate today by Senators Bingaman, Burr and Kennedy, called 
the Graduation Promise Act.
    What other measures? Well, 71 percent of our eighth graders 
are reading below grade level according to the National 
Assessment for Educational Progress. So authorization of a 
Striving Readers program--and, Congressman Yarmuth, your 
efforts, we greatly appreciate--and the sponsorship of this is 
critical to making sure that they are able to help the 70 
percent reading below grade level to meet the content standards 
of their tougher courses.
    We would also look at NCLB including a major investment in 
States' quality data systems in accordance with the 
recommendations of the data quality campaign. From the 
classroom to this committee room, we need good data to make the 
decisions that are so important.
    And finally, let me leave you with one last thought, and 
that is that there are more than 15,000 high schools in this 
country, yet only 2,000 of them, 15 percent, are producing half 
of America's dropouts. We know where they are. We know what to 
do about it. The question is whether in this reauthorization of 
No Child Left Behind we have the will to do something about it.
    Thank you very much.
    Chairman Miller. Thank you.
    [The statement of Mr. Wise follows:]

Prepared Statement of Hon. Bob Wise, President, Alliance for Excellent 
           Education, Former Governor, State of West Virginia

    Mr. Chairman, thank you for the invitation to speak with you today. 
I appreciate your commitment to education, as well as that of the other 
distinguished Members of the Committee.
    In the coming month, millions of high school seniors will walk 
across the stage at graduation ceremonies to receive their high school 
diplomas. Auditoriums and gymnasiums around the country will be packed 
to the brim with proud parents and relatives. For many students, 
Graduation Day will be the culmination of thirteen years of study; for 
others, it will be the doorway to postsecondary education. But for 
nearly 1.2 million students nationally who started high school with 
these graduating students, it will likely be just another day that they 
are unemployed or working at a minimum wage job because they have 
already dropped out of school.
    For students to succeed in high school or at any level of 
education, it is critical that they feel safe and engaged in their 
schools. My organization, the Alliance for Excellent Education, has 
developed a list of the ten elements of a successful high school for 
students and their families. Those elements are: challenging classes, 
personal attention for all students, extra help for those who need it, 
skilled teachers, strong leaders, necessary resources, user-friendly 
information for families and the community, bringing the real world 
into the classroom, family and community involvement, and a safe 
learning environment.
    As a parent, I worry first that my child is safe, both physically 
and emotionally, and then I worry about the teaching and curriculum. 
Every high school must guarantee the safety of its students, teachers, 
staff, and visitors, and every school should be kept free of drugs, 
weapons, and gangs. School leaders should build a climate of trust and 
respect, which includes encouraging peaceful solutions to conflict and 
responding directly to bullying, verbal abuse, or other threats. 
Schools are the guardians of our children during the day and all else 
is second to their security. Safety and engagement are the pillars of 
dropout prevention in our schools. For students to be successful, 
though, we must also ensure that they graduate from high school with 
the skills necessary to succeed in college and the twenty-first century 
workforce.
Crisis and Economic Impact
    Forty years ago, the United States was number one in the world in 
high school graduation rates; it now ranks seventeenth. The nation's 
fifteen-year-olds, when measured against their counterparts in other 
industrialized nations, rank fifteenth in reading, twenty-third in 
math, and thirtieth in problem-solving skills.
    This does not bode well for the future economic well-being of the 
nation, nor for the continued prosperity of its people. An increasingly 
global, technologically-based economy is demanding ever higher levels 
of knowledge and skills from its workers. The U.S. Department of Labor 
estimates that almost 90 percent of the fastest growing U.S. jobs 
require at least some postsecondary education.
    In a world in which a meaningful high school diploma has become the 
minimum qualification necessary to obtain a good job and support family 
well-being, far too many American students are being allowed to fall 
off the path to prosperity. This problem has escalated to crisis 
proportions in thousands of the nation's high schools and is hampering 
the opportunities of millions of students.
    Every school day, 7,000 students drop out--that's 7,000 students 
who could have become teachers or researchers, small business owners, 
or Representatives. Of the students who enter ninth grade each fall, a 
third will not graduate from high school within four years. Another 
third will graduate but without the skills and knowledge needed to 
succeed in college or the twenty-first century workplace. And only a 
third will graduate four years later with those necessary skills.
    The dropout levels are particularly acute in roughly 2,000 high 
schools across the country. Research by Robert Balfanz and Nettie 
Legters of the Center for Social Organization of Schools at Johns 
Hopkins University has shown that about 15 percent of the nation's high 
schools produce close to half of its dropouts. These schools are the 
nation's dropout factories. They have weak promoting power--the number 
of seniors is routinely no more than 60 percent of freshmen four years 
earlier. Year after year, often for a decade or longer, about as many 
students drop out as graduate. In the worst cases, a freshman class of 
four hundred often produce 150 or fewer graduates.
    The numbers are even worse for minority communities in our country. 
Only about 55 percent of black students and 52 percent of Hispanic 
students graduate from high school on time with a regular diploma, 
compared to 78 percent of white students. Only 16 percent of Latino 
students and 23 percent of African-American students graduate prepared 
for college, compared to 40 percent of white students. And the news 
could get worse. Based on projections from the U.S. Census Bureau, the 
white population is expected to grow by only 1 percent by 2020, while 
the Hispanic population will increase by 77 percent and the African-
American population by 32 percent. If the nation cannot do a better job 
of serving minority students and ensuring that they graduate from high 
school, the nation's overall graduation rate will fall even further as 
a growing number of minority students are left behind.
    Dropouts are not the only ones who pay the price for a lack of a 
quality education. Analysis by my organization, the Alliance for 
Excellent Education, with assistance from the MetLife Foundation, 
reveals that if the 1.2 million high school dropouts from the Class of 
2006 had earned their diplomas instead of dropping out, the U.S. 
economy would have seen an additional $309 billion in wages over these 
students' lifetimes. And that's only for one year--we can expect the 
country to lose another $309 billion in potential earnings later this 
year as dropouts from the Class of 2007 fail to graduate with their 
classmates. If this annual pattern is allowed to continue, more than 12 
million students will drop out of school during the next decade at a 
cost to the nation of $3 trillion.
    Recent research conducted by a group of the nation's leading 
researchers in education and economics has shed some light on exactly 
how much a high school dropout costs the nation in lost taxes, 
increased health care costs, higher spending on crime, and more 
expenditure on support programs such as welfare. According to a recent 
report, which was published by Teachers College at Columbia University, 
male high school graduates earn up to $322,000 more over the course of 
their lifetimes than dropouts, while college graduates earn up to $1.3 
million more.
    On the flip side, the Alliance projects that if the U.S. education 
system could raise minority high school graduation rates to the current 
level of whites, and if those new graduates go on to postsecondary 
education at similar rates, additional personal income would increase 
by more than $310.4 billion by 2020, yielding additional tax revenues 
and a considerably improved economic picture.
    While some high school dropouts might eventually find good jobs and 
earn decent livings, most will spend their life in a state of 
uncertainty--periodically unemployed or on government assistance. Many 
will cycle in and out of prison. In fact, about 75 percent of America's 
state prison inmates, almost 59 percent of federal inmates, and 69 
percent of jail inmates did not complete high school. If we could 
increase the male graduation rate by only 5 percent, we could save $7.7 
billion a year by reducing crime related costs and increasing earnings.
    High school graduates have better health and tend to live longer 
than high school dropouts. Individuals with higher educational 
attainment also are less likely to use public health services such as 
Medicaid. An Alliance analysis found that if every student in the class 
of 2005-2006 graduated from high school, the nation could save $17.1 
billion in lifetime health costs.
Federal Role and NCLB Reauthorization
    The good news is that, although there is a significant crisis, we 
know much about how to respond. The reauthorization of the No Child 
Left Behind Act (NCLB) offers an opportunity for you as the education 
leaders in the House to put the ``Secondary'' into the Elementary and 
Secondary Education Act and take some critical steps towards improving 
our nation's middle and high schools. The realities of global 
competitiveness, the rapidly-diminishing prospects of those students 
whose high schools fail to prepare them for college and work, and the 
resulting widening opportunity gap all make middle and high school 
reform an imperative issue from an economic, national security and 
civil rights perspective.
    The time is right for the federal government to take bold 
leadership in advancing secondary school reform--leadership that is 
appropriate to the crisis and in line with the federal government's 
tradition of intervening to assure the security of the nation, reduce 
poverty and increase equity, and advance research to inform effective 
practice. The increasing urgency to address the trouble plaguing 
secondary schools has been bolstered by an avalanche of reports 
recognizing the link between improving secondary education and 
increasing and maintain competitiveness. Such reports include ETS's The 
Perfect Storm and National Council on Economic Education's Tough 
Choices--Tough Times.
    For education reform to truly take hold and be successful, it must 
happen at all levels of education, from the schoolhouse to Capitol 
Hill. As a nation, we will never reach the goals of No Child Left 
Behind or make every child a graduate without significantly increasing 
funding to improve America's high schools--levels of investment equal 
to the levels of reform. But I am not interested in simply making the 
current dysfunctional system just more expensive. Reforms must be 
targeted and research-based and investment should match that reform.
    Currently, there is little federal investment in our nation's high 
schools and we are getting what we pay for. As of now, the federal 
funding in education funds targets the bookends of the education 
system--concentrating on grades pre-K--6 and higher education. The 
``missing middle'' is our nation's secondary schools, which receive 
little to no funding from the federal level. Funding for grades pre-K--
6 totals nearly $18 billion. Funding for postsecondary education totals 
nearly $16 billion and that is without taking into account student 
loans or other tax incentives. However, funding for grades 7-12 is 
close to $5 billion.
Why NCLB Doesn't Work for Secondary Schools
    Unfortunately, the focus of NCLB reflects the current federal 
funding priorities in education--NCLB was just not set up for secondary 
schools. I am not here to criticize NCLB. I am here to tell you why it 
does not work for high schools and how you can fix them in 
reauthorization. However, I believe it is critical for us to remember 
all of the core reasons NCLB was written and became law when we discuss 
the crisis in our nation's high schools. The law was written to provide 
all children, including poor and minority children, with access to a 
high-quality, standards-based education--the same reasons federal 
action must occur at the high school level. NCLB, despite its 
shortcomings, has put a spotlight on the achievement gap--a gap that is 
startling at the high school level and illustrated in the shocking 
graduation rates I described earlier.
    NCLB was designed to address grades K-8 and generally it did not 
even really contemplate the law's interaction with secondary schools. 
For example, the original Bush Administration proposal was twenty-eight 
pages and only mentioned high schools twice. In addition, NAEP, known 
as the nation's report card, is only required in fourth and eighth 
grades so there is no on going national measure of student achievement. 
And, despite low literacy rates in the upper grades Reading First, the 
federal investment in reading skills, is only a K-3 program. As a 
result, NCLB policy is often neglectful of or even at odds with the 
needs of America's 14 million high school students, particularly the 6 
million students who are at risk of dropping out of school each year.
    NCLB at its core is about accountability for improving student 
achievement. However, there is not true accountability at the high 
school level--the law looks at test scores but not if students actually 
graduate. It's as if we are clocking runners in a race every mile but 
then do not pay attention to whether they cross the finish line. 
Because Adequate Yearly Progress (AYP) is focused solely on test 
scores, there is a perverse incentive to push out the kids who do not 
score well. Further, these tests generally measure proficiency in the 
tenth grade, not preparedness for graduation and beyond.
    Despite calculation of graduation rates being part of the law, 
there is no accountability tied to those rates. States calculate high 
school graduation rates in different and, in many cases highly 
inaccurate and misleading, ways. Subgroup graduation rates do not count 
for NCLB; therefore the graduation gaps and the low graduation rates of 
poor and minority are not reflected in AYP determinations. Even if the 
graduation rates were accurate and accounted for students in subgroups, 
NCLB does not require schools and states to make meaningful progress in 
increasing graduation rates. While states, districts and schools are 
held accountable for getting all students proficient in math and 
reading by 2014, there is no such ultimate goal for graduation rates. 
The consequences are that most states do not have meaningful goals for 
improving graduation rates each year and that schools can make AYP 
while showing little to no progress on graduation rates.
    In 2005, the National Governors Association (NGA) took an important 
first step in recognizing these problems and moving toward a solution. 
The NGA Graduation Rate Compact was originally signed by all fifty of 
the nation's governors pledging to adopt accurate and consistent 
measurements for reporting high school graduation rates. However, two 
states have since backed out of the commitment; only a few states have 
yet implemented the Compact rate; and because the Compact did not 
address accountability, definitions, rates, and growth goals for 
accountability are still not consistent state to state. NCLB should 
operationalize the Compact by requiring that graduation rates are 
disaggregated and increase over time as part of accountability.
    Beyond accountability, the school improvement requirements or 
sanctions under NCLB (which only apply to Title I schools, thus missing 
the vast majority of high schools) namely school choice and 
supplemental education services (SES), simply do not work at the high 
school level. School choice often is not applicable at the high school 
level. Seventy-five percent of school districts have only one high 
school. In cases where districts do contain more than one high school, 
they are often concentrated urban districts with many low-performing 
high schools. And in the cases where such districts do contain high-
performing high schools, those schools only have a handful of transfer 
slots available, thus ensuring no real improvement for a failing high 
school. In the case of SES, because Title I funding is extremely 
limited, very few students in high schools actually receive the 
services. Further, given extracurricular, social and work demands, high 
school students are not likely to opt in to extra tutoring. Finally, 
regardless of whether or not SES and school choice even could work for 
high school students, neither provide the research-based improvement 
strategies that will turn around low-performing high schools.
    At the root of why NCLB does not work for high schools is the fact 
that of Title I funds almost never even reach high schools. Title I is 
both the ``carrot'' and the ``stick'' that gives NCLB impetus. NCLB 
requires all schools to report on their assessment performance every 
year, however sanctions only apply to and are funded for the schools 
receiving Title I funds. Yet only 8 percent of Title I participants are 
high school students. Other major funding streams are also not reaching 
high schools. Seventy percent of entering freshmen cannot read at grade 
level. However, the major federal investment in reading, Reading First, 
stops in third grade.
    Given the problems facing our nation's secondary schools, secondary 
schools need systemic reforms that NCLB simply does not provide or 
require. Much is now known about how to renew and revitalize the 
country's middle and high schools so as to ensure that more students 
succeed. Local school districts and the states have an undisputed and 
critical role to play in redesigning the nation's secondary schools to 
meet the needs of the 21st century, and many of them are working hard 
to implement effective reforms. Schools such as JEB Stuart High School 
in Falls Church, Virginia and Granger High School in Yakima, Washington 
and programs such as Institute for Student Achievement (ISA) and Talent 
Development, in communities scattered across the nation are proving 
that with high expectations and the necessary support, today's 
students--even those who are most highly at risk of dropping out--are 
up to the challenge. These schools are successfully keeping students in 
attendance, improving their achievement levels, and graduating them 
prepared for success.
NCLB Reauthorization and High Schools
    For all of the reasons I described earlier, the Alliance believes 
NCLB reauthorization must look at multiple means to improve the 
nation's high schools from accountability and improvement to literacy 
to critical data systems. First, I will discuss accountability and 
school improvement, the cornerstone of federal school reform policy.
Accountability and Improvement
    To turn around low-performing high schools, NCLB must include a new 
system of meaningful high school accountability system that is tied 
closely with school improvement. While the current structure of NCLB 
does not work for high schools, it can be built upon to leverage the 
student achievement gains and improved preparedness and graduation 
rates needed for students and the nation to succeed.
    As discussed earlier, adequate yearly progress (AYP) currently does 
not include the appropriate indicators of a high school's performance. 
An appropriate measure of AYP at the high school level must include 
high quality assessments that are performance-based and aligned to 
college and work ready standards not administered before eleventh grade 
and consistent, disaggregated graduation rates. Both assessment 
performance and graduation rates should be required to increase over 
time. In this new system of accountability and improvement, such a 
measure of AYP would act as a ``thermometer'' to see if schools are 
meeting appropriate goals. In other words, it would tell us something 
is wrong but further diagnosis and treatment are needed.
    That improved measure of AYP would determine whether or not schools 
enter a new school differentiated improvement system. That new system, 
a High School Improvement Fund would turn around America's lowest 
performing high schools and give students attending those schools a 
chance to graduate ready for college and work. The High School 
Improvement Fund would support more comprehensive state accountability 
and improvement systems at the high school level.
    Under this new system of improvement, states would set up new 
statewide systems that utilize multiple measures or indicators to 
appropriately assess high school quality. Formula grants would be 
distributed to the states, based on poverty and graduation rates, to 
establish and/or expand statewide, differentiated high school 
improvement systems guided by research and best practice. These systems 
would be approved by the Secretary as part of a rigorous peer-review 
process. States would then develop a set of school performance 
indicators to be used, in addition to the new measures used to 
determine AYP, to analyze high school performance, determine the amount 
and type of support each school needs, and guide the school improvement 
process. States would also define a minimum amount of expected growth 
on each school performance indicator to demonstrate continuous and 
substantial progress.
    States would then determine how data from the school performance 
indicators and AYP data will be used to place high schools in need of 
improvement into one of three school improvement categories. Unlike 
current law, how schools fit into the following categories is not 
determined by how long the school has been failing, but by how badly 
the school is performing. The first category is schools needing 
targeted assistance, which are schools that have just missed making AYP 
and are performing well on most indicators, but a targeted 
intervention, such as improved instruction for ELL students or a school 
wide literacy plan, is likely to improve student outcomes. The second 
category is schools needing whole school reform, which are schools that 
have missed making AYP by a significant margin or for multiple 
subgroups and are struggling on most other indicators. Such schools 
could benefit from a school wide strategy to address the multiple 
layers of school improvement demonstrated from research and best 
practice. The third category is schools needing replacement which are 
schools that are failing large numbers of students by most or all 
measures and likely have been for some time. Improving student outcomes 
in those schools would call for replacement with more personalized, 
rigorous and well-designed school models.
    Under this new system, development and implementation of the 
improvement strategies would come from the local level. For each high 
school that did not make AYP and was placed into one of the three 
categories I just discussed, district-led school improvement teams 
would use the school performance data, a school capacity audit and 
needs assessment, and data about incoming ninth graders, to develop 
appropriate school improvement plans. The high school improvement plans 
would lay out the evidence-based academic and nonacademic interventions 
and resources necessary to improve student achievement, reduce dropout 
rates, meet annual benchmarks, and make adequate yearly progress. 
Districts would then apply to the state on behalf of their high 
schools, for funds necessary to implement the high school improvement 
plans and complementary district wide strategies. States would award 
subgrants to districts with approved applications, with funds going 
first to those districts serving high schools needing whole school 
reform or replacement.
    Districts and high school improvement teams would implement the 
high school improvement plans, directing funds first to implement the 
plans for schools in need of whole school reform or replacement. In 
subsequent years, high schools that meet the annual benchmarks on 
school performance indicators, even if they do not make AYP, could 
continue to implement the school improvement plan. High schools not 
meeting the annual benchmarks for two years would be redesignated into 
a different school improvement category and required to develop a new 
school improvement plan with state involvement.
    Research, evaluation and technical assistance are critical for this 
system to work. States would be able to reserve 10 percent of funds to 
implement the requirements of the statute and also to build the 
capacity to support the school improvement efforts. The Secretary would 
also reserve funds to provide technical assistance and regional 
training programs; to develop and implement or replicate effective 
research-based comprehensive high school reform models; and to evaluate 
the program and determine the most effective interventions.
    A new, more appropriate measure of AYP and the High School 
Improvement Fund provide the foundation for true, systemic high school 
reform. However, alone, a new accountability and improvement system 
will not be successful in preparing students to graduate with the 
skills to succeed in postsecondary education and the workforce. NCLB 
must include other measures that will inform teaching, support students 
and provide the interventions that will ultimately improve student 
achievement.
Striving Readers
    As I mentioned earlier, 70 percent of eighth graders cannot read at 
grade level. Unfortunately, the federal investment in reading, the 
Reading First program, disappears after third grade, which is exactly 
the point at which expectations for student literacy increase. This 
lack of basic reading skills contributes greatly to students failing to 
master the knowledge they need to succeed after graduation, or simply 
dropping out entirely. In the last year, Congress has repeatedly 
discussed improving our nation's competitiveness. Clearly education 
plays a critical role in how economically competitive we are as a 
nation. I understand the Senate may soon consider legislation on this 
very topic. While the conversation has focused tightly on math and 
science, I ask you to consider the role literacy plays in the success 
students have in math and science. A 2006 report by ACT found that high 
school students with higher level literacy skills performed better in 
math, science, and social studies courses in college, had higher 
college GPA's, and returned to college for a second year at higher 
rates.
    In response to the need, Congressman Yarmuth, a member of this 
Committee, will be introducing the Striving Readers Act, which would 
improve literacy skills by helping every state, district, and school 
develop comprehensive literacy plans that ensure every student reads 
and writes on grade level. The bill will support training teachers to 
use assessments and literacy strategies to help struggling readers, 
train leaders to support teachers, and provide reading materials for 
schools that lack them. NCLB must include Striving Readers so that low 
literacy is no longer a reason students fail to succeed in high school. 
I want to thank Congressman Yarmuth for his leadership and encourage 
all of the members of the Committee to cosponsor the bill when it is 
introduced.
Voluntary National Standards
    To be competitive, students need to leave high school with a 
college- and work-ready diploma. Our students and the nation are 
spending billions of dollars at the college level and in the workplace 
on remediation because our students are not leaving high school with 
the necessary skills. The Alliance estimates that the amount saved in 
remedial education costs at U.S. community colleges if high schools 
eliminate the need for remediation would be $3.7 billion a year. This 
figure includes $1.4 billion to provide remedial education to students 
who have recently completed high school, and this figure includes in 
the almost $2.3 billion that the economy loses because remedial reading 
students are more likely to drop out of college without a degree, 
thereby reducing their earning potential.
    NCLB should establish a process for developing shared education 
standards to ensure that all students are held to the same high 
expectations aligned with the requirements of postsecondary education 
and the workforce. The federal government should also offer states 
high-quality performance assessments to regularly measure student 
progress towards those standards and fulfill the testing requirements 
of NCLB. This action would remove a significant financial burden from 
states and increase the quality of assessments. In addition, the 
federal government should provide states with incentives and supports 
for adopting such standards and aligning them with their key systems, 
such as their curricula, graduation requirements, and professional 
development.
Data Systems
    To turn around low-performing high schools, educators and policy 
makers need accurate information about how students are doing in 
school. High-quality longitudinal data systems using individual student 
identifiers are critical to improving student achievement. However, 
most states and school districts have not yet fully implemented such 
systems. The federal government must help states build the 
infrastructure needed for data to be collected, reported to the public 
and used by educators to improve education. NCLB should include a major 
investment in grants to states to build such systems in accordance with 
the recommendations of the Data Quality Campaign, as well as grants to 
build the capacity to use data to improve teaching and learning through 
professional development, effective data collection and other key 
functions. NCLB should include $100 million in competitive grants to 
build those systems, and $100 million in formula grants to every state 
to align those systems with district systems and build educator 
capacity at state and local level to use the data to improve teaching 
and learning.
Thank you
    Again, I want to thank the Chairman and the Committee for their 
leadership on this critical issue. I urge you to seize the opportunity 
of NCLB reauthorization to take our nation's high schools into the 
twenty-first century. The quality of high school education is 
increasingly central to national concerns, including securing the 
nation's global economic position, reducing threats to national 
security, and assuring equal opportunity for a population that is 
growing increasingly diverse. By appropriately extending its education 
focus to include the needs of students in middle and high schools, the 
federal government can move the nation from ``no child left behind'' to 
``every child a graduate.''
                                 ______
                                 
    Chairman Miller. Dr. Norwood?

STATEMENT OF DR. JANE NORWOOD, VICE CHAIR, NORTH CAROLINA STATE 
                       BOARD OF EDUCATION

    Ms. Norwood. Good afternoon, Chairman Miller, Ranking 
Member McKeon and members of the committee. On behalf of the 
National Association of State Boards of Education, I want to 
thank you for the opportunity to appear before you today to 
talk about graduation rates and what we need to do----
    Chairman Miller. Could I ask if you could just pull the 
microphone a little closer to you.
    Ms. Norwood [continuing]. And what we need to do to ensure 
that every child has the opportunity to graduate from high 
school, ready for college and work in the 21st century. In 
North Carolina we are moving toward greater accountability with 
more accurate data and reforming our system accordingly.
    My colleagues at State Boards of Education from around the 
country are also engaged in similar efforts to improve the high 
school curriculum and raise student achievement. We recognize 
that the institution of the American high school must undergo 
sweeping improvements in order to prepare all students for 
today's economy. High schools must reject the notion that 
students with differing abilities should be prepared for 
different futures.
    Today, I would like to share with you the lessons we have 
learned and what the implications may be for your work at the 
Federal level. Effective high school reforms must focus on the 
core issues of literacy, high school structure, teacher quality 
and dropout prevention. 21st century high schools should ensure 
that every student takes relevant, challenging and integrated 
courses taught by qualified teachers and has the opportunity to 
access online and higher education courses.
    Graduation rates and dropout prevention are perhaps the 
most pressing concerns at this time. Many States have begun to 
accurately measure and report graduation rates as a first step 
toward dramatically improving dropout prevention efforts and 
closing achievement gaps.
    In North Carolina, we decided to calculate a 4-year cohort 
graduation rate, that is, students who started ninth grade and 
graduate 4 years later rather than an annual dropout rate that 
only counted incidences of dropout. In February we reported our 
first 4-year cohort graduation rate of 68.1 percent, a dramatic 
downward revision from previous figures that had prompted 
State, local and general public attention to prevent these 
dropouts.
    Beyond simply calculating rates accurately, we must reform 
our education system to improve graduation rates and prevent 
and recover dropouts. We have to use dropout information to 
help students. This will take a systemic effort across numerous 
policy areas to align standards with college and work 
expectations, ensure access to rigorous courses and early 
college opportunities, promote support for struggling students, 
promote interventions in our most chronically underperforming 
schools and more.
    Last year, our State board approved a framework for a more 
rigorous high school curriculum that will better prepare 
students to succeed in their postsecondary and workforce 
careers known as the Future-Ready Core. The framework consists 
of 17 courses critical to the economic and societal demands of 
the 21st century. Examples of other innovation are that our 
General Assembly funded literacy coaches at middle schools. 
Schools are offering summer transition programs to ease 
students into new high school environments. Also many of our 
high schools are implementing ninth grade academies.
    North Carolina students can also attend Learn and Earn High 
Schools. Students in these programs can earn an Associate 
Degree before leaving high school, a degree that will transfer 
to the university system and satisfy the first 2 years of a 4-
year degree.
    Nationally, school districts have developed plans that 
create early identification and innovation for students who are 
considered at risk. There are dual enrollment opportunities and 
early college high schools; increasing the compulsory 
attendance age, for example, from 16 to 18; recovering or 
regaining students that have dropped out; establishing truancy 
prevention programs which involve schools, law enforcement 
agencies, families, business community and social service 
agencies working together; and partnering with community 
college and the adult education community to entice dropouts to 
return by offering them an alternative education path to 
recover credits and receive their diploma through 
nontraditional means, such as the North Carolina Virtual Public 
School.
    We simply cannot achieve the overarching goals of No Child 
Left Behind without effective high school reforms. More support 
is needed from the Federal level for reform and to increase 
graduation rates, from codifying the right rates to supporting 
a range of efforts and interventions. This assessment should 
reinforce the wide-ranging work going on in the States and 
promote continuous innovation.
    We call the three Rs of dropout prevention ``Reform, 
Relevancy and Reading.''
    In crafting dropout prevention and high school reform 
policies, policymakers cannot lose sight of relevancy of the 
real-world impact and reaction of their best-intended efforts 
at the school and classroom level. We need to be sensitive to 
the unique circumstances, interests, needs and demands of 
students.
    Finally, nothing can be accomplished unless we dramatically 
improve literacy rates, especially of high school students. 
Nothing less than a new paradigm is required, one based on 
joint problem solving, collaboration, practice and collective 
accountability that engages students in purposeful reading, 
writing and all subjects being taught.
    In today's world, we must communicate the message that a 
high school education has become a bare necessity and should be 
a minimum expectation, if not a basic right, for all students. 
We have an obligation at the local, State and Federal level to 
protect and promote this right.
    Thank you again for the opportunity to testify on this very 
important topic. I look forward to answering any questions you 
may have.
    Chairman Miller. Thank you.
    [The statement of Ms. Norwood follows:]

  Prepared Statement of Dr. Jane Norwood, Vice-Chair, North Carolina 
                        State Board of Education

    Good afternoon, Chairman Miller, Ranking Member McKeon, and members 
of the committee. On behalf of the North Carolina State Board of 
Education and the National Association of State Boards of Education--
NASBE--I want to thank you for the opportunity to appear before you 
today to talk about graduation rates and what we need to do together to 
ensure that every child has the opportunity to graduate from high 
school ready for college and work in the 21st century.
    In North Carolina we have taken great strides toward focusing on 
this vital issue, moving toward greater accountability with more 
accurate data, and reforming our system accordingly. North Carolina may 
be a leader in high school reform, but we are not alone in these 
efforts. My colleagues on state boards of education from around the 
country are engaged in similar efforts to improve the high school 
curriculum and raise student achievement. Over the last several years, 
as a national organization NASBE has undertaken multiple projects 
related to graduation rates and accountability. I am proud that NASBE 
and my state are partners with the Gates Foundation in redesigning high 
schools. We recognize that the institution of the American high school 
must undergo sweeping improvements in order to prepare all students for 
today's economy. High schools must reject the notion that students with 
different abilities should be prepared for different futures.
    Today I'd like to share with you some of the actions we are taking, 
the lessons we have learned, and what the implications may be for your 
work at the federal level.
Overview of the Issue
    Effective high school reforms must focus on the core issues of 
literacy, high school structure (including use of the school day and 
the school calendar), teacher quality, and dropout prevention. 21st 
Century high schools should ensure that every student takes relevant, 
challenging, and integrated courses taught by qualified teachers and 
has the opportunity to access online and higher education courses.
    Among reform strategies, graduation rates and dropout prevention 
are perhaps the most pressing concerns at this time.
    Nationally, we have learned a lot about graduation rates and their 
meaning. To reinforce the work of the Alliance for Excellent Education, 
the National Governor's Association graduation rate task force, and 
others, many states have begun to accurately measure and report 
graduation rates as a first step toward dramatically improving dropout 
prevention efforts and closing achievement gaps.
    In North Carolina, the first step in addressing the dropout 
epidemic was the decision to calculate a four-year cohort graduation 
rate in keeping with the Governors Compact, rather than an annual drop 
out rate that only counted incidences of drop out during one year. The 
dropout problem needed to be more personal--it needed to represent the 
students who were in school in grade nine and absent at graduation. We 
do not include in our graduation rate any student we can't verify as 
attending another education institution, excluding the community 
college system unless students are attending it as part of a public 
high school program and not a GED program.
    Indeed, in February we reported our first four-year cohort 
graduation rate of 68.1 percent, a dramatic downward revision from 
previous figures that has prompted state and local leader scrutiny of, 
and public attention to, reducing dropout rates.
Moving Forward: Beyond the Graduation Rate
    Beyond simply calculating rates accurately, however, we must reform 
our educational systems to dramatically improve graduation rates and 
prevent and recover dropouts. It is not enough to have accurate rates--
we have to use that information to help students. And here I have to 
tell you that our experience is that this will take a systemic effort 
across numerous policy areas--to align standards with college and work 
expectations, ensure access to rigorous courses and early college 
opportunities, promote supports for struggling students in reading and 
other areas, promote interventions in our most chronically 
underperforming schools, and more.
    Last year, our state board approved a framework for a more rigorous 
high school curriculum that will better prepare students to succeed in 
their post-secondary and workforce careers. Known as the ``Future-Ready 
Core,'' the framework consists of 17 courses, including four units of 
English and four units of math, our board has identified as critical to 
the economic and societal demands of the 21st century.
    In addition, our General Assembly is funding literacy coaches at 
middle schools to ensure that students entering ninth grade are 
stronger readers. Many of our high schools are offering summer 
transition programs to ease students into the new high school 
environment. Also many of our high schools are implementing Ninth Grade 
Academies. These smaller learning environments offer additional support 
to students in English Language Arts, Reading, and Mathematics.
    North Carolina students can also attend Learn and Earn High 
Schools. Students in these programs can earn an Associate Degree before 
leaving high school--a degree that will transfer to the university 
system and satisfy the first two years of a four-year degree. Governor 
Easley is asking the General Assembly to fund the final two years of 
college for eligible students whose families qualify at two times the 
national poverty level. Those students would graduate from college 
debt-free. Strong incentives for staying in school such as the ones 
cited are being developed to keep North Carolina students from dropping 
out.
    Nationally, many states and school districts have developed plans 
that create early identification systems for students who are 
considered ``at-risk.'' A few states have focused on dual enrollment 
opportunities and early college high schools, programs that are 
designed to encourage students to earn college credit while completing 
high school in an effort to take a preventive approach to curbing the 
drop out problem.
    One approach to curbing the dropout rates some states are taking is 
to increase the compulsory attendance age, for example, from 16 to 18. 
However, in most cases a parent or guardian can allow a student to 
withdraw from school by signing a written consent form. Although this 
tactic has become increasingly popular among states, critics have 
argued that compulsory attendance laws take away freedom and make the 
case that teenagers who are kept in school against their wishes will 
not learn.
    School systems are also making efforts to recover or regain 
students who have dropped out. This generally includes establishing 
truancy prevention programs, which offer services to help students 
overcome personal and social obstacles that have led to a decline in 
attendance. These strategies bring together schools, law enforcement 
agencies, families, the business community, and social services 
agencies.
    School districts have also partnered with community colleges and 
the adult education community to entice dropouts to return by offering 
an alternative education path that allows students to recover credits 
and receive a diploma through nontraditional means. Recovery efforts 
are still in their infancy, but many education officials are now 
beginning to understand the importance of re--engaging the dropout 
population through nontraditional techniques. In North Carolina 
students can access credit recovery courses through the North Carolina 
Virtual Public School.
Moving Forward: Implications for Federal Policymakers
    But more broadly, we simply cannot achieve the overarching goals of 
the No Child Left Behind Act--100% student proficiency and closing the 
achievement gap--without effective high school reforms. Moving ahead, 
all of this suggests some important lessons for your work at the 
federal level. In summary, more support is needed for high school 
reform and to dramatically increase graduation rates, from codifying 
the right rates to supporting a range of efforts and interventions. 
This assistance should reinforce the wide-ranging work going on in the 
states, and promote continued innovation.
    There are several effective systemic solutions that can be 
incorporated into state and federal policies. You hear a lot about the 
three R's so I offer 3 R's to help you remember my testimony today: 
Reform, Relevancy, and Reading.
    Reforms must promote intervention and recovery efforts as part of 
the comprehensive restructuring of high school. Creating an ``early 
warning system'' can be helpful in preventing students from dropping 
out. Other initiatives can include identification and turnaround 
efforts at schools graduating low percentages of students. In North 
Carolina, with the help of Gates dollars, the Department of Public 
Instruction has added a turnaround division to work with low-performing 
high schools. This turnaround effort provides a leadership coach for 
the high school principal who also participates in extensive 
professional development offered through the University of North 
Carolina. Curriculum specialists broker needed content-based staff 
development for teachers who often times are inexperienced or new to 
the state and are unfamiliar with the North Carolina standards.
    It is critical that states, schools, and districts have accurate 
data in order to address the dropout problem. Key to this effort is 
improving the ability of schools to calculate the precise number of 
students leaving school, along with developing robust state data 
systems.
    We also need to more carefully scrutinize the milestone transitions 
in the middle of the P-16 continuum. A student's move from elementary 
school to middle school, and the middle school to high school transfer 
are fraught with academic, emotional, and social strains on students, 
many of whom we would already consider ``at-risk.''
    These comprehensive reforms cannot succeed without the broad 
support of education stakeholders and the public. Just last week, the 
State Board of Education hosted a second retreat on high school reform. 
Over one hundred people representing education, business, nonprofit, 
and civic sectors gathered to discuss high school reforms. The purpose 
of the discussions was to measure the amount of progress being made in 
high school initiatives currently underway and to set strategies for 
scaling up promising practices and findings. In North Carolina, we 
believe that if high school reform is to be effective, the whole 
community must grasp the urgency for change and feel ownership of any 
new redesign.
    The second ``R'' is relevancy. In crafting dropout prevention and 
high school reform policies, policymakers cannot lose sight of the real 
world impact and reaction of their best-intended efforts at the school 
and classroom level. We need to be sensitive to the unique 
circumstances, interests, needs, and demands of students and schools. 
States must provide access to the full range of curriculum offerings 
and courses of study to all students.
    For example, NASBE will soon undertake a new national research 
project on student participation in high school athletics and the link 
between athletics and academics. In preparing for this project, we came 
to appreciate the recognition policymakers must give to the integral 
role athletics now often plays in the high school experience when 
crafting high school reform policies. In working to improve the quality 
of secondary schools, educators cannot ignore the significant influence 
athletics can have on academic decision-making, and vice versa. Any 
successful comprehensive high school reform--such as longer school 
days--must take into account the impact on athletic programs because it 
is one of the primary considerations of many local communities across 
the country.
    Finally, nothing can be accomplished unless we dramatically improve 
literacy rates among students, especially the reading skills of high 
school students. Individually, middle and high school students lacking 
the necessary literacy skills are more likely to dropout, go to jail, 
and be unemployed. More broadly, the national literacy crisis will 
seriously hinder this nation's ability to sustain its economy and well-
being into the 21st century. I am pleased to have chaired a year-long 
NASBE study of adolescent literacy. The result was a report, Reading at 
Risk, detailing the status of student literacy rates across the nation 
and policy recommendations for a new vision of teaching and learning 
for all students.
    You all are no doubt aware of the damning and dismal statistics. 
The scope of the literacy problem is staggering. According to the 
National Assessment of Education Progress (NAEP), approximately two-
thirds of 8thand 12th-graders read below the proficient level. For 
minority students, almost half of African American and Latino 8th-
graders read below basic level. Accordingly, it is estimated that about 
half of the incoming 9th-graders in urban, high-poverty schools read 
three years or more below grade level, meaning that large numbers of 
entering students cannot comprehend factual information from their 
subject matter texts and struggle to form general understandings, 
develop interpretations, and make text connections.
    Nothing less than a new paradigm is required--one based on joint 
problem-solving, collaborative practice, and collective accountability 
that engages students in purposeful reading and writing in all subjects 
being taught.
    Brenda Welburn, NASBE's Executive Director, has called reading a 
``basic human right.'' ``An inability to read in today's world,'' she 
says, ``is to be consigned to educational, social and economic 
failure--an existence entirely devoid of meaningful life, liberty, or 
the pursuit of happiness. School leaders have an absolute and 
unequivocal educational responsibility and moral obligation to ensure 
that every child learns how to read, and read well.''
Conclusion
    In today's world we, as education leaders, must communicate the 
message that a high school education--a high school diploma--has become 
a bare necessity and should be a minimum expectation, if not a basic 
right, for all students. We have an obligation to protect and promote 
this right. Effective, meaningful and rigorous high school reform 
policies are needed at the local, state, and federal levels in order to 
increase graduation rates, prevent dropouts and raise overall student 
achievement.
    Thank you again for the opportunity to testify on this very 
important topic. I look forward to answering any questions that you may 
have.
                                 ______
                                 
    Chairman Miller. Dr. Robledo Montecel.

STATEMENT OF MARIA ROBLEDO MONTECEL, PH.D., EXECUTIVE DIRECTOR, 
         INTERCULTURAL DEVELOPMENT RESEARCH ASSOCIATION

    Dr. Robledo Montecel. Chairman Miller, Ranking Member 
McKeon, distinguished members, good afternoon and thank you for 
the invitation to appear before you.
    I am the Executive Director of the Intercultural 
Development Research in San Antonio, Texas. IDRA is an 
independent research and training organization. For 34 years we 
have worked closely with schools, school systems, parents and 
communities across the country. Our goal is to assure that 
every child has access to quality education that prepares him 
or her for a good life and for a productive contribution to 
this great democracy that are these United States.
    We have partnered with thousands of educators, 
administrators and business, family and community leaders to 
strengthen public education at national, State and local 
levels. IDRA designed and leads the award-winning Coca-Cola 
Youth Program, a model program that has helped schools in the 
United States and in Brazil succeed in keeping 98 percent of 
students in school and learning.
    In 1986, I served as principal investigator for one of the 
first statewide studies of school dropouts. With that study, 
IDRA developed in Texas an enrollment-based methodology that 
has become the foundation for dropout counting methods across 
the country, including those at the Harvard Civil Rights 
Project and the Urban Institute. That seminal IDRA study also 
looked at the cost of undereducating our young people.
    Findings from our annual cost study totaled over 20 years 
indicate that $730 billion have been lost to the State of Texas 
alone. With the magnitude of these losses what is needed is a 
seismic shift from dropout prevention to graduation for all. 
And all must mean all. Many dropout prevention efforts fail 
because they are too small or piecemeal or because they blame 
students or parents or minority communities for the problem.
    Dropout prevention efforts also fail because all too often 
schools plan for a failure. Recently, I was talking with a 
teacher. She had been hired to teach freshman English in a 
large inner city high school. When she learned she had 38 
students and that they had been assigned to her class, she 
marched to the principal's office and said to him she could 
never do a good job with 38 students in one class. He told her, 
don't worry, in 6 weeks your class will have 24 students. The 
other 14, he assured her, will drop out within 6 weeks.
    We need to be honest about the fact that right now we plan 
on one-third of students leaving school before they graduate. 
We plan on children leaving school. This assumption is built 
into classroom assignments, teacher hiring practices, 
curriculum purchases and facilities planning.
    It is time to plan for success, not failure. To move from 
dropout prevention to graduation for all, I would offer 
primarily recommendations focused at the campus, district and 
systems levels. At the campus level, strengthen and support 
school level change through local accountability teams. 
Community oversight is the critical missing ingredient in 
effective and accountable dropout prevention efforts at the 
local level. Local accountability teams would review the local 
dropout and graduation data disaggregated by subgroups, as well 
as data on school factors affecting the graduation rate, such 
as parent involvement, student engagement, curriculum access 
and teaching quality. Using these data, a team would develop a 
comprehensive plan of action to include all students. Funding 
priorities would be based on campuses with the lowest 
graduation rates.
    Secondly, fund district-wide efforts that focus on 
elementary to middle and middle to high school transition 
points. Research very clearly shows that students drop out at 
key transition points. Research also shows that there are 
effective strategies that create safe passage for all of our 
students.
    Chairman Miller. Excuse me. I am told that your microphone 
is not on, and I am worried about recording this.
    Go ahead. Just proceed.
    Dr. Robledo Montecel. Sorry. That is why I had to----
    Chairman Miller. You were doing well in the room. It is 
just the recording. If I can hear you, let me tell you, they 
heard you.
    Dr. Robledo Montecel. Secondly, we fund district-wide 
efforts that focus on elementary to middle and middle to high 
school transition points. Research shows that students drop out 
at key transition points. Research also shows there are 
effective strategies that create safe passage for students.
    Targeted school districts would demonstrate use of 
effective and coordinated practices that align curriculum, that 
create cross-level student tracking systems, that support joint 
planning and coordinated professional development. Funding 
priorities would be based on States and school systems with the 
lowest graduation rates.
    Thirdly and finally, our recommendation is to fund the 
Graduation for All Act and comprehensive efforts that will 
address the issue of graduation for all students. I would also 
recommend that you designate a minimum of 5 percent of NCLB 
allocations within each title to efforts that graduate all 
students.
    Planning for success obviously requires investment. 
Designating 5 percent of Title I to address dropout strategies 
for disadvantaged students is clearly needed, and every 
component of NCLB can play a unique role in graduating students 
from high school. The same would be true for preparing, 
training and recruiting high-quality teachers out of Title II, 
improving language and instruction for ELL students out of 
Title III and informing parents out of Title V.
    If 5 percent of NCLB allocations within each title were 
designated for graduation for all efforts, it would cost the 
equivalent of $900 for each of the almost 1.3 million students 
who drop out of school each year. Many schools in our country 
operate on a 100-day instructional day schedule, which means 
what is being recommended is a $5-a-day investment.
    In this country, not so long ago, it seemed unreasonable to 
think that we would have universal education through primary 
school. We have that. Now we must have universal education 
through high school. Our children deserve it, our democracy 
demands it, and our economy requires no less.
    Chairman Miller. Thank you.
    [The statement of Dr. Robledo Montecel follows:]

    Prepared Statement of Maria Robledo Montecel, Ph.D., Executive 
        Director, Intercultural Development Research Association

    Mr. Chairman and distinguished Members of the Committee, thank you 
for the invitation to appear before you to discuss an emerging vision 
that ensures graduation for all.
    I am Maria Robledo Montecel, executive director of the 
Intercultural Development Research Association in San Antonio, Texas. 
IDRA is an independent, non-profit organization founded in 1973, 
committed to one mission: creating schools that work for all children, 
especially those children who have traditionally been left behind--
those who are poor, minority or speak a language other than English.
    We have partnered with thousands of educators, administrators, and 
business, family and community leaders to strengthen public education 
at the national, state and local levels. IDRA designed and leads the 
award-winning Coca-Cola Valued Youth Program, a model program that has 
helped schools in the United States and Brazil succeed in keeping 98 
percent of students in school and learning.
    IDRA has worked with schools in Arkansas, Louisiana, New Mexico, 
Oklahoma and Texas through our federally-funded equity assistance 
center and across Texas through our federally-funded Parent Information 
and Resource Center. We have partnered with thousands of educators, 
administrators, and business, family and community leaders to 
strengthen public education in Arizona, California, Georgia, Michigan, 
Oregon and Pennsylvania, among many others.
    We have worked closely with schools and school systems, helping 
them address the requirements of the No Child Left Behind Act. In 
collaboration with the Public Education Network, IDRA conducted a 
statewide hearing in Texas on NCLB, bringing together stakeholders 
across the education spectrum to gain first-hand insight on NCLB 
implementation. IDRA has also partnered with the Hispanic Education 
Coalition to frame recommendations for NCLB reauthorization regarding 
English language learners; on which the Mexican American Legal Defense 
and Educational Fund recently testified before the Senate.
    In 1986, I served as principal investigator for one of the first 
statewide studies of school dropouts. With that study, IDRA developed 
an enrollment-based methodology that has become the foundation for 
dropout counting methods by other researchers across the country, 
including the Harvard Civil Rights Project and the Urban Institute. 
Since 1986, Texas schools have lost more than 2.5 million students. One 
student is lost every four minutes.
    That seminal study also looked at the cost of under-educating our 
young people. Findings from our annual cost study, when totaled over 20 
years, indicate that $730 billion have been lost to the state of Texas 
alone.
    But IDRA has never limited its work only to research the problem; 
it has also dedicated its work to creating solutions that keep students 
in school, such as IDRA's internationally recognized, research-based 
Coca-Cola Valued Youth Program.
    With the magnitude of this loss, what is needed is a seismic shift 
from ``dropout prevention'' to graduation for all; and ``all'' must 
mean ``all.'' Many dropout prevention efforts fail either because they 
are too narrow, or piecemeal, or because they blame students and 
parents for the problem. Dropout prevention efforts also fail because 
all too often schools plan for failure.
    Recently, I was talking with a teacher. She had been hired to teach 
freshman English in a large inner-city high school. She had finished 
preparing her curriculum, identifying books and her principal now sent 
her a list of students for the coming school year. When she learned 38 
students had been assigned to her class, she marched to the principal's 
office and told him that she could never do a good job with 38 students 
in one class. He told her: ``Not to worry. In six weeks, your class 
will have 24 students.'' The other 14, he assured her, will have 
dropped out by then.
    We need to be honest about the fact that right now we plan on one 
third of students leaving school before they graduate. This assumption 
is built into classroom assignments, teacher hiring practices, 
curriculum purchases and facilities planning.
    Some will say we cannot afford to adopt an emerging vision that 
expects all students to graduate. But this ignores the short- and long-
term costs of insufficient or misdirected action.
    Over the last two decades, the inability of schools to hold on to 
students through high school graduation has cost the state of Texas 
about $730.1 billion in forgone income, lost tax revenues, and 
increased job training, welfare, unemployment and criminal justice 
costs.
    It is estimated that across the United States, 1,252,396 students 
in 2004 did not graduate on time (Urban Institute). Based on this 
number, the cost to the country is $325 billion in lost wages, taxes 
and productivity for one class of students (Alliance for Excellent 
Education). By contrast, if every household were headed by an 
individual with at least a high school diploma, there would be an 
additional $74 billion in collective wealth in the United States 
(Alliance for Excellent Education).
    IDRA's research shows that for every $1 invested in education, 
states yield a $9 return. Texas economist Ray Perryman estimates that 
just a 10 percent reduction in dropouts would produce 175,000 new jobs 
in the state and $200 billion in economic output (Zellmer, 2004).
    We must move from a low and archaic expectation that only some of 
our country's students can successfully graduate from high school to a 
guarantee that all of our students will graduate.
    It is time to plan for success, not failure.
    To move from dropout prevention to graduation for all, I offer 
three primary recommendations focused at the campus, district and 
system levels.
    At the campus level, strengthen and support school-level change 
through Local Accountability Teams.
    Community oversight is a critical missing ingredient in effective 
and accountable dropout prevention efforts at the local level.
    For years, researchers, educators and policymakers have generally 
focused on ``fixing'' students rather than on strengthening the school 
systems that are responsible for ensuring that children and youth 
succeed throughout the educational system.
    It is not about fixing students; it is about schools that make a 
difference and succeed with all students. The student-deficit approach 
has never worked.
    What does work are dropout prevention efforts that focus on the 
inherent value of the students and their families. But it is critically 
important to recognize that what exists is not enough. Part of this 
emerging insight is that we cannot simply look for a new or better, or 
even another ``program''; what is needed are effective systemic reforms 
that will improve a school's holding power.
    We also know that schools and communities working together have the 
capacity to craft and carry out effective solutions that will make a 
difference for students.
    Most recently, under IDRA's new Graduation Guaranteed/Graduaci"n 
Garantizada initiative, we have been piloting a school holding power 
portal that gives community-school action teams data on how their 
schools are doing on student attrition and achievement. The portal 
provides data on the factors (from teaching quality to curriculum 
access and funding equity) that affect attrition, achievement and 
school holding power at the campus level.
    The community of El Paso has been a forerunner in these efforts. 
Last June, higher education and high school leaders in El Paso gathered 
more than 150 parents, educators, students, school board members and 
community members to raise awareness about high attrition rates and 
develop a plan for achieving their vision of 100-percent graduation for 
every child in their community. They asked IDRA to provide technical 
assistance, data and facilitation to support local action and used 
IDRA's Quality Schools Action Framework for their gathering 
(``ENFOQUE'') and next steps.
    Local accountability teams like this keep schools from working in 
isolation. They are better able to use best practices and create new 
solutions to strengthen the school's holding power for every student it 
serves.
    Local accountability teams would review their local dropout and 
graduation data, disaggregated by subgroups, as well as data on school 
factors affecting the graduation rate, such as parent involvement, 
student engagement, curriculum access and teaching quality. Using these 
data, the team would develop a comprehensive graduation plan of action 
to include all students. These plans would addresses local 
accountability, identification and removal of barriers, and the 
monitoring and evaluating of the plan's implementation. Teams would 
bring together critical stakeholders--parents, educators, community, 
business and higher education leaders and students. Funding priorities 
for pilot projects would be based on campuses with the lowest 
graduation rates.
    Secondly, fund district-wide efforts that focus on elementary-to-
middle and middle-to-high school transition points.
    Research shows that students drop out at key transition points. 
Research also shows that there are effective strategies that create 
safe passage for students.
    Targeted school districts would demonstrate use of effective and 
coordinated practices that align curricula, create cross-level student 
tracking systems, and support joint planning and coordinated 
professional development for teachers and administrators. Funding 
priorities would be based on states and school systems with the lowest 
graduation rates.
    Not too long ago, parents put their children on a flight to visit 
their grandparents across the country. When the flight arrived at its 
destination, the grandparents were there, eagerly waiting to greet 
their grandchildren. After everyone had left the airplane, the 
grandparents were frantic--where were their grandchildren? How could 
the airline have lost them?
    Quickly, the flight crew and airline agents mobilized to find those 
children, and in what seemed like an eternity the children were found 
in another airport. The airline president apologized profusely and 
promised to find out what had happened and change the system so that a 
child would never be lost again.
    In today's schools, two out of five students are lost, one out of 
two Hispanic students and one out of three African American students 
are missing. They never reach their final destination--high school 
graduation. Even worse, no one is looking for them, some will not even 
admit they are gone. Those who do admit they have lost students, 
usually blame the students or their families for the loss.
    Imagine if the airline president had said that their young charges 
had not arrived because they were minority or because their parents 
were poor or because the children were bored or were not ``good'' 
children.
    Instead, everyone in that airline took responsibility for ensuring 
safe passage for those young passengers.
    The same must be true of our schools. Schools, too, must take 
responsibility for ensuring safe passage for our children--they must 
hold on to them from the beginning of their journey to their final 
destination.
    With a newly focused NCLB investment, school districts across the 
country can shore up the key transition points that students face 
(elementary to middle to high school to college and university) to 
secure a ``safe passage'' when they are most vulnerable to lack of 
attention and support provided by schools.
    Thirdly, our recommendation is to fund HR 547 the Graduation for 
All Act and to designate a minimum of 5 percent of the NCLB allocations 
within each Title to efforts that focus on graduating all students.
    Research on best practices of high performing schools, for example, 
has for many years examined the links among a constellation of 
indicators on student outcomes.
    What is less well understood is which change strategies and school 
and community capacities will ensure that schools as systems can hold 
on to all students and secure their success.
    To bridge this gap, IDRA has been developing the Quality Schools 
Action Framework in our collaboration with schools and communities. It 
offers a model for assessing school outcomes, identifying leverage 
points for improvement, and focusing and effecting change.
    Students are far more likely to succeed and graduate when they have 
the chance to work with highly qualified, committed teachers, using 
effective, accessible curricula, when their parents and communities are 
engaged in their schools, and when they themselves feel engaged. We 
know that this becomes possible when schools and school policy reflect 
good governance and the funding to provide excellent education for all 
students.
    Planning for success requires investment.
    Every component of NCLB plays a unique role in all students 
graduating from high school. Title I focuses on improving academic 
achievement for disadvantaged students. Designating 5 percent of Title 
I to address dropout strategies for disadvantaged students is clearly 
needed. The same is true for preparing, training and recruiting high 
quality teachers (Title II); improving language and instruction for 
English language learner and immigrant students (Title III), and 
informing parents (Title V)--all key factors needed to increase 
graduation rates for all students.
    If 5 percent of NCLB allocations within each Title were designated 
for graduation for all efforts, it would cost an estimated $900 for 
each of the 1.3 million students who have dropped out of school. Many 
schools in our country operate on a 180-instructional-day schedule 
which means that what is being recommended is a $5 dollar a day 
investment.
    Just as successful schools require an integrated, coordinated plan 
that has everyone working together to support a common goal, it must 
also be the case that the reauthorization of NCLB set an example of 
integrated and coordinated policies and funding that are specifically 
targeted at improving high school graduation.
    In this country, not so long ago, it seemed unreasonable to think 
that we would have universal education through primary school. We have 
that. Now we must have universal education through high school.
                                 ______
                                 
    Chairman Miller. Mr. Smith.

 STATEMENT OF KENNETH M. SMITH, PRESIDENT, JOBS FOR AMERICA'S 
                           GRADUATES

    Mr. Smith. Thank you, Mr. Chairman, Ranking Member McKeon, 
for this opportunity to present a 26-year track record that has 
been carried out by Jobs for America's Graduates.
    Let me commend the committee on behalf of our Chairman, who 
is a former member of this organization, John Baldacci, who 
sends his regards for holding this hearing on a matter of such 
importance to our Nation and to our collective futures.
    We believe Jobs for America's Graduates is one of the 
Nation's largest and, we believe, most successful, consistently 
applied models. And I think that is important, that the 
statistics I am going to recite come from a consistently 
applied model over 26 years, 500,000 at-risk and disadvantaged 
young people. We believe we have a very long track record and 
we have an awful lot of bases upon which--for you to take a 
look and to make recommendations.
    The results over the 26 years are consistent and, we 
believe, compelling: a 93 percent return-to-school rate. These 
are the young people identified by the schools as most likely 
to drop out. A 92-plus percent graduation rate last year, 90 
percent overall for the last 26 years, and an 80 percent rate 
of success at the end of 12 months on the job, in college, in 
the military, or some combination.
    Over the past years, we have also developed, at the request 
of the schools and governors and others, a model to serve high 
school dropouts. We have about 5,000 high school dropouts 
enrolled in that application of our model.
    Let me just give you the lessons we think we have learned 
after all these years and a half million young people later. 
Improvements in curriculum and increased rigor are essential, 
but they are not sufficient if you really want to reduce the 
dropout rate.
    To best ensure success in reducing the dropout rate, there 
are several things we have learned that make a great deal of 
difference. Perhaps the most important is engagement. It 
appears to us to be a critical dimension of a sustainable 
strategy of dropout prevention and recovery. Everything seems 
to work if young people are engaged, and not much seems to work 
if they are not.
    Part of the engagement process is assembling the assets of 
the community as described here by others. Another we have come 
to find is the opportunity to be involved in a student 
organization, to be involved in something positive, 
constructive, that is aimed at high school graduation, that is 
aimed at success in the labor market.
    Ninety percent of our young people say they were never 
invited to join anything ever before. They never were invited 
to join anything. It makes an enormous difference. Come join 
the JAG Career Association, and not only that, would you like 
to be the president, the vice president, and you would like to 
be a leader? A fundamental ingredient to success is somebody 
who cares. You know that. We know that. It is so simple, but it 
is absolutely accurate.
    Accountability matters a lot. If you don't know where you 
are going, it is hard to get there. Work, it turns out, matters 
a lot. We have got some independent research that was conducted 
with funding from other organizations that shows that work for 
this population is part of the form of engagement. Twenty hours 
or less of work improves high school success because they have 
got a relationship with why they are going to school, and 
particularly if they are disadvantaged, they need the money.
    Employer involvement is very important. Community 
involvement is very important. We do need to have everybody to 
make this work.
    Maybe most importantly, we can do this. We can do this. We 
have got 26 years of experience that says, as the many other 
programs, this can be done. The difference is whether we can 
take it to scale.
    Let me just spend 2 minutes on engagement and some 
recommendations. We find that having a staff member who is that 
somebody who cares intensively involved with 35 or 40 of these 
at-risk young people every day, 7 days a week for as many years 
as you can makes a decisive difference, decisive difference. If 
you make those staff members accountable for graduation from 
high school and success on the job, that is a very powerful 
combination and it works.
    We offer a student organization, as I mentioned. These 
young people flock to it. It is remarkable how engaged they 
become and how excited they become, and they begin to show up 
for school because they have got a reason to be there.
    Getting involved in community service activities: It is 
great for the community; it is better for the kids. Self-
esteem, they are worth something, they are contributing back.
    Our recommendations for your consideration as you look at 
the various laws that you are going to reauthorize or act on 
this year: Absolutely, accountability is something that we 
continue to reinforce. Our experience says accountability gets 
results.
    We do encourage you to encourage engagement, encourage 
involvement, encourage ways for young people to be engaged in 
addition to academic work.
    Recognize the value of work. We have got a lot of data 
which we have got in your booklets. Work does make a 
difference. Lots of independent research demonstrates that.
    Value the role of both the teacher and the mentor, somebody 
who cares. Value that in your future legislation because those 
people make the difference in whether or not young people 
succeed.
    And finally, we encourage you to look ahead to scale. Take 
systems that work to scale, take evidence to scale.
    Even within existing resources, we could have a much 
greater impact if they were devoted to those things that have 
been proven to work. Thank you very much.
    Chairman Miller. Thank you.
    [The statement of Mr. Smith follows:]

 Prepared Statement of Kenneth M. Smith, President, Jobs for America's 
                               Graduates

    Mr. Chairman, thank you for the opportunity to present the 26 year 
track record of success and some of the most important lessons we have 
learned about dropout prevention and recovery over that quarter of a 
century.
    Let me commend the Committee, on behalf of our Chairman and your 
former colleague here in the House, Governor John Baldacci, for holding 
this hearing on a subject of such critical importance to the future of 
our nation as you consider the most important federal legislation 
impacting dropout prevention and dropout recovery strategies through 
the reauthorization of No Child Left Behind and other legislation later 
this year.
    Very briefly, Jobs for America's Graduates is one of the nation's 
largest and, we believe, most successful, consistently applied, 
national models of dropout prevention and, more recently, dropout 
recovery.
    Today JAG has a rare national ``footprint'', with operations in 30 
states, serving well over 40,000 of our nation's most at-risk youth and 
impacting over 1,000 communities across our country.
    JAG programs range from the inner-cities of Chicago, Atlanta, and 
Phoenix to the most rural parts of Eastern Montana, Northern New 
England, and a number of Native American Reservations and right here in 
our Nation's Capital.
    JAG also has one of the longest track records and bases of 
experience of any dropout prevention and youth development program. We 
are completing our 27th full year, having served well over 500,000 
high-risk youth in almost every socio-economic, geographic, and 
educational setting found in our country.
    The results over a quarter century are both consistent and, we 
believe, compelling:
    <bullet> A 93% return to school rate while targeting high-risk, 
dropout prone youth.
    <bullet> A 92.4 percent graduation rate for the most recent cohort.
    <bullet> An 80 percent overall success rate at the close of the 12-
month follow-up period after graduation, with graduates employed, 
pursuing a postsecondary education, and/or enlisted in the military.
    In addition, over the past eight years we developed and are now 
rolling out nationally an application of our Model serving dropouts 
specifically in conjunction with community colleges. Nearly 5,000 young 
adults are enrolled in that application of the JAG Model.
Lessons learned
    In the five minutes available, we thought it best to present to you 
some of the most important lessons learned over 26 years about what our 
experience and data suggests it takes to prevent dropouts, or to 
recover them:
    1. Improvements in curriculum and increased rigor are essential, 
but rarely sufficient to prevent dropouts or improve overall academic 
achievement for at-risk youth.
    2. To best ensure academic and economic success for at-risk youth, 
it is imperative to provide a fuller range of support and engagement 
which addresses non-cognitive needs.
    3. Engagement is, perhaps, the most critical dimension of a 
sustainable strategy of dropout prevention and recovery. Everything 
works if young people are engaged, they are involved, they see hope, 
and they feel a sense of self esteem. Very little works if they do not.
    4. Part of the engagement process is to ensure that the assets of 
the community are available to help overcome personal as well as 
academic barriers.
    5. Engaging young people with positive, ``real-world'' experiences 
such as school- and community-based service-learning and career 
exploration motivates young people to stay engaged with school, achieve 
academically, pursue higher goals and define themselves as positive 
contributors to the community.
    6. Offering engagement services where youth already congregate, 
such as school, makes it more likely that they will receive the support 
they need--and will be served by people who know them by name.
    7. In the end, a fundamental ingredient to success is having 
somebody who cares and who listens--somebody who is responsible for 
providing consistent support and mentoring and held accountable for the 
individuals' success.
    8. In addition to the key ingredient of a caring adult who serves 
as a mentor and guide, the other needs which must be met include safe 
places, healthy starts, effective education and opportunities for 
service and civic engagement.
    9. Overall accountability for success by the sponsoring 
organizations as well as for individuals who are entrusted with the 
educational and, in some cases, employment outcomes is another 
essential component.
    10. Work matters--a lot. Part-time work at 20 hours or less per 
week is very favorable for both the long-term income and academic 
success for dropout prone youth. As another form of engagement, it 
makes school much more relevant and understandable.
    11. Employer and community leader involvement in addition to 
education add important value to the sustainability of dropout 
prevention programs and rates of individual success.
    12. Most importantly for your consideration: We know what to do to 
cut dropouts rates and recover dropouts--whether it is our 26 years of 
experience, or that of others, we DO know what is effective. What, as a 
nation, we have not been able to do is take those proven solutions to 
scale.
    In short, there are proven solutions and methodologies for reducing 
dropouts, improving graduation rates, and ensuring transition to 
employment and further education for at-risk youth. With an emphasis on 
intensive engagement, clear accountability for educational success, 
work, and community involvement, we can reduce dropout rates very 
significantly--and we can do it now.
Engagement
    Time will not permit a full discussion on all of these conclusions. 
However, let me focus on that key issue of ``engagement.''
    Everything we have learned over 26 years serving over 500,000 high-
risk youth indicates that engagement is a key to dropout prevention. In 
our case that includes:
    <bullet> Intensive personal engagement by our staff member--the JAG 
teachers who are with our young people every day during school, and 
after school, during the summer and for weekend activities, and follow-
up over the course of the year after they graduate and go to work or 
college. Our staff members are constantly engaging our young people in 
constructive and interesting job preparation, educational advancement, 
and self esteem building activities.
    <bullet> The JAG model includes a highly motivational student 
organization, designed on the success of the vocational student 
organizations and Junior Achievement--but aimed for these at-risk 
youth--is another key. 90% of our young people tell us they had never 
been invited to join any organization ever before. The chance to be 
part of a group, a team, and to be offered opportunities to lead are 
all extremely powerful means for school retention and success.
    <bullet> Work is a vital form of engagement, we have found. That 
conclusion is backed up by recent research by the Center for Labor 
Market Studies. Work engagement enhances student achievement and 
success in school, especially for high-risk youth.
    <bullet> Engagement in community service activities, in service 
learning, and in school activities are all part of our student 
organization activities' core engagement process.
Recommendations for consideration for the reauthorization of No Child 
        Left Behind
    The recommendations we have are based on the experience I have 
discussed.
    <bullet> Accountability for educational outcomes is at the core of 
what we have learned leads to results.
    <bullet> Find ways to ensure high-risk youth in particular have 
serious and sustained opportunities for real engagement. Consider 
providing new opportunities for high-risk youth to be part of a 
positive student organization that reinforces educational success.
    <bullet> Recognize the value of work as a part of the educational 
success strategy, especially for high-risk youth.
    <bullet> Value the role of both the teachers and the role of the 
mentors--who may be the same, or a second individual.
    <bullet> Encourage/incent scale for proven methodologies to 
accelerate improvements in outcomes.
    Again, on behalf of Governor Baldacci and the Board of Directors of 
Jobs for America's Graduates, we very much appreciate this opportunity 
to share our 26 years of experience and would be more than pleased to 
answer any questions.
                                 ______
                                 
    Chairman Miller. Mr. Trump.

  STATEMENT OF KENNETH S. TRUMP, PRESIDENT AND CEO, NATIONAL 
           SCHOOL SAFETY AND SECURITY SERVICES, INC.

    Mr. Trump. Chairman Miller, Ranking Member McKeon and 
distinguished members, thank you for the invitation to be here 
today to speak with you about the most important issue to every 
parent in this country and education, the safety of their 
children.
    Congresswoman McCarthy, thank you for your leadership and 
your kind introduction, and allowing me to forgo the background 
and to go right into the important points here.
    For many school dropouts, maintaining the academic 
standards of No Child Left Behind is directly related to our 
ability to have safe and secure schools. Children cannot learn 
and teachers cannot teach if their focused attention is on 
their safety rather than what is going on in the classroom. 
Parents will forgive educators, legislators and everyone else 
if their test scores go down for a year. They will be much less 
forgiving if something happens to their child that could have 
been prevented or better managed in a crisis.
    Parents and educators are increasingly frustrated as they 
feel that support for school safety actually may be waning as 
we invest our resources into many other critical 
infrastructures to protect our homeland, but in recent years 
school safety funding and emergency planning funding have 
actually been cut.
    Three immediate steps, in my professional opinion, the 
Congress can help to address this issue include, No. 1, 
improving school crime reporting for K-through-12 schools so 
that we can identify trends and develop strategies accordingly; 
No.2, restore recently cut funding and look at future funding 
resources for expanding safety to children; and No.3, if 
necessary, look at the current Federal organization and 
structure for delivery of funding and school safety services to 
see if those mechanisms and administrative structures can be 
even more improved.
    No. 1, school safety crime reporting: One of the dirty 
little secrets in education today is that there is no 
comprehensive, mandatory Federal school crime reporting and 
tracking for K-through-12 schools. Current Federal crime and 
violence statistics largely rely upon academic research 
studies, not incident-based, incident-driven data based on real 
crimes that occur in school. While the Cleary Act that was 
enacted by Congress to improve crime reporting and data 
collection and communications to parents on a college level was 
a very positive move, K-through-12 schools do not have that 
information, and parents do not have that resource.
    Today, there is largely a hodgepodge collection of over a 
half-dozen academic surveys and research studies that tell us 
various things, but no data on actual crimes reported in 
schools, as many of you have seen on uniform crime reporting, 
for example, with the FBI on crime stats.
    To give you an example, the annual Indicators of School 
Crime and Safety Report: 2006 is best summed up in the one line 
on the section on violent school deaths which states, quote, 
``Data for school-associated violent deaths for 1999-2000 
through 2004-2005 school years are preliminary.'' how can we 
base policy and funding for 2007 and 2008 on preliminary data 
from 1999 to the present? This forces Congress to make funding 
and policy decisions based on a best-guesstimate approach, 
rather than real, actual crime data and can leave the American 
public being misled on the exact extent of violence in schools 
and our communities.
    When frontline educators and public safety officials hear 
the Indicator reports say, ``Violent crimes in schools are 
actually down 50 percent since 1992,'' they laugh. But this is 
not a laughing matter.
    The Gun-Free Schools Act, which Congress passed, actually 
has loopholes. It only requires schools to report students who 
are expelled for gun offenses. The key words here being 
``students'' and ``expelled.'' it does not include nonstudent 
adult trespassers, strangers who come onto the property, or 
even expelled students who come onto campus with a firearm. 
That is not mandatorily reported to the State and, in turn, 
collected at the Federal level.
    And there are also questions as to whether students who are 
special education students, who technically are not expelled, 
are actually reported because they may have modified 
educational placements but not expulsions. So are some 
significant gaps even in existing reporting structures.
    Ranking Member McKeon mentioned persistently dangerous 
schools and very appropriately said there were varying 
definitions and confusion in terms of what States are using to 
define ``persistently dangerous schools.'' and we know that in 
many school communities, due to the interest in protecting 
image, there has historically been a perception and culture of 
downplay, deny, deflect and defend when sharing information to 
parents in the community, even though schools are more open 
today to calling the police than ever.
    In my written testimony, Exhibit 3 actually identifies over 
20 national news stories in the last 5 years where crimes in 
schools have been underreported, including one situation where 
one State's largest school district failed to report over 
24,000 serious incidents including fights, thefts, drugs, sex 
and weapons offenses to the State as required by their State's 
law.
    Congresswoman McCarthy has introduced H.R. 354, the SAVE 
Act, that would improve accountability, accuracy and 
transparency in school crime reporting, build better guidance 
to school districts on crime reporting, close those loopholes 
in the Gun-Free Schools Act, and require States that 
incorporate the FBI's National Incident-Based Reporting System, 
NIBRS, in determining what is known as ``persistently dangerous 
schools'' while providing resources to schools who need help 
the most instead of punishing principals who accurately report 
and honestly tackle school crime problems.
    In short, we must shift the conversation from academic 
surveys to incident-based data so that we have accurate 
information. We have seen the Safe and Drug-Free Schools 
program deemed as ineffective largely because the PART 
assessment has determined the data was inaccurate.
    SAVE requires no new bureaucracies or overwhelming 
expenditures. It requires no invasion of privacy; the FBI will 
not be coming to a neighborhood near you to investigate your 
school crime assault in the bathroom. And it requires a focus 
on incident-based data, not individual-based data, where it 
would be an invasion of individual privacy.
    Number two, restoring funding cuts. Very briefly, the 
Emergency Response and Crisis Management grant, now known as 
the Readiness and Emergency Management grant in the Education 
Department has been cut almost 40 percent since 2003 from $39 
million in 2003 to $24 million this past year at a time where 
we are protecting our infrastructure and homeland security and 
other elements.
    I also encourage Congress to look at opening up the 
Nation's homeland security policy on funding to include 
schools. Schools are soft targets. We most recently saw--the 
FBI reported just a month ago a homeland security advisory 
about foreign nationals with extremist ties obtaining licenses 
to drive school buses and buy school buses.
    There are other examples that raise some concern, and 
many--all of us remember the Beslan, Russia, incident which was 
not unforeseeable, but--it could potentially happen here, but 
there is a denial to even discuss that possibility again, out 
of fear of alarming parents. And to look at our school funding 
of resource police officers, police officers in schools have 
been cut. Keeping in mind that our city and county law 
enforcement officials are our ``first responders,'' our 
educators are our ``very first responders.''
    And finally, I would say that, if necessary, I would 
encourage Congress to take a look--there has been a great deal 
of controversy and discussion about the effectiveness of the 
Safe and Drug-Free School program. What those in the field 
would ask of you is, if it is determined to be ineffective, 
that Congress act quickly to restructure, retool or define a 
replacement for that, so that we don't have the continued 
funding gaps; and to look at the structure so that Homeland 
Security, the Departments of Justice and Education can 
capitalize on their strengths.
    I thank you for your time. I thank you for your attention 
and encourage you to look at the SAVE Act and the accompanying 
bill to pass that, to change the backwards trends of Federal 
funding on school safety. Thank you.
    [The statement of Mr. Trump follows:]

  Prepared Statement of Kenneth S. Trump, President and CEO, National 
               School Safety and Security Services, Inc.

    Chairman Miller and distinguished committee members, thank you for 
inviting me to appear before you today to provide testimony on what 
undoubtedly is the number one education concern of parents in our 
nation: The safety and security of their children at school.
    My name is Kenneth Trump and I am the President and CEO of National 
School Safety and Security Services, Incorporated, a Cleveland (Ohio)-
based national consulting firm specializing in school security and 
school emergency preparedness consulting and training. I have 
personally had the opportunity to work with K-12 school officials and 
their public safety partners in urban, suburban, and rural communities 
in 45 states during my career of over 20 years in the school safety 
profession.
    In addition to working with educators and public safety officials 
nationwide, my background includes having served over seven years with 
the Cleveland City School District's Safety and Security Division as a 
high school and junior high school safety officer, a district-wide 
field investigator, and as founding supervisor of its nationally-
recognized Youth Gang Unit that contributed to a 39% reduction in 
school gang crimes and violence. I later served three years as director 
of security for the ninth-largest Ohio school district with 13,000 
students, where I also served as assistant director of a federal-funded 
model anti-gang project for three southwest Cleveland suburbs.
    I have authored two books and over 45 articles on school security 
and emergency preparedness issues. My education background includes 
having earned a Bachelor of Arts degree in Social Services (Criminal 
Justice concentration) and a Master of Public Administration degree 
from Cleveland State University; special certification for completing 
the Advanced Physical Security Training Program at the Federal Law 
Enforcement Training Center; and extensive specialized training on 
school safety and emergency planning, terrorism and homeland security, 
gang prevention and intervention, and related youth safety topics.
    Presently I volunteer as Chair of the Prevention Committee and 
Executive Committee member for Cleveland's Comprehensive Anti-Gang 
Initiative, one of six Department of Justice-funded federal and local 
collaborative model projects to address gangs through enforcement, 
prevention, and reentry strategies. I was an invited attendee at the 
White House Conference on School Safety in October of 2006. In 1999, I 
testified to the Senate Health, Education, Labor, and Pensions (HELP) 
Committee as a school safety and crisis expert.
    School districts and other organizations engage our services to 
evaluate school emergency preparedness plans, provide training on 
proactive school security strategies, develop and facilitate school 
tabletop exercises, conduct school security assessment evaluations, and 
consult with school administrators and board members on management 
plans for improving school safety. We have increasingly found ourselves 
also called to assist educators and their school communities with 
security and preparedness issues following high-profile incidents of 
school violence. In the past several years alone, we have worked in a 
school district where a student brought an AK-47 to school, fired shots 
in the halls, and then committed suicide; in a private school where 
death threats raised student and parental anxiety; and in a school 
district where a student brought a tree saw and machete to school, 
attacked students in his first period class, and sent multiple children 
to the hospital with serious injuries.
    My perspective on school safety is vastly different from the many 
other types of other witnesses you may have heard from in the past, or 
will hear from in the future. I am not an academician, researcher, 
psychologist, social worker, law enforcement official, or government 
agency representative. Instead, I bring to a perspective of front-line 
experience in working with public and private school staff, their 
public safety and community partners, and parents of our nation's 
children on school violence prevention, security risk reduction 
strategies, and emergency preparedness measures.
School climate: parental and student expectations and needs for 
        academic achievement
    Preventing school dropouts and meeting the academic standards our 
legislative and educational leaders have established, including those 
under the No Child Left Behind federal education law, requires that our 
schools first be safe. Children cannot learn and teachers cannot teach 
at their maximum capabilities if their attention is distracted by 
concerns about their personal safety. I have personally experienced 
firsthand in the school communities in which we have worked after a 
crisis how parental, student, and educator attention to safety trumps, 
and often consumes, the entire focus over academics in a school 
community for weeks and months, and sometimes years, after the tragedy.
    Parents will forgive educators, legislators, and others with whom 
they entrust their children's education and safety if their children's 
test scores go down for one year. They are much less forgiving if 
something harmful happens to their children that could have been 
prevented in the first place or better managed in a crisis which could 
not be averted. Parents, students, educators, and public safety 
officials are increasingly frustrated with what they believe to be a 
lack of awareness, interest, and support on school safety, especially 
as they have watched federal and state budgets for school safety and 
emergency planning being cut while resources are being increased 
elsewhere to better protect other critical infrastructure environments 
of our homeland.
    Parents are desperately looking to educators and their elected 
officials for help in better protecting their children in our nation's 
schools by improving violence prevention and intervention programs, 
developing improved threat assessment measures to provide for earlier 
detection and diversion of persons plotting to cause harm, improving 
school security measures in a balanced and comprehensive manner, and 
better preparing our educators for managing school crises and emergency 
situations which cannot be averted.
    Parents and educators are increasingly demanding that we not only 
do more, but do better, in improving safety in our educational climate. 
While many improvements in school safety, security, and emergency 
planning have been made in schools post-Columbine (April, 1999), the 
progress we saw in the months and years after that tragedy has been 
stalled and is slipping backwards in many school communities. Federal 
and state school safety funding cuts, pressures on meeting new academic 
standards, and diverted attention to the many other issues challenging 
our nation have caused school safety to fall to the back burner from 
here in inside the Beltway to our local neighborhood school offices.
    As we meet here today, eight years after the Columbine High School 
tragedy in 1999, we find ourselves discussing the many aspects of 
school safety that we were discussing eight years ago almost to the 
day. We cannot change school climate if we do not change the 
conversation. This hearing and your attention to school safety provides 
an opportunity to take meaningful steps to change the conversation and 
the backwards direction school safety policy and funding has taken in 
recent years so that we may prevent dropouts and protect those children 
and teachers whose focus should be firmly on the academic achievement 
we so strongly desire, instead of on their personal safety as they 
attend school.
Congressional action for improving school safety
    Congress is poised, beginning with the leadership of this Committee 
as demonstrated by your attention to school safety today, to take 
reasonable, practical, and meaningful steps to change the conversation, 
change the school climate, and make our nation's K-12 schools safer.
    Three immediate steps needed, in my professional opinion, include:
    1. Improve K-12 school crime reporting so that Congress, states, 
and local school districts will have incident-based data, instead of 
the current reliance upon perception and opinion based survey data, to 
make sound policy and funding decisions related to improving safety in 
America's schools;
    2. Restore recently cut funding, and expand future funding 
resources, for school violence prevention, school security, school-
based policing, and school emergency preparedness planning; and
    3. Examine the current federal organization and structure for the 
oversight and management of federal school safety policy, programming, 
and funding.
            1. Improve school safety by improving school crime 
                    reporting
    Congress can and should improve school crime reporting. If we 
cannot accurately identify the scope and severity of school crime and 
violence, we will never be able to reduce school crime and violence, 
and improve safety in our schools.
            Current federal school crime and violence data is limited 
                    to surveys, not incident-based data on school 
                    crimes and violence
    One of the ``dirty little secrets'' in our nation's education 
community is that there is no comprehensive, mandatory federal school 
crime reporting and tracking of actual school crime incidents for K-12 
schools. While Congress enacted the Cleary Act in 1990 to improve crime 
reporting and collecting on college campuses, K-12 schools have no such 
requirements or incident-driven data in place. Federal school crime and 
violence data by-and-large consists of a hodgepodge collection of just 
over a half-dozen academic surveys and research studies.
    The primary source of federal data on school crime and violence is 
known as the annual Indicators of School Crime and Safety Report. The 
most recent report, Indicators of School Crime and Safety: 2006 was 
released on December 3, 2006. Data in these reports is typically 
outdated by several years by the time it is published.
    One of best examples of the poor quality of federal data is 
reflected in the Indicators of School Crime and Safety: 2006 report 
itself in the section on, ``Indicator 1: Violent Deaths at School and 
Away from School.'' The last line in the first paragraph of this 
section states, ``Data for school-associated violent deaths from the 
1999-2000 through 2004-05 school years are preliminary.'' This leads to 
one simple question: If the data our federal government has on school-
associated violent deaths is only complete up to 1999, and the data for 
1999-2005 is ``preliminary,'' how can we expect to make solid school 
safety policy and funding decisions in 2007 and 2008?
    Exhibit 1 to this report includes a table from Appendix A of the 
2006 ``Indicators'' report which lists the half-dozen or so surveys and 
the limited sample sizes of each. Sadly, this is what Congress, state 
legislatures, local school districts often refer to for making policy 
and funding decisions, and for advising the American public on what 
they believe to be trends in school crime and violence.
    While we recognize the difficulties and limitations in federal data 
collection, and appreciate the fact that the surveys are certainly 
better than nothing, the fact is that they are still just that: 
Surveys. There is a vast difference between perception and opinion-
based survey, and actual incident-based data on actual occurrences of 
school crime and violence. The absence of incident-based data forces 
this very Congress to make federal policy and funding decisions based 
upon a ``best-guestimate'' approach driven by perceptions and opinions, 
rather than data on actual crimes which occur on school campuses.
    Most importantly, not only is Congress forced to make school safety 
policy and funding decisions based on a ``best-guestimate'' approach, 
but the American public is being inadvertently mislead when these 
surveys are being used to claim that school violence in America is 
actually decreasing over the past decade. When front-line educators and 
public safety officials hear quotes from this federal source claiming 
that violent school crime is down over 50% since 1992, they laugh. But 
this is no laughing matter. Still, the Department of Education and 
others inside and outside of the Beltway continue to claim school crime 
has been decreasing over the past decade, repeatedly referring to the 
``Indicators'' reports, and this very information has long been fed to 
those of you in Congress as a basis for making policy and funding 
decisions.
    How would we know if school crime is actually up or down when there 
is no actual incident-based federal data collection? It is widely 
believed by me and my colleagues in the school safety field that the 
federal survey data grossly underestimates the extent of school crime 
and violence. Reality exists somewhere in between, but statistically, 
nobody actually knows exactly where this ``somewhere'' is because there 
is no federal mandatory K-12 incident based data--just surveys.
    In fact, my non-scientific data collection from national news 
accounts and, educators and school safety officials working in schools, 
on school-associated violent deaths, which unlike the federal data is 
not ``preliminary'' and is up-to-date as of the last business day 
before this testimony, shows that school-associated violent deaths have 
increased from the 2000-2002 time period, and have remained steady the 
past few years. See Exhibit 2 for a chart of this data. While this data 
is not scientific, it does beg the question of a private citizen can 
monitor national news and school safety sources to put together more 
timely data than the federal government. Sadly, school and safety 
administrators have told us they rely on our informal data as being 
more accurate and timely than that produced by the federal government.
    Even data from the Gun Free Schools Act (GFSA) required by law 
passed by Congress is limited due to loopholes in reporting. The GFSA 
requires local education agencies to report to states students expelled 
for gun offenses on campuses. The key words here are ``students'' and 
``expelled''. Schools do not have to report non-students arrested on 
campuses with firearms because they are not students, nor would 
reporting be required for students who are already expelled due to 
other offenses but return to campus with a firearm. There are also 
questions as to whether special education students who offend are all 
being reported under GFSA since their disabilities may technically not 
result in ``expulsion'' from school, but instead in modified 
educational placements and services.
    Additionally, the ``Persistently Dangerous Schools'' component of 
the federal No Child Left Behind law requires states to create 
definitions of a ``persistently dangerous school'' so that parents may 
have the option of school choice. This label alone is considered to be 
the ``Scarlet Letter'' of education today. The result has been that to 
avoid creating a politically volatile relationship with local education 
agencies, states have created definitions of ``persistently dangerous'' 
that are so unreachable that they could not be met by most school 
districts even if they wanted the label. The result, at best, has been 
well intended legislation that has been lost in the politics of 
implementation.
    The aforementioned points should beg this Committee, and Congress 
in general, to ask how you can make sound policy and funding decisions 
when as a nation, we do not even have timely and accurate incident-
based data on how many school-associated violent deaths and gun 
offenses occur on campus, much less the many, many more common forms of 
school violence and crime such as assaults, sexual assaults, other 
weapons offenses (such as bladed weapons), threats and menacing, 
extortion, etc.
            School crimes are underreported to police, states, and to 
                    the public
    While educators today are more open to calling the police than ever 
before in the history of education, far too many principals, 
superintendents, and school board members still believe that the public 
will perceive them to be incompetent leaders and poor managers if the 
public becomes aware of crimes, violence, and serious discipline 
problems which occur in their schools. The result has been a historical 
culture of ``downplay, deny, deflect, and defend'' when it comes to 
local districts reporting crimes to police and discussing school 
crimes, violence, and discipline problems with parents.
    Exhibit 3 to this testimony is an extraction from our web page on 
school crime underreporting (See www.schoolsecurity.org/trends/school--
crime--reporting.html). The exhibit provides a synopsis of 
approximately 20 national news stories from the past five years which 
document examples of the underreporting of school crimes to police, 
states, and the public. Stories discussed situations including an 
initially unreported firearm discharge at a private school, a case 
where high school where a student was stabbed to death reported to 
their state no fights or assaults for the entire school year, and a 
situation where one state's largest school district failed to report 
over 24,000 serious incidents, including fights, thefts and drug, sex, 
and weapons offenses, to their state as required by law.
    Furthermore, I have personally conducted surveys of our nation's 
school-based police officers (School Resource Officers or SROs) which 
indicate that police who work in schools believe that school crimes are 
underreported to law enforcement. Four annual surveys of over 700 
officers per year, for each year from 2001 through 2004, found 84% to 
89% of school-based officers indicating that it is their professional 
belief that crimes occurring in schools have gone unreported to law 
enforcement. Most educational administrators will admit this as well, 
although they will do so privately versus going on the record since 
doing so would place their jobs at risk.
    Far too many educators also believe that if they even talk with 
parents about school security and emergency preparedness measures, it 
will alarm many parents and draw adverse media attention (many deem ANY 
media attention as being adverse, even when it is not). They also 
believe that what they perceive as ``negative attention'' that would be 
drawn from public awareness on school safety issues will also somehow 
jeopardize the public confidence in their leadership and, in turn, 
potentially jeopardize voter funding requests and parental/community 
support of the school district.
    Interestingly enough, most parents believe just the opposite of 
what some educators believe they would think. Parents tell us time and 
time again that their biggest fears are that there are not enough 
security measures in place at their children's schools and that school 
emergency planning is ``not on the radar'' of their school 
administrators. While some school officials too often are afraid of 
creating fear and an adverse image of themselves by talking about--and 
dealing with--school security and emergency preparedness issues, their 
resulting silence and inaction actually creates the very fear and 
negative images they so desperately want to avoid in the eyes of 
parents and the media.
    Why do so many local school administrators underreport school 
crime? The answer tends to fall into one of two categories:
    1) Many school administrators fail to distinguish crimes from 
violations of school rules. As such, many crimes are handled 
``administratively'' with disciplinary action, such as suspension or 
expulsion, but are never also reported to police for criminal 
prosecution. Oftentimes this is due to a lack of training of principals 
on distinguishing crimes from disruptive school rule violations, and/or 
a lack of clear policies and procedures (and a lack of enforcement for 
those that do exist) on reporting school crimes to police.
    2) Far too many school administrators believe that by reporting 
school crimes to the police, they will draw adverse media and public 
attention to their school. These school administrators believe that 
parents and the community will view them as poor managers of their 
schools if their school has a high number of incidents or appears in 
the media because of a school crime incident. Many building 
administrators (principals) are pressured by central office 
administrators and/or school boards, either directly or indirectly, if 
their school crime reports, discipline cases, suspensions or 
expulsions, etc. are ``high'' or ``higher'' than other schools.
    These ``image'' concerns result in the underreporting of school 
crimes for political and image purposes. Sadly, the honest principal 
who deals head-on with incidents and reports crimes, often unfairly 
suffers adverse political consequences while the principal who fails to 
report incidents and sweeps them under the carpet is rewarded 
administratively and from a public relations perspective for allegedly 
having a ``safer'' school. The reality is that the principal with the 
higher statistics may actually have a safer school because he or she 
deals with the problems head-on and reports incidents.
    It is therefore not surprising why some education associations and 
lobbyists may very well oppose incident-based school crime data, 
instead preferring to continue doing things the same old way by using 
limited academic surveys and research studies that do more accurately 
disclose the extent of school crime and violence to the American 
public. The challenge for Congress will be to determine whether it 
wishes to continue making policy and funding decisions based upon 
opinion and perception survey data, and in turn continue to get the 
same results we have had in recent years with school safety, or if 
Congress is willing to ``change the climate by changing the 
conversation'' through requiring the use of incident-based data.
H.R. 354--The SAVE Act
    This Committee, and your colleagues in Congress, can act now to 
make a difference in school safety. H.R. 354, the Safe Schools Against 
Violence in Education, or the ``SAVE'' Act, introduced by The Honorable 
Congresswoman Carolyn McCarthy of New York, calls for meaningful and 
practical steps to improve accountability, accuracy, and transparency 
to our nation's parents and educators in the reporting for school 
crimes and violence. It also calls for much better guidance on 
reporting school crimes, tightening of loopholes in the Gun Free 
Schools Act reporting, and the use of incident-based data (instead of 
just perception and opinion-based data from surveys) in determining 
safe climates for academic achievement (currently known as 
``persistently dangerous schools'' designation by states under No Child 
Left Behind).
    The SAVE Act closes the loopholes in the Gun Free Schools Act by 
including reporting requirements for students who are already expelled, 
removed or suspended from school, as well as non-students who may bring 
a firearm on campus or on a school bus. Current law only requires 
reporting on students who have been expelled. The Act will also require 
certification that data is accurate and reliable, an important 
component for improving accountability of those who report school crime 
data who may otherwise be tempted to underreport whenever the absence 
of such accountability certifications may allow them to do so.
    Equally important, The SAVE Act requires states to use already 
available data from the FBI's National Incident's Based Reporting 
System (NIBRS) in determining what is now known as ``persistently 
dangerous schools'', a label that The SAVE Act would modify to ``safe 
climate for academic achievement'' options to remove the stigma of 
``persistently dangerous'' which encourages underreporting by local 
schools. By enacting The SAVE Act, the introduction of NIBRS data into 
school safety policy and funding decisions would provide the first 
meaningful effort to shift the conversation on school safety in this 
country from one based upon perception and opinion surveys, to actual 
incident-based data on real crimes that actually occur at our nation's 
schools. Congress, state legislators, and local educators could finally 
begin to have a national and state data source on school crime based 
upon real incidents going on in our schools, rather than on the 
perceptions and opinions of a limited population tapped for an academic 
survey.
    We have already seen how the lack of good data can have a 
detrimental effect on safety programs. The Program Assessment Rating 
Tool (PART), a rating tool developed by the Administration, rated the 
Safe and Drug Free School state grants ``ineffective'' for FY 2007, 
because ED was unable to demonstrate that those programs worked. As a 
result, the Administration terminated the state grants programs in its 
FY2007 budget. The PART stated: ``while the program requires grantees 
to report their progress against locally developed measurable 
performance goals and objectives, this reporting does not produce 
comparable national data. The Department of Education has not provided 
national performance measures that help improve local programming 
decisions and are of equal use to State, local and Federal 
administrators.''
    The surveys can and should continue. But they should not be the 
sole source of school crime and violence data in our nation. Surveys 
can supplement actual incident-based data, and surveys can continue to 
exist along with the new focus on NIBRS incident-based data. Congress 
and others rely upon improved data to make public policy and funding 
decisions, just as they do with the current FBI Uniform Crime Reports 
on actual crime incidents in our communities, which is augmented by 
many research reports and victimization surveys on crime in our 
neighborhoods.
    The SAVE Act will also provide resources to schools that need it 
the most. We cannot continue punishing school administrators who 
accurately and honestly report school crimes. Educators who acknowledge 
school crime problems and tackle them head on should be provided the 
resources to correct the problem, instead of being left hanging out to 
try in the eyes of adverse media attention with no support for making 
their schools safer.
    Opponents of incident-based school crime reporting, who tend to 
prefer limited perception and opinion surveys over real crime data 
(perhaps to further the image and perception obstructions that are a 
part of the historical culture of education downplaying school crimes), 
often tend to cloud the issue with ridiculous assertions about the 
process and outcomes of moving to incident-based data. It is therefore 
important to recognize the following:
    1. The SAVE Act requires no new bureaucracies or overwhelming 
budgetary expenditures to collect school crime data. It simply calls 
for the breaking out of existing data in a manner to identify K-12 
school-based crime incidents.
    2. The SAVE Act reflects no invasion of privacy. The FBI or other 
federal agencies would not be ``coming into a school near you'' to 
investigate or oversee school criminal incidents.
    3. The SAVE Act focuses on incident-based data, not individual 
data. There would not be an invasion of privacy or focus on 
individuals, just a record of the number of types of incidents that 
occur.
    If presented opposition to the SAVE Act, members of Congress should 
simply ask the same question myself and my colleagues ask: ``Why would 
anyone be against having more accurate school crime data?'' In my 
experience of over 20-years in the school safety field, I have yet to 
be able to find a legitimate answer to this question.
    As such, I encourage Congress to pass H.R. 354, The SAVE Act, and 
its related H.R. 355, the feasibility study bill for exploring the 
NIBRS data collection school crime data reporting-out process 
identified in The SAVE Act.
    We cannot change the climate if we do not change the conversation. 
It is time for Congress to act to change the conversation if we expect 
to better identify school crime and violence problems and trends, and 
make meaningful and accurate policy and funding decisions for 
preventing and managing these problems.
            2. Restore recently cut funding, and expand future funding 
                    resources, for school violence prevention, school 
                    security, school-based policing, and school 
                    emergency preparedness planning
    In recent years, Congress has repeatedly cut funding for the 
federal Safe and Drug Free School Program which is the primary funding 
source for school safety and violence prevention efforts. It is worth 
noting again that the federal Program Assessment Rating Tool (PART) 
assessments which identified the state grants component of the Safe and 
Drug Free Schools Program as ``ineffective'' noted the problems with 
the lack of quality data associated with this program. Again, data 
lacking quality is impacting federal policy and funding on the major 
source of funding for keeping our schools safe.
    Additionally, even in today's world of attention to our nation's 
homeland security, federal funding for the Education Department's 
Emergency Response and Crisis Management (ERCM) program, now known as 
the Readiness and Emergency Management (REM) for Schools program, has 
been cut almost 40% since 2003. According to PowerPoint slide data from 
a presentation by a Department of Education official, the program has 
been cut from over $39 million awarded to 134 school sites in FY 03, to 
only $24 million awarded to 77 sites in FY06. See Exhibit 4 for this 
document detailing these facts.
    It is worth nothing that the numbers of applications for this ERCM/
REMS grant program have ranged from over 550 in its first year of FY03 
to 301, 406, and 379 the following years. Given the Department of 
Education has issued the RFP for this grant toward the end of each 
school year (April-May) and required submissions around May-June, it is 
logical to believe there would be greater interest and more 
applications had the Department not chosen to put out calls for 
proposals at the end of the school year when educators are focused on 
testing, graduations, and school-year closure and therefore have more 
difficulty in putting together complex grant applications with multi-
agency partners from their communities. Many of us in the school safety 
field believe the number of applications would be even greater if the 
call for proposals was put out earlier in the school year and not when 
school administrators are so overwhelmed with year-end school matters.
    At a time when Congress is funding more resources to protect our 
national infrastructure such as airports, monuments, and the hallways 
of our government offices themselves, how can we justify cutting almost 
40% from an already pithy amount of funding for helping to protect the 
children and teachers in the hallways of our nation's schools?
    Unlike many other narrowly focused federal grant programs, the ERCM 
(now REMS) grant provides for a comprehensive and balanced program 
consisting of prevention, mitigation, preparedness, and response 
components in order to be successfully funded. This means that school 
programs can be designed as they should, not skewed towards prevention 
programming-only or security/policing/emergency response-only, but 
designed instead with a balanced and comprehensive approach of 
prevention, preparedness, and response. The threats facing our schools 
today require nothing less.
    Congress should immediately act to restore funding cut for the ERCM 
(now REMS) program and significantly increase future funding multiple 
times the original already-under-funded $39 million funding allocation 
for this program. The need is significant. Reducing school emergency 
prevention and preparedness funding in a post-911 and post-Columbine 
world is illogical, counterintuitive, counterproductive, and 
inconsistent with our overall national homeland security philosophy of 
prevention and preparedness.
    Congress should also closely examine the issue of schools as 
potential targets for terrorism. Congress should make sure that K-12 
schools are an integral part of our nation's homeland security 
preparedness policy and funding. This should include opening up 
Homeland Security funding to K-12 schools for use in protecting schools 
and school buses. Schools clearly fit the definition of a ``soft 
target'' and an attack upon our schools would have not only a 
devastating impact on Americans emotionally, but a severe impact on the 
American economy if the ``business'' of education shut downs and/or is 
disrupted due to a catastrophic terror attack upon our educational 
infrastructure.
    We need only look at the following quote from the National 
Commission on Children and Terrorism's report of June 12, 2003: ``Every 
day 53 million young people attend more than 119,000 public and private 
schools where 6 million adults work as teachers or staff. Counting 
students and staff, on any given weekday more than one-fifth of the 
U.S. population can be found in schools.'' Schools and school buses 
have basically the same number of children at the same locations every 
day of the week in facilities and buses that are unquestionably soft 
targets.
    There are a number of ``red flags'' that appear to be going 
unnoticed in recent years. News reports in June of 2004 indicating a 
suspected sleeper-cell member of al-Qaeda who obtained a license to 
drive a school bus and haul hazardous materials; the reported 
(appropriate) reclassification of schools to a higher risk category in 
its national risk assessment program by the Department of Homeland 
Security in 2006; March of 2007 alert by the FBI and Homeland Security 
Departments about foreign national with extremist ties obtaining 
licenses to drive school buses and buying school buses; and even a top 
school administrators employed in the Detroit and DC schools who was 
federally charged in 2005 with a conspiracy with terrorists according 
to news reports. Add to that a number of other suspicious activities 
around schools across the country, the Beslan, Russia, school hostage 
siege and murders in 2004, and the history of schools and school buses 
being terror targets in the Middle East.
    In short, the tactics have been used elsewhere in the Middle East 
and in Beslan, Russia. An attack our educational system would have a 
devastating emotional and economic on America. And it is not 
unforeseeable except to those who do not wish to acknowledge and deal 
with it for political and image reasons.
    Yet to date, from inside the Beltway to our local communities, 
public officials have largely been afraid of talking about, and acting 
proactively upon, the idea of schools as potential terror targets out 
of fear of alarming parents. I pray we do not face the day where we 
have a ``911 Commission'' type hearing asking how a terrorist attack 
that occurred upon a school in the United States could have been 
avoided. We know that denial, downplay, and ``Ostrich Syndrome'' make 
us more vulnerable. We cannot continue the current course of ignoring 
the threat of terrorism to our nation's K-12 schools.
    Congress also needs to revisit federal funding for the hiring, and 
most of all for the training, of our nation's school police officers 
(known as School Resource Officers or SROs). Justice Department 
programs for School Resource Officers have suffered major cuts in 
recent years, in effect decimating the COPS in Schools program that 
helped to protect our children and educators. Funding for training 
school security personnel, in addition to school police officers, is 
sorely lacking and desperately needed as limited education funds are 
focused on academic achievement strategies for meeting mandated test 
score standards.
    While our local police, fire, and emergency medical service 
personnel are our ``first responders'', our educators, school security 
personnel, and school-based police officers are our ``VERY FIRST 
responders.'' We must give them the training and tools to do protect 
our children and teachers.
            3. Examine the current federal organization and structure 
                    for the oversight and management of federal school 
                    safety policy and programming
    Congress should also act in a swift and effective manner to 
determine the direction of the state grant component specifically, and 
the overall program in general, for the Safe and Drug Free School 
(SDFS) Program. The dramatic cuts of the SDFS program state grant 
allocations in recent years has resulted in this program bleeding a 
slow death. Our nation's educators cannot be left standing by idly 
while the major source of funding (SDFS) for school safety and violence 
prevention, and the aforementioned school emergency preparedness grants 
continue toward elimination.
    If Congress is determined to allow the SDFS to die, it needs to 
create a replacement source of primary funding for school violence 
prevention and preparedness. Perhaps then this would mean looking at 
making the EMCR/REMS grant program as the new model for federal funding 
of school crime and violence prevention, mitigation, preparedness, and 
response.
    Perhaps also it means Congress needs to look at how federal school 
safety and policy is managed in the federal government administrative 
structure. The Department of Education has long been the lead source 
for violence prevention curriculum, intervention programming, and 
dealing with strategies school as bullying prevention, youth suicide, 
and related prevention policy and funding, and many believe they the 
expertise for addressing these issues is best housed in the Education 
Department. Congress should explore whether the Departments of Justice 
and/or Homeland Security's richer history, experience, knowledge, and 
expertise with security, policing, and emergency preparedness 
programming would provide a more focused leadership on managing K-12 
school security, policing, and emergency preparedness components of our 
nation's school safety policy and funding. While these two departments 
do work, and should continue to work, with the Department of Education, 
perhaps the emphasis of responsibility for specific programmatic areas 
would be worthy of restructuring and/or realigning.
    In short, if the current program in the Department of Education is 
indeed determined to be ``ineffective,'' Congress needs to ``fix'' it 
and to do so quickly. While it is very questionable if the SDFS program 
is as ``broken'' as some believe, especially since it has been 
evaluated by PART using faulty data (or the absence of data), then 
there is a responsibility for Congress to replace it with an effective 
funding source
Closing comments
    I thank Chairman Miller and the members of this committee for 
seeking my input. We cannot change the climate of our educational 
institutions until we change the conversation. This Committee, and your 
colleagues in Congress, can change the conversation by improving school 
crime reporting, restoring and expanding funding for school crime 
prevention and emergency preparedness, and examining the structure and 
delivery of current federal school safety policy and funding delivery 
to better protect our nation's schools.
    I encourage you to act now by advancing H.R. 354 (The SAVE Act) and 
H.R. 355; by moving swiftly to address the backwards trend of federal 
school safety funding cuts our educators have been subjected to in 
recent years; and by examining whether the current housing, structure, 
and delivery of federal school safety policy and funding is adequate.
    Our nation's children and teachers depend upon your leadership and 
action today.
                               exhibit 1

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               exhibit 2

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               exhibit 3

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               exhibit 4

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
    Chairman Miller. Thanks very much to all of the panelists. 
And I can see a lot of interest here.
    Let me begin by linking this to discussion around No Child 
Left Behind, if I might. And to each of the panelists--I don't 
know if Mr. Trump wants to speak to this or not--but the 
question of whether or not there is an effort, not admitted to, 
but an effort to pushing students out because you are afraid of 
what they will do in terms of their test scores, whether this, 
in fact, is taking place or not.
    Dr. Norwood, whatever way you want to----
    Ms. Norwood. In my real life, not being a State board 
member, I worked with student teachers; and I can say that this 
is a reality. And what concerns me is not only the feeling that 
some students may be pushed out, but also--I am not sure that 
the general public is ready to accept the responsibility of 
keeping them in, because it is going to be expensive to keep 
them in.
    You have to have more teachers, you have to have more 
classrooms. This is indeed a problem.
    Chairman Miller. Governor Wise?
    Mr. Wise. I think--I think--I think I had better learn how 
to push this button.
    I think that the--what Dr. Norwood has said and also Dr. 
Montecel has illustrated, as well, ``push-out'' is a problem. 
But then also what is a problem is--and that only encourages 
more dropouts.
    We identified in one of our publications, one State had 22 
different ways to avoid classifying you as a dropout, although 
you weren't in school. And so this push-out is a problem.
    And then how you determine the final benchmark graduation 
rates is another which is critical. While under No Child Left 
Behind we would urge the Congress to make graduation rates one 
of the determinants of AYP and also to insist that graduation 
rates be disaggregated in the same manner that NCLB requires 
test data to be disaggregated so we can truly see who is and 
who isn't making it across the finish line.
    Chairman Miller. Thank you.
    Ms. Montecel?
    Dr. Robledo Montecel. Chairman Miller, I think it is 
absolutely so that push-outs are a reality in our schools and 
that in some cases that occurs as a result of the desire for 
school districts to look good and get rid of students that are 
not doing well on tests.
    I would urge us, though, to take a bit of a longer-term 
perspective, and I would suggest that accountability systems 
did not create dropouts. Losing children from our school 
systems has been a problem, is a problem.
    Chairman Miller. I understand that. And I am going to 
infringe on your time because there are two other questions I 
want to get answered.
    But it is just the question that that, in fact, is 
happening.
    Dr. Robledo Montecel. Hispanic dropouts has been at 80 
percent in the 1940s, so I am just saying accountability did 
not create dropouts.
    Mr. Smith. Mr. Chairman, I am sure that is true. What we 
see in the school districts we work in is, they push the 
students to us; not out, but to an alternative or to another 
option. In many ways, we prove we can keep 93 percent of them. 
We are an option before the push-out, but we do see it, I have 
to admit.
    Chairman Miller. Okay. Again, what data did we have?
    I was in a discussion with some people, and on the question 
of--we have a 4-year requirement--whether or not we should 
allow 5 years to keep some of these kids. And when they seek 
out the people who have left school, to bring them back, active 
programs to bring them back, a significant number of these 
students are actually very close to graduation. They may have 
35 out of 40 requirements and something has happened, and they 
did not come back.
    But when you get them to come back and a significant number 
of them end up graduating, why is this happening? Here they 
have shown diligence. And, one, is it accurate that there are a 
significant number of them that are, in fact, relatively close 
to graduation? And the ability to recover them----
    Mr. Wise. I will jump in first. The data that we use both 
from the Manhattan Institute, as well as the research arm of 
Education Weekly, plus NCS, suggests that the bulk of dropouts 
occur in the ninth and tenth grades, and that goes to some of 
the warning indicators that some of the other witnesses have 
talked about, which are, once you have failed a course, once 
you have been held back, once you have had a certain number of 
absences, you are much more inclined to drop out. And once you 
have been held back in the ninth grade, it is very difficult--a 
large number of those students will then drop out.
    There are a number that do get to 11th or 12th grade, and 
there you are dealing with boredom or failure to be engaged. 
They are easier to bring back.
    However, the data does seem to me to be pretty clear. We 
are seeing somewhere around 30 percent of our kids not cross 
the finish line; and of course, for kids of color, that number 
is far higher.
    Chairman Miller. Quickly, Ms. Norwood.
    Ms. Norwood. One of the things to think about with this is 
the kids, as Governor Wise said, that are close to graduation 
get out there and they see the problems of not having a high 
school diploma. And so then they are more willing to come back 
to finish it.
    But what happens when you lose them early is a major 
problem because we allow 16-year-olds to make life-changing 
decisions without their parents even being involved. A kid can 
walk into the counselor's office and say, I am leaving school 
today, and he is gone; we don't let him make other kinds of 
life decisions like that.
    So we need to have clear data on who is leaving and how to 
prevent----
    Chairman Miller. Mr. Smith?
    Mr. Smith. We said that we get 92 percent graduation rates. 
That is true. A third of them, to reinforce your point, don't 
occur until the late summer or the fall because by the time we 
get kids, they are already way behind.
    The good news is, we can stay with them until they 
graduate. But the evidence of our program and the evidence of 
our dropout recovery program is, there is a good portion that 
are pretty close.
    Chairman Miller. My time has expired here.
    I just want to say, Mr. Smith, I am really--I would like to 
get back to you on this question of ramping to scale if there 
is time, but I also want to thank you for your testimony. I 
have been telling my staff since November of last year, I 
attended a conference at the George Lucas Foundation, and we 
spent a couple days looking at successful programs, and I said, 
the watchword in education is going to become ``engagement,'' 
and there you are, you have finally arrived.
    They haven't listened to me until now. But thank you for 
your testimony.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. I served on a local 
school board for 9 years, and it was a high school board, and 
so we had 7 through 12, and I never could get a handle on 
dropout rates because--I don't know how--I don't know how 
anybody can say what the number is, because we don't have a 
system to know whether they have gone to another school or 
another State or another country and whether they have 
graduated someplace else. Am I wrong?
    Can you tell me, how you do track dropouts and how do we 
know for sure that people are dropping out, not graduating? 
Anybody.
    Ms. Norwood. This is one reason why North Carolina has gone 
to the cohort, the cohort group of who starts in ninth grade 
and who finishes in 4 years. We can keep that number. If they 
are there, we know they are there. If they are not there, that 
is what is left. And so that has worked well for us. As I said, 
we had to the bullet to have such a 68 percent number.
    Mr. McKeon. So if you have 68 percent that start in the 9th 
and graduate in the 12th, that doesn't really mean that you 
have a 32 percent dropout rate?
    Ms. Norwood. No, it doesn't mean we have a 32 percent 
dropout rate. But we aren't finishing with those kids in 4 
years.
    Mr. McKeon. You aren't, but somebody else may.
    Ms. Norwood. Well, we are counting--in our group, we are 
counting anyone who goes to community college for a program 
that is a high school program, not a GED. We are working, 
partnering with the community colleges to make sure where 
these--some of these people are. But if they leave the country, 
if they leave the State, we truly don't know.
    But we do know that in North Carolina last year we had like 
22,000 kids who dropped out. Now they may drop back in next 
year and drop out again, but 22,000 did leave schools last 
year.
    Mr. McKeon. But they may not have left school. They may 
have just left your schools.
    Ms. Norwood. But they did not ask for records and that type 
of thing.
    Mr. Wise. Mr. McKeon, you illustrate two problems. One is 
determining whether or not they are dropouts and the second one 
is what happens to them, which is why we think it is essential 
that NCLB also assists States in developing good longitudinal 
data systems that can truly track them.
    If there is a positive story coming out of Katrina, it is 
that when Katrina--Louisiana had a fairly sophisticated system 
and Texas has been developing one, and when the Katrina victims 
showed up in Texas schools, the two systems were able to talk 
to one another and trade information so these students could 
get situated.
    Well, we need to be doing the same. Florida is developing a 
system, a number of other States; there are 14 States that are 
presently receiving Federal assistance to do this. If you ramp 
that process up--and it is a relatively small dollar value; if 
you ramp that process up, you will be able to deal with many of 
the problems that you are talking about; and also you will have 
greater ability to make certain decisions, as well as every 
school board member, as well as every teacher in the classroom.
    Mr. McKeon. Until we really understand that, we don't 
really know what our dropout rate is; we don't really know what 
the problem is.
    I think, gut feeling, I have some--I have some feelings of 
why kids are dropping out. I think engagement. I think having 
something for them. If you are a ninth grader and you have no 
intention of going to college, and the only track is college 
preparatory and it is something you are just not interested in, 
we don't really offer much in the way of alternative. And so 
there you lose any chance for engagement.
    I think that this is a problem that has a lot of different 
solutions. I would like to see us really try to first address 
what the problem is and then try to work on the solutions.
    Dr. Robledo Montecel. I think also there is a convergence 
of data that one can look for. And in Texas, for example, we 
find now that--from many different sources, it is very clear 
that one out of two Latinos drops out of school before 
graduating high school. It is also important to have a 
credible, clean way of counting, one that makes sense to the 
public; and that usually is the percent that drop out who 
started ninth grade and didn't graduate.
    So I think the NGA efforts to create a Federal credible 
definition are very good. I think we ought to do that quickly 
and make sure that we address the issue, because there is 
absolutely no doubt that it is a pressing, persistent issue, 
especially for minority students.
    Mr. McKeon. Thank you.
    Chairman Miller. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. We see dropping out as 
an after-the-fact event. But truancy, especially chronic 
truancy, generally precedes the dropping out. I taught school 
for 10 years, and you could predict who was going to drop out 
by the truancy rate pretty well.
    And I know education is a local function, a State 
responsibility but it is a very important Federal concern. Can 
No Child Left Behind play a role in trying to minimize both 
truancy and dropping out?
    For example, we have a disaggregation of data for testing. 
Should we have disaggregation of data for truancy and 
graduation rates to see how certain groups are being treated or 
even valued in certain school systems?
    Mr. Smith. I would agree with that, yes. I think the whole 
disaggregation of data is a really important mechanism by which 
this Congress and governors and State legislatures can get 
their arms around the problem; otherwise, it gets lost in the 
larger numbers. And truancy is absolutely a predictor.
    And making the case again for engagement, if you can find a 
way to engage those young people and get them back early, but 
the longer you let them go the harder it is.
    The disaggregation of truancy is something I would 
recommend.
    Mr. Kildee. Governor?
    Mr. Wise. Congressman, the answer, we feel, is absolutely 
correct. And truancy is a significant factor in a number of 
low-performing schools. We would suggest that an improved 
measure of AYP under our new High School Improvement Fund, one 
of the things you could use would be multiple measures to 
evaluate high schools. For instance, teacher turnover would be 
one, truancy would certainly be another; you might even do 
safety in the schools. These would help determine what are the 
high-priority high schools to be targeted for this strategic 
found.
    Mr. Kildee. Yes, ma'am.
    Dr. Robledo Montecel. The other thing that these types of 
indicators would do would be to give local communities 
information about what to do, where to attack the problem. And 
I think it is important that NCLB provide information to the 
local communities as they seek to address the issue. And to do 
that, they need to know, are our teachers teaching? Are they 
qualified? Are our parents involved? Are our students engaged? 
To what extent and how? Do our kids have access to the 
curriculum?
    All of these things, together with measures like truancy, 
that are already clear and imminent threats, and students will 
drop out once they are not showing up in school a lot. But 
these other measures will help the local community to get at 
the issue earlier. What do we do?
    Mr. Kildee. I can recall when I was teaching, very often 
someone in authority would say, well, don't worry, he or she 
will be 16 in a few months, and they will be gone because that 
is the mandatory school attendance age. And most schools are 
doing a tremendous job out there, but there are some schools, 
some places, where certain people are valued more than others; 
and that is why we have always asked for disaggregation of 
data, to make sure that no child is left behind.
    And as I say, we do that on testing. We want to have the 
data disaggregated. But I think it would be wise to do that on 
truancy and graduation rates, because there is no question that 
some groups are really, unfortunately, valued more than other 
groups in our schools, or we wouldn't be insisting upon the 
disaggregation of data.
    And I thank you for your--yes, ma'am.
    Ms. Norwood. One other thing I would like to ask you to 
consider and that would be flexibility in inventive programs so 
that school systems can receive funds to try new things, try 
different things to re-engage those kids who are being truant, 
whether it be Saturday academies or evening academies or 
whatever it is to get those kids back and engaged in school.
    So rather than just having funds for cookie-cutter 
programs, allow local flexibility with some of the funding.
    Mr. Kildee. Thank you, Mr. Chairman.
    Chairman Miller. Mr. Castle.
    Mr. Castle. Thank you, Mr. Chairman. Just a couple things.
    One, Mr. Trump, I think your programs that you have spoken 
about in terms of safety are vitally important. I don't have a 
question for you specifically about that, except to say that is 
something we should be considering. And to Mr. Smith, who has 
had great success with Jobs for America's Graduates, had as 
great success with Jobs for Delaware's Graduates before that. I 
have worked with him, and congratulate him on that.
    Ken, if you could just tell us very briefly, because I have 
other questions, how that would work. In a typical case, how 
would Jobs for America's Graduates, or Delaware's graduates or 
the particular States, come in and deal with a kid; and what 
would they do versus what would a school do? If you could, give 
us a 30-second synopsis.
    Mr. Smith. Thank you, Congressman.
    While the Governor of Delaware actually helped to grow the 
program, which has now been in Delaware for 26 years, in the 
end, it boils down to four things.
    Number one is motivation. If you don't capture the kids, 
you don't get them motivated, the rest of it doesn't work. That 
means the right person, the job specialist, the staff member, 
and the school; and secondly, the youth organization, the 
engagement to motivate them to come and to participate. And 
frankly, to care about whether or not to is, do something in 
school.
    Number two is, you have to get them through school, and you 
have two problems. One is, you have to get academics; the other 
is, you have to solve the home problems and the outside 
problems.
    Mr. Castle. Be specific about what you do, though. I 
understand what you have to do. What do you do--you do?
    Mr. Smith. The staff members are responsible, first of all, 
and accountable to get the 90 percent graduation rates. 
Therefore, you have to find the right remediation or deliver 
the remediation to catch them up so that they do, in fact, 
graduate within that school year if you can.
    Number two is, you have got to find the community 
resources. If the young lady is pregnant, if the young man is 
on drugs or picked up by the police or they are homeless, you 
have to find a solution to that problem because otherwise they 
are not going to graduate. So you have to engage the community 
services and organize it and make it work.
    Third, you have to work and have this motivational student 
organization. The staff member is responsible for organizing 
and engaging young people during school, after school hours, in 
the summer, on weekends around a set of activities that are 
employment- and graduation-related, but are fun and engaging to 
do.
    Finally, that staff member is responsible the year after 
leaving school to make sure they do graduate; if need be, that 
they get a job, they get a raise or promotion on that job and 
or go on to higher education or both. And that is what that 
staff member does.
    Mr. Castle. Thank you.
    I guess this is for Governor Wise, primarily. We were 
talking about this a little bit before the hearing began, but 
sort of building on what Mr. McKeon was asking, as well, I 
worry about the graduation rates and the way we measure these.
    The States have various methodologies for doing this. As 
you have indicated, we tend to describe people who are no 
longer in schools as ``dropouts'' sometimes. And I am not 
suggesting we don't have a huge dropout problem, but in terms 
of writing legislation, of No Child Left Behind, of funding 
dollars, of dealing with this, I worry about it.
    I remember a couple years ago the governors were up to 
their ears in putting this together, which a couple of you 
worked on; and I just wonder where that is today. I mean, to 
me, it would be tremendously helpful if we get some measurement 
of dropout rates that all the States were endorsing, that we 
naturally could endorse, as well, and really be able to measure 
in terms of a lot of the different measurements that we need to 
do at our level, too.
    Mr. Wise. Congressman, you and I both come from a similar 
background as being former Governors. And, you're right, the 
NGA did adopt a compact, which all 50 Governors signed in a 
number of organizations, including my own.
    Having said that, let me observe--and what it did was 
essentially, as Dr. Norwood is talking about, is to set up a 4-
year measurement system. But let me observe something. First of 
all, a couple of States have already stepped back from the 
compact. Second is several States--States are all over the 
board as to when they will actually implement it some many 
years hence. And also there is no accountability to it. As you 
well know, compacts have the political life of the one who 
signed it, and then it is up to his or her successor as to what 
happens with it. For all those reasons we think it would be 
worthwhile to take the model of the compact, enact it and make 
it truly a common measurement that we are all using. Now we are 
all able to compare apples to apples.
    Mr. Castle. I have one final question. Sometimes I wonder 
about the whole cultural aspect of this. One of you mentioned 
that if you graduate from high school, you are liable to earn 
half a million dollars more, something like that, and another 
half million if you graduate from college over the course of 
your life. And I worry about all this being educationally 
oriented. Should we be oriented some to what we are doing to 
television, to the Internet, to other cultures which are out 
there, we as politicians? I wonder sometimes if the focus is 
too much on just education and not the broader area of how do 
we motivate people by pointing out that their future is much 
brighter if they stay in school. Just something to think about.
    Mr. Wise. Can I respond? Congressman, you are absolutely 
correct. Our organization spends a good deal of time doing 
that. Only 25 percent of the American public has some contact 
with the public school system. Seventy-five percent don't. 
There are two groups that are affected every day somebody drops 
out. And incidentally before we all go home today, 7,000 
schoolchildren will disappear; that is, they will drop out of 
school today, each and every school day.
    The first group that is affected are the schoolchildren 
themselves, the economic costs that you just mentioned. The 
second are the rest of us. They reflect the 2006 dropout group 
will cost our country $309 billion in lost income alone over 
their lifetime. Now, multiply that times 10 years and you can 
see the cost to all of us.
    Mr. Castle. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. Mr. Hare.
    Mr. Hare. Thank you. My question is focused on two areas. I 
hope I have enough time for you to address both of them. First 
is my concern about dropouts in a rural community, since I have 
a congressional district that has a tremendous amount of rural 
area. I wonder if perhaps, Mr. Smith and Ms. Norwood, you could 
address the unique challenges that you see that rural school 
districts have in confronting dropout problems and how we in 
Congress could possibly address those problems in terms of 
dropouts in the rural communities and the special problems we 
may be seeing here?
    Mr. Smith. Thank you. We have had a lot of experience in 
rural areas from rural eastern Montana, northern New England 
and rural parts of Arizona, California and elsewhere. The 
challenges are really different. The good news is we have been 
able to get similar results. But I will tell you it does take 
even more of a community effort in rural areas to make it work, 
and you really do need employers and you need the community and 
you need them all tied together through this job specialist as 
somebody to pull it together. Ultimately in the end you have 
got to give these young folks hope that they can find work in 
that area, because if not, if you don't have hope, it is not 
going to work.
    So either being able to show them where employment is or 
even help them create employment, which sometimes in rural 
areas it has got to be the only other solution, it is a crucial 
part of giving these young folks hope and the opportunity to 
succeed. Most young people want to stay where they are, despite 
how they may talk about it, but in the end they are most 
comfortable. The key is to make sure there is a future for 
them, and the key to that is a job.
    Ms. Norwood. One of the things North Carolina has invested 
in is the North Carolina virtual public school, and this is a 
resource for all students in North Carolina where they can take 
classes virtually. And the hope there is several things, that 
we can bring in some of those who have been dropouts and bring 
them back in; also, that we can make all courses available for 
all students across North Carolina, so that in case a student 
wants to take Mandarin Chinese and they happen to live in a 
county that would not attract such a teacher, that that course 
is available for them by the virtual school.
    We are really working hard to make North Carolina more 
global and take down those walls of distance and ruralness so 
that those kind of things can be available for every single 
child in our State.
    Mr. Hare. Thank you. We were talking about school safety 
and there has been a great amount of discussion in my district 
about positive behavioral learning intervention, and in 
particular a program called Positive Behavior Intervention and 
Supports, PBIS. I am wondering if you are familiar with that. 
The schools that have this program tell me they have seen a 
remarkable decrease in expulsions and suspensions. Are any of 
you familiar with the program or would you support funding or 
other resources to be allotted to schools that wish to 
implement these types of interventions under the Safe and Drug-
Free Schools and Communities Act in NCLB?
    Ms. Norwood. I am slightly familiar with the program as 
used in one particular elementary school. I think it is a very 
good program. Anything we can do to help train teachers how to 
work with children and to work with their behavior I think is 
excellent. The one caution I would have is I don't want us to 
go with one egg in one basket. If we could have several 
options, I think it would be good.
    Mr. Hare. There is a small community in Roosevelt, 
Illinois, and they use this and it was amazing. The principal 
was telling me and the school district administrator was saying 
that reinforcing positive behavioral things; in other words, 
focusing on if somebody does something wrong. We spend a lot of 
time doing that, but we don't spend enough time. As you said, I 
think, Mr. Smith, when you talked about getting them involved 
and when they do something, they get credit for what they have 
been able to do. And I talked to some of the students that were 
in the program. They thought it was wonderful. I wasn't sure if 
anybody on the panel encountered that in their areas.
    Ms. Norwood. One thing I will say is it works well with 
novice teachers because it gives them a strong instrument to 
work with and a strong structure. Novice teachers frequently 
have discipline problems.
    Mr. Hare. One thing I wanted to ask you, Doctor, you talked 
about the dropout rate among Hispanic students. A lot of
    teachers in my district said it is because kids get into 
junior high and they go home with homework to a home where the 
parents don't speak English and can't help them with their 
homework. And a lot of the educators in my district are saying 
we need to fund that type of program because otherwise those 
kids get lost and fall off the radar screen. You don't see them 
any more because there is nobody there to help them through. I 
don't know if you would agree with that.
    Dr. Robledo Montecel. I think in my mind obviously we 
always need to see how we might be supportive of parents as, 
Mr. Hare, you are suggesting, and I think we ought to do that. 
My experience and the research that I have seen really says 
that Latino parents care a lot about their children's 
graduation and they may or may not be able to support the 
homework piece of it. And so for example in the parent 
engagement work that we do, we work with parents to make sure 
that they can work with the schools to support their child, 
rather than having to--sometimes you know it seems almost like 
we have to wait another generation until the parents are 
educated before Latino children can graduate, and I think that 
that is not so. The parents that we talk to really care, and 
schools tell me that they are very interested in finding out 
how to become engaged. The community oversight groups that I 
mentioned I think are one way in which parents can get together 
and see how do we help the school together, because parents 
bring that kind of commitment that no one else does about their 
children. So if they have data about how their schools are 
doing, about how the graduation rate is and about how to help 
with that, then I think that that will work.
    Chairman Miller. Thank you.
    Ms. McCarthy.
    Ms. McCarthy. Thank you, Mr. Chairman, and I thank you 
again calling for this hearing. I happen to look at the 
students that drop out in the areas that we are, especially 
with the gangs. In New York and Long Island we have a big 
problem with that. And I know District Attorney Charlie Hynes, 
going back a number of years, he was taking dropout numbers 
from Brooklyn and then looking at the crime rate that was in 
the local area. And he found the crime rate was obviously 
higher where those kids had dropped out. So what he did was, 
working with Department of Justice money, picked the kids up 
every morning. If they didn't show up in school, the police 
went and picked them up. They brought them to a safe area. At 
that area there was a social worker, there were tutors, trying 
to find out what was motivating this kid, and how to get him 
back into the system, and he had great success. Obviously it 
cost money, but it is one way to go.
    Mr. Trump, one of the things that you brought up was the 
Cleary amendment. I think a lot of people here don't know what 
it is. We dealt with it a little bit a couple years ago in 
higher education. The Cleary Act was named after a young girl 
that was killed at Lehigh University in her residence hall. Her 
parents worked to enact a law so that colleges would have to 
report the kind of crimes that they had on campus. It was then 
that they found out there were 38 violent crimes in Lehigh for 
a short time before this young girl died.
    I think what I am trying to gear towards with the data that 
you had talked about earlier, that K through 12 schools were 
not reporting the incidence data that is needed even though our 
colleges are, I guess my question would be, would a Cleary-like 
crime tracking system be useful for K through 12? Do you think 
parents of K through 12 students would like to have access to 
the crime data, and how would K through 12 crime data be 
helpful to policy makers? But also following through with that, 
if we know that there are schools that have a higher rate of 
incidences, whether it is bullying or any of those, would that 
also cause some children to drop out?
    Mr. Trump. Congresswoman, absolutely. We know that gang 
influences, an unsafe environment, actually bullying and 
harassment certainly would contribute to kids, particularly who 
don't have the support, the engagement and the involvement. 
They are just giving up and leaving and dropping out of 
schools. The parents don't know what they don't know. The 
average parent in this country drops off their kids at school 
in the morning and there is an inherent assumption that we have 
had over all of our years that when we drop off our kids they 
are safe at school. So parents don't know what to ask for, they 
don't know where to look and nobody is volunteering the data 
for them because of the image concerns, because of the 
political aspect in a school community. So I think parents want 
to know. I want to know as a parent of two children. That is my 
number one concern. Test scores are second, the academic is 
second. I want to know when I drop them off in the morning that 
I am going to get my daughter and my son back in the same 
healthy condition that afternoon. Parents don't know where to 
look. Even the best of principals who are tackling problems and 
dealing with it head on are not going to put something in their 
school newsletter or under a Web site saying, by the way, the 
police were at our school 10 times this year.
    So there needs to be some outside support such as what has 
been recommended to Congress here to make that available in 
spite of all the pressures not to so the parents can make an 
informed decision. If we are talking about issues of school 
choice, if we are talking about parental options under 
persistently dangerous situations, we want people to make 
informed decisions. And I also want to see legislators at the 
congressional level here and at the State levels making 
decisions based on real incidents reported to law enforcement, 
not perception surveys and opinion surveys. We do it in the 
Justice Department with uniform crime reporting, FBI 
statistics, it can be done with the NIBRS data that has been 
proposed in your SAVE legislation. And I think we can have the 
surveys to support that, crime surveys and perception surveys 
and dealing with bullying and prevention issues, but we also 
have to know how many crimes occurred at the school in real 
numbers, not just perceptional.
    Ms. McCarthy. The other things that I found by talking to 
high school students, they certainly seem to know a lot more 
about what is going on in the school than the teachers or 
anybody. It is amazing what an earful I get when I ask that 
question of what is going on, what bugs you the most. I think 
the sad part is a lot of the kids do feel unsafe. They are 
saying, oh, no, school is fine, but they don't feel that way. 
That is a shame because if we don't have a school that is open 
for academic learning, it could be a real problem, and why put 
the stress on the kids.
    Mr. Trump. We have heard student engagement, Congresswoman, 
mentioned several times here. We want students engaged in about 
safety issues in schools. If we ask kids where they feel 
unsafe, what they recommend, kids are straightforward. They 
will tell you exactly what they think and it may not always be 
the same as what we as adults think. There is a huge gap 
between what many school officials think parents want to hear 
and what parents actually want to hear. Parents tell me that 
they are not concerned the police are at the school or that 
their schools have an emergency plan. They are concerned that 
they don't know that school safety is on the radar. They are 
not finding out. They know a police car was there, but nobody 
wants to tell them what is going on. It is the lack of 
information that creates fear, not the availability of 
information.
    Chairman Miller. Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. Let me tell Mr. 
Smith that I just finished meeting with JAG students in my 
district and they were both working on a forum that was very 
well attended on the DREAM Act dropout prevention and your 
staff there. Plus your program should be commended. These kids 
are planning to go to college, these kids are planning to have 
careers. And I would say 2 or 3 years ago that wouldn't have 
been the case, so just a comment.
    Let me if I may, Dr. Norwood, Governor Wise, one of the 
areas that we don't talk about enough in this reauthorization 
process and in general in public education, you mentioned it 
briefly, Governor, is middle schools and their role, and 
counting dropouts 9 through 12. I think there is a phenomenon 
when kids are leaving before then and there is also a 
phenomenon that they may not physically have left but they have 
left. And these all result in the increasing dropout rate in 
the high school level. Under No Child Left Behind, as we go 
through this process, as we integrate a comprehensive strategy 
on dropout prevention, where does the middle school fit? And I 
will begin with you, Governor.
    Mr. Wise. Middle school, Congressman, obviously is 
critical. The indicators for dropping out, many of them are 
quite evident in the sixth grade; absenteeism, truancy, 
literacy and so on. You said the key word, which is 
``comprehensive.'' In No Child Left Behind we ought to be 
looking at this as a seamless system from pre-K all the way to 
grade 20, graduate school or the work place, as opposed to 
segmented areas. So with middle school what I would suggest is 
the same application we have been talking about in high 
schools; namely, targeting, because there are a number of low 
performing middle schools. Targeting the same kind of 
interventions there that we are talking about in high schools I 
think would go a long way. Also recognizing essentially at the 
Federal level and in most States we stop being involved with 
literacy reading in the third or fourth grade, and yet it is in 
the middle school that the child's mind begins to turn. Where 
before we have been teaching them--they have been learning to 
read. Now they need to read to learn. So we need to continue 
our adolescent literacy efforts all the way through middle 
school and high school.
    Ms. Norwood. If you go back and look at several years ago, 
the middle school concept that came about, about teachers 
teaming together and working together, this is a lot like what 
they are doing now in high schools. And it is sort of like we 
kind of left it in the middle school and now we are putting it 
back in in the high school. And we need to put it back into the 
middle school where kids were connected, especially connected 
with at least one adult who knows them.
    The literacy problem is a major problem in the middle 
school. That is one reason why North Carolina is starting to 
fund literacy coaches, so they have one person in each middle 
school, especially right now our low performing middle schools, 
that will help the teachers teach this. Governor Wise is right 
on target talking about we teach kids to read in K through 3, 
but we don't teach them how reading can work for them in the 
fourth grade through middle school through high school. And 
that is a learning process too.
    Mr. Grijalva. Thank you. I would suggest that if you looked 
at the Feeder System, from elementary through middle school, 
the same indicators would be there. Let me if I may, Dr. 
Montecel and Mr. Trump, we are talking about nonacademic 
variables that create dropouts or create kids who want to leave 
school. I am assuming a couple of other variables. Let's use 
the 15 percent responsible for 50 percent example. In those 
neighborhoods, areas, you would find the high schools are the 
poorest quality structurally, physically, technologically. You 
would find external and internal violence, crime. And so my 
question is where does something as simple as bricks and mortar 
and renovation, upgrading facilities, where would that fit as a 
noneconomic variable in terms of dropout prevention and overall 
safety for that community and for the kids coming to that 
school? If you wouldn't mind, Doctor.
    Dr. Robledo Montecel. Two important nonacademic variables 
that the research shows, one is school resources and those 
resources being available for keeping kids in schools. So 
funding equity would be clearly important. The other is 
governance efficacy and governance at the local level that is 
required in order to assure that the local policy supports 
keeping all students in school instead of not. So I think that 
you are absolutely right, Mr. Grijalva, that that is critical. 
I think then when you couple those two, governance efficacy and 
equity in funding, with the four key variables for keeping kids 
in school then you have got it made.
    One quick thing, sir, 80 percent of Latinos drop out before 
the ninth grade and so you are absolutely right
    about----
    Mr. Grijalva. The middle school question?
    Dr. Robledo Montecel. Yes.
    Mr. Trump. Two points, Congressman. We know that the 
climate the children are in to them tells them a message as to 
how much we value them. If they are in dilapidated facilities 
that are poorly maintained they are going to feel that that is 
a reflection of how we feel about them. The second aspect is 
there is an area called crime prevention through environmental 
design. When we are looking at building new buildings, 
renovation and design of schools, there are many things that 
you can do, simple things, line of sight visibility, how you 
position gyms, media centers, cafeterias, areas that are used 
for after school events in one area to section off the other 
end of the building so it is not open to the evening, lighting, 
natural observation. There are many things you can do in the 
physical climate to actually improve safety without creating a 
prison like environment.
    Mr. Grijalva. Thank you very much.
    Chairman Miller. Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. I think it was in 
the last session of Congress there was a proposal in the 
President's budget to zero the Perkins Grant. And so I went out 
in the district to the vocational schools within the district 
and talked to the teachers there and talked to the students, 
and I was really pleasantly surprised about what was going on. 
In our schools we have a conglomerate of schools and we will 
have one vocational ed facility. But I was really amazed at the 
number of kids and the stories that they told about how they 
had been going to drop out and then they had this voc ed 
teacher, whether it be auto mechanics or they were working on 
engines of airplanes or whatever, and worked with them. And I 
think you have all been talking about the one person that 
connects with and engages that student. Or they were in 
construction. But what happened to them was when they got so 
interested in those courses, that they realized why they needed 
the basics, why they needed the math, why they needed the 
English, why they needed to be able to read instructions and 
the scientific instructions that they needed. I just wonder if 
we are leaving that behind. There are so many different ways 
that a child or student connects with the schools. And I don't 
know if any of you have noticed that difference.
    The other thing I might add is PE. In Illinois we have 
physical education, is required every day. It is a State law. 
There are some schools that try to say recess qualifies. But I 
also think that really gives kids the physical blowing off 
steam that doesn't happen when they are not having, 
particularly the younger kids--well, they are not able to 
concentrate as well.
    Just those two things. I wonder if any of you have any 
comments about that. I think probably, Mr. Smith, you talked 
about this engagement and jobs.
    Mr. Smith. Absolutely. Most of our young people never had a 
chance to go to vocational education. They missed it somehow. 
They didn't either know about it or whatever. They missed it. 
If we can catch them early enough we encourage them to look 
that direction, for all the reasons you have cited; it is real, 
it is concrete, they understand.
    Secondly, the vocational student organizations have done 
wonderful things; the Future Farmers of America, the 
Distributive Education Clubs of America, 3 million young people 
a year, highly motivational to engagement. The young people in 
the program we are serving couldn't join because they weren't a 
member of a vocational program. So over and over again there 
was no route for them to become engaged. The mechanism of 
engagement is what has made vocational education really a very 
strong part of what we have done in this country, and the 
vocational student organizations have been that motivational 
tool that helped encourage them to come and stay. I think what 
you saw is actually broad across the country.
    Dr. Robledo Montecel. Ms. Biggert, the RAND Corporation 
studied the Coca-Cola Valued Youth Program as a type of student 
engagement, and the key they found was that in that program 
students are seen as valuable and important young people who 
have a contribution to make. And this could happen in this 
program, it could happen in many programs. But in that 
particular program kids who are at risk of dropping out are 
actually put as tutors of younger kids and they learn what they 
didn't learn the first go around and they feel better about 
themselves and they become contributors instead of problems 
that need fixing. RAND found that this was the key in terms of 
engaging students. And I think voc ed does that, participating 
in sports does that. Young people need many and different ways 
to find what it is that they can connect with in schools.
    Mrs. Biggert. Ms. Norwood.
    Ms. Norwood. Beyond the connection that kids can make with 
this, this is also an area that got a bad rep as people 
thinking it was not rigorous. I was at a meeting last week at 
Charlotte Motor Speedway with business leaders and educators 
talking about what kind of 21st century skills are needed to 
run NASCAR. And this is very scientific, it is very 
mathematical. These kind of classes can teach very rigorous, 
deep level thinking skills to kids.
    Mr. Wise. Congresswoman, one of the areas that could be 
borrowed from Perkins in terms of the NCLB reauthorization is a 
provision you put in this year in Perkins that permits a 
Federal fund to be used for developing personal graduation 
plans for the students so that as we talk about personalization 
and knowing them and where they live this would give us the 
ability, starting in the seventh grade, to develop a personal 
graduation plan to maximize their opportunities.
    Mrs. Biggert. Is there anything more we need to do on that, 
because it still seems so many of the schools complain that 
they have all these academics and they can't be bothered with 
moving them?
    Mr. Wise. I have heard that many times myself. The reality 
is every student is entitled. Certainly the most at risk ought 
to be entitled to have a plan that maximizes their chances for 
success. Presently the Federal law only permits the funds to be 
used in Perkins. We would suggest making it also a permissible 
use under ESEA or No Child Left Behind.
    Mrs. Biggert. Thank you. Mr. Chairman, I yield back.
    Chairman Miller. Thank you. Mr. Sestak.
    Mr. Sestak. Thank you, sir. Mr. Smith, I am always kind of 
taken when I hear comments like yours and others in the 
education area about how a comprehensive approach seems to work 
best. You talk about engagement. It is not dissimilar to my 
experience in the military how, and you had mentioned, I 
thought from a great question from Representative Castle, how 
you do it. If someone gets pregnant or something you are 
actually engaged with them.
    Mr. Smith. Right.
    Mr. Sestak. It harkens back to my experience where you have 
a young sailor who gets someone pregnant. We couldn't outsource 
it. We were our own human resources, so the young ensign just 
dealt with it, because we couldn't afford to lose that kid.
    Mr. Smith. Right.
    Mr. Sestak. To your question, Governor, or comment, that at 
the end of this 2-hour hearing 7,000 individuals will have 
dropped out. So that means after five of these hearings are 
done, the 35,000 will have dropped out. How do you scale this 
up to a question I think the chairman would have gotten to, but 
it is mine. The investment attendant to it. In the military we 
are not a social welfare organization and yet we would have 
done anything to keep that kid.
    Mr. Smith. Absolutely. The bill in the Senate that has just 
been put in today that Governor Wise referred to, we are 
convinced if you could put some incentives on the table States 
and communities would respond. And I think it is important they 
respond. I wouldn't recommend to you that you do it all at the 
Federal level. But if you can incent the States and local 
communities, businesses and others and schools, around the 
outcomes that you are looking for and provide either matching 
incentive money and say this money must be spent on things that 
are proven to work by whatever definition you care to put in 
the law, then you will find assets aggregating around things 
that work and they will go to scale. I think there is an 
opportunity here for the Congress to lead and that the States 
and the local communities will follow. Money obviously helps to 
encourage them. But our view of this is that it should be in 
some form of matching or incentives with clear criteria for 
what you define you want the other end to be. If it is drop out 
reduction, say that, or whatever it is that you decide to do.
    In the end engagement doesn't cost very much, but it costs 
a little bit and therefore they do not spend on engagement 
because they think everybody is looking only at academic 
achievement they everybody is only looking at academic 
achievement. They don't appreciate, as you have described in 
the military, if you do a little bit extra you save that young 
man or young woman in the schools. And the little bit extra can 
make a decisive difference in the outcomes. And all of a 
sudden, by the way, these students are earning State money and 
all of a sudden there is more money in the schools because the 
students are there, so on and so forth.
    So I believe it can be done. And I believe the States are 
looking for solutions. The Governors are looking for solutions. 
And if there was a way that you could incent them I think they 
would respond.
    Mr. Sestak. If I could, off of Representative Biggert's 
comment. My district lost 1 out of 5 manufacturing 
establishments it had in the last 3 years. You can go down to 
Aker Shipyard and they are hurting in the Philadelphia area for 
MIG and TIG welders. These artisan skills upon which our 
country was so well built is an important aspect. When I had 
the MIG and TIG welders, you would flip your helmet down, you 
light the arc, you lay the bead. Not today. Today you have got 
to have a higher level of education. And we can't lose. It is 
not just vocational training. They need a higher level of 
science and math because you sit at a computer now and you are 
talking about nanofabrication and all. You have got to learn 
how to actually lay that bead to a computer to put it on a 
machine.
    To both of you though, how do you incentivise people to 
recognize that it is a No Child Left Behind value attendant to 
higher education in math and science and eventually reading and 
the attraction to that high value manufacturing skills that we 
need?
    Dr. Robledo Montecel. Congressman, I think that the 
incentivising and the developing of models has to occur in a 
few districts. Let me tell you why I say that. Schools, there 
are a number of schools that are very successful, individual 
campuses. But if we are talking about bringing to scale and if 
we are talking about incentivising, then I think we have to 
find ways in which districts are willing to say we will 
graduate all students, this is how we are going to do it, give 
us a little bit of help here, we are going to implement best 
practices. I think that the States have a lot to do with this, 
but I really do think that one needs to get as close to the 
locals as possible and then to be able to work across those key 
transition points where we lose kids when they move from 
elementary to middle and from middle to high school.
    Mr. Sestak. It seems.
    Dr. Robledo Montecel. Yes, yes.
    Mr. Sestak. Thank you very much.
    Chairman Miller. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Mr. Chairman, and thanks to the 
panel for some very interesting testimony. I represent a 
community that has a school district of just under 100,000 
students. And one of the things that I have learned has been 
that we have an incredible mobility problem. 250 kids every day 
move schools, 1,250 a week, which means that over the course of 
the school year half the students have gone from one school to 
the other. And I know that this is a huge frustration in terms 
of No Child Left Behind because many teachers and schools are 
judged on kids that, it is a moving target essentially, kids 
they see part of the year and not the rest of the year.
    So my question is I assume, although I haven't seen a 
correlation, that there is a disproportionate number of 
dropouts that come from this population that is constantly 
moving. And they move for all sorts of reasons; broken 
households, evictions, seasonable workers, you name it. Is 
there something in the law that--I know in terms of No Child 
Left Behind many teachers say this is where the push-out comes 
to a certain extent, too, that they are frustrated because of 
the kids they get and they are being graded. Is there something 
in the law that we can do to make it so that these kids who are 
moving around constantly don't become the victims of a 
combination of their own situation and the law in terms of 
helping them stay in school?
    Mr. Wise. Yes, sir. In fact if you have a 100,000-student 
school district, then on average you probably are going to lose 
2,500 a year dropping out. One of the things that can be done 
is to provide these data systems with a longitudinal data 
system but with a student identifier number; in other words, as 
that student moves from one school to another, preferably 
across the State even but certainly within their own school 
district, that you are able to track that student every step. 
And the teacher who gets that student the next day knows 
automatically how that student is faring, what the student's 
strengths and weaknesses are. As the student moves forward you 
are able to track. It is not just tracking. It is also what is 
the plan that you deliver for this student. How do you 
customize it to meet the student's needs as they move from one 
school to another. In terms of getting a maximum bang for the 
Federal buck, that could be one of the ways you could assist 
most.
    Fourteen States, as I mentioned earlier, are receiving 
Federal funds to do this. It will both save funds, it will make 
the learning experience much more accountable and much more 
credible and it will also permit you to make certain decisions 
you are going to have to make in years to come with good data.
    Dr. Robledo Montecel. The migrant program that has to 
connect seasonable workers as they move from State to State has 
actually developed some good examples of how that might work. I 
think also by coupling not just the courses, the curriculum, 
aligning the curriculum, but assuring the graduation plan 
follows the student and that graduation plan is based on the 
student's assets. The main problem is that schools are really 
not prepared to build on children's assets. For example, Army 
kids are very mobile, CEO kids are very mobile. That doesn't 
become a problem because the school finds ways of integrating 
them. And that is what the challenge is here.
    Mr. Yarmuth. So this is definitely a national problem and 
not State by State?
    Mr. Wise. It is. And the mobility has increased 
significantly in our society in just the last 30 or 40 years.
    Mr. Yarmuth. We have a program in my community called Youth 
Alive and it was started by a man named Kenny Boyd, who was one 
of these kids who was about to fall off the cliff in his life 
and somehow pulled himself up. He is an African American man, a 
true hero, who started a program where at risk population kids 
come after school. They feed them, they help them do their 
homework, they expose them to different options, they expose 
them to college. They have a trip every year where they just 
show them college campuses to show them there is a different 
type of life path available to them. As he says, they could 
serve many more kids. They serve about 50 kids at any one time. 
The key is getting the kids to voluntarily come in. And I 
assume this is a problem or an issue with the JAG program as 
well. How do you get the kids to come into the program? Is 
there a way institutionally that we can create some kind of 
method for creating this type of--motivation is a hard way to 
create, I understand, but to get kids into these programs? 
Because I assume many communities have similar ones. I know a 
lot of faith based institutions do as well as the school 
systems.
    Mr. Smith. There is a lot of good examples. We would like 
to believe we are one of them, but there's lots of good 
examples. I think in the end we are back to the simple 
equation, it takes somebody who reaches and holds and engages 
the young people. And two is to create a series of activities 
like the gentleman just mentioned that gives them a reason to 
come and attend and feel good about doing so and want to come. 
But when you can watch the absentee rate drop like a rock when 
you implement the program you described or others, it is really 
not that hard. We know what it takes to engage and to get them 
to come.
    The other important news, almost all of our young people, 
however at risk, really do want to be like the rest of us. They 
really do want to succeed, they really do want to do the right 
thing. You just have to give them an opportunity to do it.
    Mr. Yarmuth. Thank you.
    Chairman Miller. Yes, Doctor.
    Dr. Robledo Montecel. If young people have a sense they are 
valuable and important they will come. If they have support 
that is given them they will come. And if their family and 
community is acknowledged, recognized and incorporated they 
will come. And we find those are the three keys in terms of 
assuring that kids take advantage of opportunities that are 
given them, is that they are important and valuable. And 
programs work on that basis rather than on fixing their 
deficits. You and I wouldn't show up if that was the purpose of 
us being somewhere.
    Chairman Miller. Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman, and thank all the 
witnesses for their testimony today. Governor, how are you?
    Mr. Wise. I am doing great.
    Mr. Tierney. You look like you are. I just want to ask a 
couple general questions. If we decided that we were going to 
make this part of the determination yearly progress and 
disaggregate the numbers, do we have a pool of programs that we 
know are effective and that work that could be designated as 
those programs that people ought to choose from if they are 
going to implement that?
    Mr. Wise. I would like to jump in on this. Absolutely yes, 
Congressman. I want to say the same thing to Mr. Sestak as 
well. We do know what works.
    Mr. Tierney. Particular programs or just in theory?
    Mr. Wise. We have both programs and elements. You heard the 
common elements, whether it is Jobs for America's Graduates 
represented by Ken Smith, whether in New York City it is 
Institute for Student Achievement, whether in Baltimore it is 
Child Development, whether it is First Things First in Kansas 
City, and so on down the line. Here is a research base that has 
been developed particularly over the last 5 to 10 years that 
tells us what works. And we have many schools already in play 
which have all the indicators for failure and yet students are 
turning around. So we do know what works.
    We also know that we have to have common elements to it. 
The legislation that we are talking about posing would provide 
along the lines of what Congress Yarmuth is talking about, is 
money that States and districts would match also having to come 
up with a plan that they could either use these models or use 
what they have already proven to work, but to turn these low 
performing schools around.
    There are basically three types of schools that need help. 
One has something wrong with it but it is not serious; target 
and intervention, such as literacy, you take care of it. The 
second is more systemic. There you probably are going to have 
to deal with the culture of the school but you can keep the 
school in place, you just have to change the structure, deal 
with the personalization and a number of other issues. The 
third one is significant, and that is replacement of the 
school, probably about 5 to 10 percent of our high schools, 
which is the most difficult to do. But once again there are 
models that will work for each of those.
    Mr. Tierney. Would you leave it to the Secretary's office 
to determine whether or not a local education agency's program 
was acceptable as a model?
    Mr. Wise. No. The Secretary would obviously have something 
to say about it. But I want this done as much as possible at 
the State and local level. They will have to develop the 
turnaround teams, they will have to develop the plans. The 
Secretary is going to have to acknowledge whether or not he or 
she thinks the plan will work. You just don't want the money 
out the door. This has to be coming from the State.
    Mr. Tierney. They can develop it, but our control on that 
is that the Secretary's office would determine whether or not 
they developed it properly?
    Mr. Wise. Right. Under our plan the Graduation Promise Act 
is that each State would get a certain amount of money which 
would then go to districts based upon two factors. One is 
poverty rate and graduation rate. The State and the districts 
would put together the plans and put together the turnaround 
teams. The Secretary is a partner to it, but it is not strictly 
a Federal decision.
    Mr. Tierney. If you were going to determine whether or not 
a school was underperforming based on their failure to have a 
graduation rate that was acceptable, how would you determine 
what the acceptable graduation rate was and how would you 
change it from year to year? What is an acceptable graduation 
rate? Is it school by school, is it nationwide, who determines 
it and how, or would you just work on progress to increase it 
or improve it by a certain amount?
    Ms. Norwood. My preference would be school by school or by 
State. And part of the way I am basing my opinion on is with No 
Child Left Behind North Carolina just fairly recently got 
approval to do a growth model. And a growth model for us has 
always been where we felt we needed to go. And I see the growth 
model concept is fitting into this also.
    Dr. Robledo Montecel. I think also one has to deal 
realistically with accountability measures, et cetera. I think 
if we are going to really shift from dropout prevention to 
graduation for all, which we have to do, we have dropped from 
first in the world in graduating students from high school 4 
years ago to 15th or 16th. We are not economically competitive 
and we cannot be until we see high school graduation as a new 
minimum. And I think that in order to do that we really just 
have to go for graduation for all. That being said, then I 
think it important to make sure that at the local level there 
be data not just about outcomes in terms of graduation but also 
what is it that the school is or isn't doing that is holding 
kids in school so that the schools and the communities can work 
together on the school improvement and the progress measures 
that would need to be put in place.
    Mr. Wise. I would just add to that if you do this, which we 
would support, you measure progress at every level, the school, 
the district and the State.
    Mr. Tierney. Thank you.
    Chairman Miller. If I might follow on. Governor Wise, there 
was a lot of discussions in meetings I have attended over the 
last 6 months or so about the idea, and you sort of alluded to 
it, this question of dropout factories. Where do they fit on 
the time line here? Apparently everybody knows where they are. 
They know what is taking place there. And usually they talk 
about dropout factories and shutting them down.
    Mr. Wise. The most extensive research on dropout factories 
has been done by Johns Hopkins University and two researchers, 
Bob Belfanz and Nettie Letgers. Their data is what I have 
talked about. I don't think you can shut them all down. Working 
with Johns Hopkins and others, the legislation that has been 
introduced would suggest that there are three ways to approach 
it. One is to look at where these dropout factories have a 
particular problem, but there is one problem, bad literacy, 
whatever it is. The second classification are those where it is 
much more systemic within the school but you can change the 
culture of the school. The third is you have to replace the 
school totally. It has educational Legionnaire's Disease. You 
can't do anything for that building but just to take it down. 
That is estimated to be only 5 to 10 percent of those dropout 
factories.
    Chairman Miller. And get on with that task?
    Mr. Wise. If you get on with that task you will deal with 
about half the dropouts in this country. You will deal with 
about half the African American dropouts and close to the same 
number of Hispanic dropouts.
    Chairman Miller. You are saying in 5 percent of schools you 
would be dealing with half the dropouts?
    Mr. Wise. I am saying 15 percent of the schools, you would 
be dealing with half the dropouts in this country.
    Chairman Miller. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. I am particularly 
interested in this topic because I have school districts that I 
represent in my congressional district that have a 50 percent-
plus dropout rate for Hispanic students, African American 
students, and other minority students. And those are rates that 
haven't changed in 30 years. So clearly there is something that 
is not working.
    And I want to touch on the issue of school safety for a 
minute because I think I read somewhere in my materials if 
students don't feel safe they are less likely to graduate. The 
U.S. Department of Education has looked at several school 
safety factors, and something that I have a particular interest 
in is school bullying. It is something that has gone on since 
time. So when I experienced it or saw it growing up it was just 
sort of a ``kids will be kids'' mentality and teachers 
scratched their heads and nobody thought much about it.
    I am very much focused on that issue because in parts of my 
district we have actually seen things as serious as a rise in 
gangs as a result of kids being picked on and wanting to feel 
protected in school. We know that students who bully are more 
likely to go on to become adult career criminals. Kids who are 
bullied are more likely to experience suicide and depression 
and other negative effects. And nearly one in every three 
American schoolchildren experiences bullying at some point. 
Interestingly enough, kids that are more likely to be bullied 
are kids that are doing well in school, that are performing 
well and get picked on by their peers. And yet when I have had 
meetings with superintendents in the different school districts 
that my congressional district overlaps with there really isn't 
a comprehensive anti-bullying curriculum in schools. Some 
schools have just formulated their own.
    But I am curious to know what you think we may be able to 
do to try to help reduce that on school campuses. And 
interestingly enough, I just last night on 60 Minutes saw a 
piece where school shooters, almost every single one, has that 
common element in their background, that they were bullied when 
they were in school. So I am interested to know what your 
thoughts are on trying to help reduce violence in schools and 
some of the other negative consequences that come as a result 
of bullying.
    Dr. Norwood.
    Ms. Norwood. You have really hit on one of the things that 
is probably one of our ugliest problems that we have in 
schools. And one thing I will ask the staff to do is get you a 
copy of the Standard. There is an article in it talking about 
bullying. Because one of the things is that some of the things 
you think of as common-sense solutions are not really 
solutions. And the bullying is a real problem. And I think 
personally that it is a real problem because everybody accepts 
it. There are certain people who think other people should be 
bullied, and I am talking about adults. And this is a thing 
that is going to take an entire community to work on.
    As I said, I would like to send you a copy of this so that 
you can read through it at your leisure because it is pretty 
eye opening of what works and what doesn't.
    Ms. Sanchez. I would appreciate that. Other thoughts, Mr. 
Trump?
    Mr. Trump. Congresswoman, two things. One is we need to 
define what is bullying. In many of our schools our schools 
actually have policies and procedures under discipline; 
extortion, harassment, physical assault, intimidation. So one 
of the things we stress is look at what you have. I think what 
Dr. Norwood is saying is are you fully conscious of those 
resources you already have policy wise. And on the other side 
of that certainly climate and awareness with staff. The other 
thing is the physical security. There was a study, I don't have 
the citation with me, within the past year of where the 
bullying occurs. When the researcher looked at where in the 
school are places that are less safe, one of the most places, 
the biggest place of concern is in our school restrooms. Adults 
don't supervise there. So we not only have to look at climate 
and culture, but supervision, adult visibility and, as we say, 
the fourth R of education, with reading, writing and 
arithmetic, today is relationships.
    The adult relationship with the kids so they feel 
comfortable coming forward to report the student with the gun 
and the fact that they are a bully.
    Dr. Robledo Montecel. Ms. Sanchez, to add a bit to that, we 
have been working with school systems in which the Latino 
population has grown tremendously in a very quick period of 
time. In many States throughout the United States, as you know, 
there is hypergrowth of Latinos. And I think that speaking 
directly and working directly with the relationships between 
communities that were never next to each other before, and that 
would include African American, Latino and white students, and 
seeing each other in very direct ways, parents of those 
communities working together to create some solutions to the 
harassment and the bullying issues are producing some very good 
results at the local level.
    Mr. Smith. Congresswoman, there is some good evidence that 
also shows that young people who are involved in something else 
don't tend to be the ones doing the bullying and don't tend to 
be the ones causing the problems. It is those that are not 
involved in something else, in effect, that create that 
something else to be involved in.
    So, again, the argument of providing multiple opportunities 
and get young people into them, school principals will tell us 
with the arrival of the kind of program we provide, the 
demeanor and the climate of the school changes. All of a sudden 
things that were acceptable before aren't now, and many of 
these young people are now engaged in something constructive. 
So in the end, it is back to engagement and involvement, and in 
enough opportunities, I think you will see that bullying and 
the discipline issues go down.
    Ms. Sanchez. Thank you, Mr. Chairman. I yield.
    Mr. Kildee. [presiding.] The gentlelady from New York Ms. 
Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. I wanted to 
touch on a couple of other indicators that some of my 
colleagues have touched on, but I wanted to go into greater 
depth.
    I am from Brooklyn, New York, and research shows that 
academics coupled with socioeconomic factors influence 
basically a student's decision to drop out of high school. And 
I am looking at the issue of school safety taking on a whole 
new dimension when you are dealing with working-class 
communities, immigrant density, working toward systemic 
poverty. So the schools located in a particular area oftentimes 
correlate with, you know, the conditions of the area. And I 
just wanted to get from, you know, what have you looked at or 
have you experienced in your interactions with others that can 
be done to address the students leaving that school environment 
when you have the pressures of such an environment bearing down 
on them? Any----
    Dr. Robledo Montecel. Ms. Clarke, I think your comments 
point to a very important issue, and that is that solving the 
decision of dropouts is not just tinkering at the edges. We 
have to really look fundamentally as how we educate children, 
especially African American and Latino children, and where we 
educate them. Latino children, African American children 
continue to mostly go to schools that are highly segregated, 
which in the United States also means that they are high-
poverty schools. So you have children of the poor who are 
attending schools that are poor, and in which are concentrated 
big problems, and in which there are few resources.
    And so I think it important to look systematically at those 
issues, and when we are looking at schools that fundamentally 
need to be shifted, that we look not just at the outcomes that 
are being produced, but at what is it about those systems that 
just plain doesn't work for our kids.
    Ms. Norwood. Also in North Carolina we are looking at the 
concept of schools are not in isolation, but that schools are 
part of the community. And our chairman Howard Lee has been 
very strong working with the faith community, especially in our 
lead-performing schools, to try to get the faith community to 
work along with the school system and provide some of the 
support that the students may not be getting. So it is the 
community, the whole environment looking at this rather than 
just the schools in isolation.
    Mr. Wise. And it is also about in dealing with the 
environment, the first thing is what can you do about the 
environment within the school, and we talked a lot about the 
personalization process, having an adult in the school that you 
can go to so that the adult knows firsthand what are some of 
these other issues that a student is facing. But let us be 
frank. With 1 guidance counselor for every 500 students, with a 
teacher having to handle 120 to 150 students a day, there isn't 
going to be a lot of personal attention in the present 
structure either within the educational system or outside.
    So what is it we can do and what is it through the Federal 
process you can do to provide incentives and assistance to 
school districts to do school-based services, have the school 
open longer hours obviously, to have health counselors there, 
the other kinds of operations that are so important that can 
assist students with their basic, basic needs? I have seen--for 
instance, in Philadelphia I visited a school recently which has 
services available to it through communities and schools. There 
are other successful models like this that are trying to 
grapple with that problem.
    We have to deal with the child in their whole world.
    Ms. Clarke. I just want to--and I am going to have you 
respond as well, Mr. Trump--but I want to sort of bring to the 
surface the fact that a lot of our students, no matter what 
kind of antiseptic environment we try to create for them in the 
educational facility if they are going into a community where 
you have generations of dropouts--because we have been talking 
about the dropout phenomena that took place over 30 years; we 
are talking about going back to communities where your role 
models, your environment has not been progressing in terms of, 
you know, the educational arena. You have a severe struggle 
there. And if that--if that is the real constant in the 
student's life, you know, how do we address it in the school? 
And then what are we talking about in terms of the 
responsibility of the wider community? And I just sort of 
wanted to put that the table, Mr. Trump.
    I see you sitting up, Mr. Smith.
    Mr. Trump. Congresswoman, I want to reinforce one of the 
things we hear often is that schools reflect the broader 
community, and I think that is true. But we also know from my 
work in Cleveland schools when I ran the gang unit in the 
school district in one of my previous lives, we knew oftentimes 
in the worst of communities that school was the safest place 
for that child, as long as we have an environment with firm, 
fair and consistent discipline and the support systems during 
school and most of all at 3 o'clock when the bell rings, where 
do they go next, and when you have that connection to some of 
the things that we have heard with the rest of the panelists 
here. So I think that the school can make a difference in an 
uphill battle, and we have to have that linkage between what 
happens after school as well. Even in the toughest communities, 
sometimes school is the safest place.
    Mr. Kildee. Gentleman from New York Mr. Bishop.
    Mr. Bishop of New York. Thank you, Mr. Chairman. Thank you 
for this hearing, and I want to thank the panel. It has been 
very, very interesting and informative testimony.
    Mr. Smith, before I came to the Congress, I was a college 
administrator, and I spent an awful lot of time looking at the 
issue of attrition and persistence on the college level. And I 
was struck that the factors that you outlined that contribute 
to persistence on the high school level are virtually the very 
same factors that contribute to persistence on the college 
level. And I am wondering how far that goes.
    One of the things we learned about college attrition is 
that students tend to drop out when they can't see a connection 
between what it is they are doing and what their ultimate goals 
are. I am assuming that is also true on the high school level. 
And so I want to take that and link it to something that was in 
Secretary Spellings' report on higher education in which the 
committee found that there was an insufficient articulation 
between what high schools teach and do and what colleges 
expect.
    And so I am wondering do you see possibilities, fruitful 
possibilities, for more liaisons between high schools and 
colleges and more interventions on the part of colleges in 
getting high school students involved in what college students 
do, whether it is student newspaper or radio station or 
whatever, to get them, in effect, turned on to staying in high 
school and then moving on to college?
    Mr. Smith. We have got some great experience, and the Gates 
Foundation has got some research that shows for really high-
risk kids in 10th grade, if you can get them on a college 
campus to start taking some of their high school courses as 
well as college courses, it cracks the environment. It changes 
the whole thing. All of a sudden they are adults. All of a 
sudden they get treated like they are adults because the 
assumption is they are. And guess what? They start responding 
that way.
    We have some very limited evidence, and we are going to try 
and find ways to get more, that says involving young people 
early, creating that relationship early is critically 
important. We have also got some evidence that reinforces your 
point.
    In Ohio we did some research. We tracked all the kids in 
Ohio that go on to public higher education institutions. Sixty-
one percent go on to year 2, about average around the country. 
The young people of--jobs-for-hire graduates with the 
intervention of the jobs specialist staying with them for the 
year is 82 percent. And these were the at-risk poor kids, which 
just references the point that that kind of intervention, 
involvement, engagement, caring, help them see where they are 
going, make the connections to work. It works. It doesn't 
matter whether it is in college or high school.
    Mr. Bishop of New York. On the issue of involvement and 
engagement and caring, another thing from college persistence 
is that the single greatest factor correlating with student 
success and student persistence was the existence of a 
substantive out-of-class relationship with a member of the 
faculty. Moving that to the high school level--and actually, K 
through 12, one of the things that we are dealing with in No 
Child Left Behind is the so-called highly qualified teacher. 
There is some discussion now of changing that from highly 
qualified teacher to highly effective teacher. Certain groups 
are proposing that.
    How do you feel about that, all of you, the notion of 
moving towards a highly effective teacher, and perhaps linking 
the out-of-class involvement and the substantive engagement of 
a member of the faculty, whether it be a 6th grade teacher or a 
10th grade teacher, with their, in effect, making that an 
integral part of their performance evaluation. Anyone?
    Dr. Robledo Montecel. Teachers are, of course, key. 
Teachers teach and engage kids, and kids stay in school.
    I think that the notion of teacher effectiveness is a good 
one. We want to know whether teachers are doing what our kids 
need.
    I would also urge that we not move away too quickly, 
though, from whether and how teachers are trained and whether 
and how they are qualified and certified, because it is such a 
huge problem in the schools in which dropping out is the 
biggest problem, and that is the number of teachers that just 
plain are not certified to do what they are doing, are teaching 
out of area and other things. So I would urge us not to move 
away from that.
    Mr. Bishop of New York. Fair enough.
    Dr. Norwood.
    Ms. Norwood. If you move toward the highly effective, I 
think you will be looking at a different kind of thing also. I 
think you have to have the highly qualified on one side and 
highly effective as a second part of it.
    The other thing is you have to look at what you are putting 
on teachers' plates. Teachers have so much on them right now. 
As Governor Wise mentioned a minute ago, 150 kids a year--I 
mean, a day, even just getting those names down gets to be 
difficult.
    And so I think this is a way to move, but we have also got 
to change the culture of what a teacher is expected to do 
within a day in order to do this.
    Mr. Bishop of New York. Thank you.
    Thank you, Mr. Chairman.
    Mr. Kildee. The gentleman from New Jersey Mr. Payne.
    Mr. Payne. Thank you very much. Good to see you again, 
Governor. Pleasure serving with you.
    Let me ask a question as it was indicated that schools are 
extremely segregated. I think in my State, they are more 
segregated now than they were before Brown v. Board of 
Education in 1954. And so because African American, the schools 
are that way, there seems to be some type of disproportionate 
harsh and frequent discipline on African American students; you 
know, no tolerance or whatever. Do you think that some of that 
may have something to do with the high dropout rate with 
African Americans and Latinos, I think, to a lesser degree?
    Dr. Robledo Montecel. Segregation?
    Mr. Payne. In many of the schools they have harsher 
discipline in schools that are predominantly----
    Dr. Robledo Montecel. Oh, absolutely. Absolutely. We have 
been looking at this issue of discipline of students, and, of 
course, male students get the brunt of what goes on by 
discipline, but we have found in State after State an 
overrepresentation of disciplinary action against young Latino 
and young African American males. And we are talking about, you 
know, treating students as valuable and important young people 
and recognizing the contribution that they can make. That 
hardly happens when, by virtue of color, you are seen to be a 
threat to the school and to society.
    And so I do believe that that is an important issue to look 
at and would recommend that that be one of the indicators, that 
at the local level, as schools are looking at dropout rates and 
what is related to that in terms of the school's performance, 
that that serve as an indicator to the list that Governor Wise 
and others have spoken about this afternoon, sir.
    Mr. Payne. Yes.
    Ms. Norwood. I agree that we are seeing much more 
segregation today than when I started in this business. It is 
getting to be quite, quite a factor. Some people are calling it 
trying to have neighborhood schools, but I am not going to get 
into that.
    If you look at the suspension and expulsion reports, you 
will see that they are overwhelmingly kids of color and 
overwhelmingly males. I think one of the problems--and I don't 
have the answer for this--is we need to recruit more minority 
teachers, minority teachers who understand these kids a lot 
more than people who look like me, to be terribly honest. And 
so this is a problem. And so we are going to have to attack it 
from several fronts, but kids who are--suspended kids who are 
expelled are more likely going to be dropouts than other kids.
    Mr. Wise. Could I also chime in as the importance of 
recruiting more minority teachers is to provide the incentives 
or whatever it takes to get them into the schools where they 
are needed the most and where we get our highest-performing 
teachers into our lowest-performing schools instead of the 
process which works right now, which is we don't get that.
    So it is individualization, it is spending more time, 
structuring your school day so that that teacher is able to 
spend time with a number of students that he or she is 
allotted, such as Mr. Smith talked about earlier; having a 
personal graduation plan so they know they are valued; and also 
having teachers that are culturally sensitive to their 
concerns.
    Mr. Payne. Yes, Mr. Trump.
    Mr. Trump. I would say from a tangential perspective as a 
school security system, we have a significant turnover with 
school administrators now, people retiring. We are getting more 
new deans, assistant principals and principals who are 
administering that discipline you are talking about. It is 
critical we do adequate preparation on training them, on 
mentoring the new administrators who are coming in so they 
understand the principle of firm, fair, consistent discipline, 
fair discipline, and creating a safe and secure climate.
    Mr. Payne. You know, I taught for about 10 years myself 
years ago at a predominantly African American high school and 
middle school, coached and all that, and we did have a large 
number at that time of African American men at the school, and 
the discipline was not a problem at all. However, there have 
been changes, too, in society not just--Mr. Chairman, if you 
give me a half second more, I am color blind. Thank you.
    Just quickly on the manner in which when I was teaching, 
long back when--while it wasn't Abraham Lincoln's day, but it 
was a while ago, you could really do more things. The society 
was different. You didn't have as many potential problems, it 
seemed, unless they were just kept under the carpet. But there 
were things we could do, you know, trips, sports after school, 
you know. We always played the students in athletics--and we 
had some pretty good athletes who were the teachers, and we 
would always beat the kids--not up, but in the games.
    The problem of today where you--because of so many stories 
you hear about children being abused, parents don't let their 
kids go out to play anymore. This whole question of suits, do 
you think that, too, is a constraint on teachers today?
    Dr. Robledo Montecel. I think the relationship between the 
school and what is happening in the community is, of course, 
very, very crucial. And the constraints on schools, the 
constraints on communities, the need for engaging communities 
with schools is huge.
    I think that all efforts that can find new ways to bridge 
the school and the community and the school and parents--we 
know that a very, very effective dropout prevention measure is, 
in fact, good parent involvement so that teachers know what is 
going on in the home, parents know what is going on in the 
school. And, yes, I think that that might speak to some of 
those things, Congressman.
    Mr. Kildee. Gentleman from Virginia Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. One of the advantages 
in coming this late is a lot of the questions have already been 
dealt with. For example, we don't have to debate whether we are 
going to have disaggregated data on dropouts because I think 
that has been pretty well solved. And one of the questions--one 
of the first questions we had in dropouts is to make sure we 
count the dropouts, because people were given all kinds of 
different numbers. And, Governor, you have indicated that the 
Governors have come up with a methodology that you believe will 
count--accurately count or as accurately as you can--count the 
dropouts?
    Mr. Wise. Yes, sir. It is a good start, and what they did 
in 2005 was reach a compact all 50 Governors agreed to. 
Basically it works on the 4-year model, cohort model, 9th 
graders starting, and you look at seniors finishing.
    Mr. Scott. If people move into the district, what happens?
    Mr. Wise. In their methodology they also account for that. 
But I want to stress that it is very useful to a point, but 
the--because what it does is it provides a common methodology; 
however, it does not have accountability, and it does not have 
disaggregation. That is what we hope you will do.
    Mr. Scott. When we passed No Child Left Behind, in the 
beginning I was active in making sure there was a provision in 
there that punished you for having a high dropout rate. You 
know, you want to achieve AYP, so you will do that which helps 
you get there. And the formula essentially gives you an 
incentive to have a high dropout rate because the more people 
drop out, presumably your scores go up; if you try to keep 
people in, your scores are lower, and therefore you have a 
disincentive to have a low dropout rate. The formula ought to 
be such that if you have a low dropout rate, you are--your 
chance of achieving adequate yearly progress is enhanced. So we 
need to try to get the formula straight so that the incentives 
are there to try to make sure that you have a reason to have a 
low dropout rate. So that is one of the things that we said 
from the beginning.
    Now, Governor, you indicated that there is no question the 
dropout--we know that some dropout prevention programs work. 
They are effective. Is that right?
    Mr. Wise. Yes, sir. I will be glad to supply----
    Mr. Scott. Is it a virtual certainty that a good dropout 
prevention program will also reduce juvenile delinquency, drug 
use and teen pregnancy?
    Mr. Wise. Yes, sir, and our organization has done some 
analysis of this. Sixty-five percent of all State prison 
inmates are high school dropouts. We also have calculated that 
you could save I think it is $17 billion a year in Medicaid 
costs and other health-related costs by cutting the dropout 
rate sharply. So there are clear indicators in both cases, sir.
    Mr. Scott. Now, you have also indicated that 15 percent of 
the schools have 50 percent of the dropouts. Now, if you were 
distributing--if you had a Federal formula that was 
distributing snow removal money, you wouldn't expect Boston and 
Miami to get the same amount?
    Mr. Wise. No, sir.
    Mr. Scott. Would it make sense to target the money to where 
the clearly identified problem is?
    Mr. Wise. Well, we would suggest and what--the bill that 
was introduced in the Senate today, the Graduation Promise Act, 
would target the money based upon graduation rates and poverty 
rates, and so this would--and then it would go to the State and 
then to the local school districts. So this would get it to 
those areas that need it the most, where it is snowing the 
heaviest.
    Mr. Scott. If we know what works, we ought to know what 
those programs cost. We have heard descriptions of the problem 
is in the hundreds of billions, maybe trillions over a few 
years, and the budget is in the handful of millions, the 
President's budget cut that little bit out. Could you give us 
an idea of how much money we ought to be spending to solve this 
problem?
    Mr. Wise. We propose in the legislation that has been 
introduced today a $2\1/2\ billion targeted fund. Will that be 
sufficient to take care of----
    Mr. Scott. Did you say billion?
    Mr. Wise. Billion, yes, sir. Would that be sufficient to 
handle every school? No. But as far as an authorization, $2\1/
2\ billion a year gets it started. And I might add it still 
does not take from Title I. This would be a separate fund so we 
would not be taking dollars from other important areas covered 
by Title I.
    Mr. Scott. And at the present level of funding in the 4 
million, with--a million with an M--is clearly insufficient.
    Mr. Wise. It is insufficient, and while the President--we 
do applaud the President for recognizing the problem and 
creating a High School Improvement Fund in Title I; however, he 
takes a lot of that money from Perkins and other programs. This 
would be new money that would be necessary.
    Mr. Scott. Thank you very much.
    Mr. Kildee. The gentleman from Texas Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    I want to thank the panelists for bringing such good 
information to our committee.
    And I would like to direct my first question to Dr. Robledo 
Montecel. Would you please describe for us some of the 
effective practices that have helped students navigate the 
transition points from elementary to middle school and from 
middle school to high school, and how can we scale up these 
effective practices that you recommend?
    Dr. Robledo Montecel. Yes. There are three keys. One is to 
make sure that what you are doing is valuing kids instead of 
trying to fix them, Congressman.
    One important, effective practice around that is to make 
sure that children who are at risk or at risk circumstances 
have the best teachers--the Governor spoke to that before--find 
ways in which that can happen; make sure that reading is 
focused on not only at the elementary level, but at the 
secondary we continue to assure that young people can read, 
that young people can write, that young people can engage with 
science and mathematics, and those would be important pieces.
    The other one would be to assure that children have the 
support that they need that will help them to stay in school. 
That might range from making sure that their health is well, 
making sure that they have those things that all of the rest of 
us take for granted, and for the schools to work with the 
community to assure that students are supported.
    And then thirdly and importantly, sir, the bringing of 
parents to schools not just for bake sales or for telling them 
that their child messed up. We talk to parents all the time who 
are very happy when the school doesn't call because it means 
their child hasn't gotten into trouble. That is very--that is 
an indictment, I think, of how things are at the moment.
    So to bring parents in, to work in partnership with the 
school, but also, in relationship to graduation for all, to 
have the community and the parents in the community look at how 
their school is doing, and get indicators of how the school is 
doing, and have parents have easily accessible information.
    We have been working with a community in El Paso and a 
community in the Rio Grande Valley that is doing marvelously, 
making sure that parents have the information that they need to 
support the school in keeping all kids in school.
    Mr. Hinojosa. I agree with you on all of the keys that you 
described, particularly that of reading both at the elementary 
school as well as at the high school, because certainly a lot 
of the students are not at reading at grade level when they get 
into high school.
    And I also like to approach the parental involvement 
because I am a very strong proponent of that. I obviously 
realized that sometimes the resources, the financial resources, 
are not there. Elaborate on your proposal to dedicate 5 percent 
of NCLB funding to dropout prevention.
    Dr. Robledo Montecel. Well, I mentioned before, sir, that I 
think this is going to take more than tinkering at the edges, 
and therefore funding will be crucial.
    The Governor was speaking about the new money that needs to 
be invested. I think as well it would be very important to look 
at how each of the existing titles of No Child Left Behind can 
focus on graduation for all so that in terms of Title I, for 
example--and most of the money, as you know, goes to elementary 
education--if there were created a 5 percent stream not to 
replace, but in addition to the new moneys, that would focus on 
graduation for all, then this would help to really shift the 
paradigm of, oh, well, 30 percent of our kids are going to drop 
out, and, oh, well, one out of two Latinos will do the same.
    Taking also, for example, in terms of Title III English 
language learners, we know the dropout rate among 16- to 19-
year-olds of English language learners is 69 percent. It would 
be hugely important both in terms of the new money as well as 
within Title III to encourage those efforts that look at how to 
assure that English language learners not only learn English, 
but also learn the content that is being taught, have access to 
the curriculum and graduate from high school.
    Mr. Hinojosa. Governor Wise, you and Dr. Robledo have 
mentioned and certainly emphasized the point that the No Child 
Left Behind emphasizes K-6 and not enough emphasis in the 
secondary schools, and both of you seem to have a really good 
grasp of the fact that No Child Left Behind has been 
underfunded each of the last 6 or 7 years.
    So would you please tell me your thinking about funding for 
grades 7 to 12, which is, according to your material, close to 
$5 billion. Tell us what would be the right amount.
    Mr. Wise. The right amount--well, what we believe would 
start the process of intervention particularly with a lot of 
the areas that Dr. Montecel was referring to would be a 
strategic fund of $2\1/2\ billion a year targeted to high 
schools and possibly as well to middle schools that are the 
lowest performing, and to use the research-backed models that 
are proven to work.
    Quite frankly, Congressman, I am not advocating to this 
committee that we simply put more money into already 
dysfunctional systems, but that we look towards a systematic 
restructuring so we get the rewards we want, the outcomes. And 
we are singing, I think, chapter and verse, because obviously 
reading is such an incredible part of this, that whether or not 
you are able to enact this reform, which we hope you would, you 
would also consider a Striving Readers Initiative that would 
target monies to many of these school districts that have such 
high--or have such low, I should say--reading rates, according 
to NATE, 70 percent or less--or more reading below grade level, 
plus the fact that one out of five of our students is an ELL 
student. Clearly we need a reading initiative that accompanies 
this.
    But in terms of dollars I would say we can start in a 
serious way for somewhere around $3 billion a year. And 
interestingly enough, if we did that, that would only bring to 
about $8 billion for grades 6 to 12 versus the 33 billion.
    The reality is there isn't enough at any level. And if I 
could add just real quickly, to provide justification in the 
economic sense, once we move past the obviously moral case is 
the recent Columbia Teachers College study out that looks at 
some of these initiatives we talked about today and shows if we 
can simply cut the dropout rate in half, we would bring $45 
billion more in the Federal Treasury either through increased 
tax revenues, because people are earning more, or through 
reduced social costs.
    Mr. Hinojosa. Thank you, Governor.
    I yield back, Mr. Chairman.
    Mr. Kildee. Thank you very much, Mr. Hinojosa.
    This has been an outstanding hearing. All of you obviously 
have great knowledge, and you have great care for young people, 
and that is very important. Some have knowledge and don't have 
the care. You obviously--you really motivated us up here.
    You know, this meeting started at 3 o'clock Monday 
afternoon. Governor, you know how hard it is to get people back 
here at 3 o'clock on Monday afternoon. Twenty-two Members 
showed up for this. I think that is a record. Twenty-two 
Members showed up for this hearing because we knew that this is 
very important. We knew we were going to have people here who 
really had that knowledge and that care for people. And you 
have done an outstanding job, and you can leave here today 
feeling that you have influenced us who have a moral obligation 
to do more for children. You have informed us, and you have 
motivated us, and I personally appreciate that. I know all the 
Members on both sides deeply appreciate that. This has been 
outstanding.
    And I will, without objection, say that Members will have 
14 days to submit additional materials for the record, and any 
Member wishes to submit follow-up questions in writing to the 
witnesses should coordinate with the Majority staff within the 
requisite time.
    [The information follows:]
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this hearing on enhancing 
school safety and reducing the number of students who drop out of high 
school.
    I would like to extend a warm welcome to all of the witnesses. I 
appreciate the time you took to be here today and look forward to your 
testimony.
    The rate at which high school students in this country are dropping 
out of school is a crisis. Nationally, only 70% of students whom enter 
high school graduate with a regular high school diploma four years 
later. These numbers are even more disturbing for minority students, 
with only 55% of Black students and 52% of Hispanic students graduating 
with regular high school diplomas in four years.
    The impact of these students dropping out of high school has severe 
consequences both for the students who drop out and for our nation as a 
whole. Students who do not earn a high school diploma on average make 
significantly less money than their peers who graduate and have a much 
greater chance of being incarcerated.
    As several of the witnesses pointed out in their written testimony, 
NCLB was structured and implemented in a way that has not been 
effective in preventing students from dropping out. Part of the issue 
is that less than a third of federal money that goes to primary and 
secondary schools goes to students in grades 7-12. Another part of the 
problem is that school interventions have not been adapted for high 
schools and graduation rates have not been disaggregated or accurately 
measured on a school by school basis.
    Today, I am looking forward to hearing from our witnesses about how 
NCLB can best be modified to best deal with the growing high school 
drop out crisis.
    Thank you again, Mr. Chairman, for holding this hearing and 
shedding light on this important issue. I yield back the balance of my 
time.
                                 ______
                                 
    [Questions for the record submitted by Mrs. McCarthy to Mr. 
Trump follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    [Responses to Mrs. McCarthy's questions from Mr. Trump 
follow:]

          Responses to Questions for the Record From Mr. Trump

                            no. 1 background
    Mr. Trump, in 1990, Congress enacted the Jeanne Clery Disclosure of 
Campus Security Policy and Campus Crime Statistics Act. The ``Clery 
Act'' is named in memory of 19 year old Lehigh University freshman 
Jeanne Ann Clery who was assaulted and murdered while asleep in her 
residence hall room on April 5, 1986. Jeanne's parents, Connie and 
Howard, worked to enact the law after they discovered that students 
hadn't been told about 38 violent crimes on the Lehigh campus in the 
three years preceding her murder. With the passage of the Clery Act, 
higher education institutions across the country were required for the 
first time to release campus crime statistics to their current and 
prospective students and employees. Under the Clery Act, colleges and 
universities are required to provide an annual security report to 
students and prospective students on security policies and crime 
statistics. The report must include data collected by campus security 
and local law enforcement. Additionally, under Clery the Education 
Department makes summary crime statistics available on its website. As 
you note in your testimony, there is no similar crime data system in K-
12, rather, K-12 uses inferior, unreliable data in program 
administration.

    QUESTION: How would a more Clery-like crime tracking system be 
useful for K-12? Do you think parents of K-12 students would like to 
have access to crime data? How would K-12 crime data be helpful to 
policymakers?

    RESPONSE: A Clery-like crime tracking system for K-12 schools is 
sorely needed. Currently, the majority of data published by the U.S. 
Department of Education is based upon a collection of a half-dozen or 
so academic research-type studies, self-report surveys, etc., not 
actual incident-based data. Congressional leaders must take a ``best-
guestimate'' approach in making policy and funding decisions, since the 
data provided to them by the Department of Education is primarily 
survey data.
    Contrast the Education Department's survey data for K-12 schools 
with the type of data required by the Clery Act, and the difference is 
one of night and day. And when making policy and funding decisions on 
Department of Justice issues, Congress has not only victimization and 
other surveys, but most importantly has Uniform Crime Reports (UCR) and 
associated data compiled based upon actual criminal incidents reported 
to law enforcement. Yet when it comes to the safety of our children in 
K-12 schools, there is a lower standard than what we have for colleges 
and universities, and the broader society in general: Mostly surveys.
    Unfortunately, parents do not know what they do not know--and no 
one is rushing to tell them what they do not know. K-12 schools have 
historically operated in a culture of ``downplay, deny, deflect, and 
defend,'' where protecting school image often takes precedent over 
honestly, accurately, and openly informing parents about the extent of 
crime, violence, and discipline problems in their childrens' schools. 
Schools have also enjoyed a history of ``inherent trust'' given to them 
by parents, a trust where the silent majority of parents send their 
kids to school each assuming that schools are safer, less disruptive, 
more crime-and-violence free, and better prepared for emergencies than 
may actually be the case.
    Sadly, few organizations are advocating for improved school crime 
reporting. The education organizations seem to prefer surveys over hard 
incident-based data, presumably because they perceive that many of 
their members, while perhaps more open today than in decades past, are 
still caught up in the ``downplay, deny, deflect, and defend'' culture 
previously referenced. Parent organizations, like the education 
organizations and others in our society, have been fed the questionable 
U.S. Department of Education data and ``schools are the safest place in 
the community'' mantra that has been the sound byte since the 1999 
Columbine tragedy, that their knowledge of the questionable data is 
limited, and thus is their advocacy for improvement of the data.
    We have a saying that we use regularly when training educators and 
others on school safety: We can't change the climate if we don't change 
the conversation. It is far past time for changing the conversation 
from one based upon academic research studies and surveys, to one based 
upon actual incident-based data.
                            no. 2 background
    Mr. Trump, you attended the White House Conference on School Safety 
in October 2006, which came in the wake of a rash of tragic school 
shootings last fall. Although we do not have any national data from law 
enforcement on weapons in schools, according to the Indicators report, 
which as we know is based on survey and not actual crime data, in 2005 
students surveyed throughout the nation reported that between 4 to 11 
percent of those surveyed carried a weapon to school, including guns, 
knives and clubs. The Indicators report also found that there was no 
measurable change in the percentage of students who carried a weapon at 
school between 1999 and 2005.

    QUESTION: Did the President's Conference address the issue of 
reducing the amount of weapons in schools? Were they are new policies 
and funding announcements resulting from this Conference?

    RESPONSE: As I recall, one young man asked the Attorney General's 
panel about the issue of firearms in schools. Panelist responses to 
this question, and in the earlier panel member presentations, included 
discussions of enforcement of existing firearms laws in and around 
schools, changes needed in the broader society, and the need to provide 
climates where students feel comfortable in reporting weapons on 
campus.
    The White House Conference on School Safety focused upon reviewing 
and discussing ``best practices.'' There were no new policy or funding 
announcements during this conference, or to my knowledge, none after 
the conference as well. In a number of conversations with attendees and 
others during and after the conference, many individuals, including 
myself, were hoping to see announcements of restoration and expansion 
of recent funding cuts to school safety programs such as the Safe and 
Drug Free School Program state grants, the Emergency Response and 
Crisis Management (ERCM, now Readiness and Emergency Management for 
Schools--REMS--grants), COPS in Schools program in the Justice 
Department, and other federal school safety resources. Unfortunately, 
this did not occur.
                            no. 3 background
    Mr. Trump, as you know the Gun Free Schools Act requires States to 
report firearm incidents, including school names, to the Secretary 
annually. ED however, is not collecting data on the names of schools, 
citing the Paperwork Reduction Act. As Chairman Miller told one of the 
Reading First witnesses last week during the hearing, you don't get to 
ignore the law. I agree, and so in March I wrote a letter to the 
Secretary asking her to explain what appears to be non-compliance with 
NCLB.

    QUESTION: Do you know what the ED does with the GFSA data the 
States send them? Do parents have access to this information? Do you 
think parents would like to have access to information about firearms 
in their child's school?

    RESPONSE: As a parent, I would certainly want to have access to 
information about firearms in my children's school. And I would easy 
access, not something I would have to do a FOIA or other public records 
request to receive, or dig through a million web pages to find it 
buried deep on a government web site, if it is there at all. This is 
yet another example of the, ``Parents don't know what they don't 
know,'' situation I have repeatedly referenced in connection with this 
hearing.
    I would be interested in hearing why the Education Department 
apparently arbitrarily decided to exclude the names of schools in the 
annual federal report. While I have no firsthand knowledge of what they 
were really thinking in doing so, based upon my experience of nearly 25 
years in working in school safety, my gut feeling tells me that the 
real underlying reason may have to do with the historical culture in 
the education community of protecting schools' images by downplaying 
incidents of crime and violence.
    I do believe, however, that the individual(s) who made the decision 
to dismiss the intent of Congress in the GFSA to include the names of 
schools should be called upon to formally explain himself/herself in 
this decision, and asked some pointed questions.
                            no. 4 background
    Mr. Trump, I have heard from concerned parents all over the country 
who have children who were the victims of crimes. In one case, a mother 
named Bonnie Levine from California contacted our office to tell us 
that her son, had been violently assaulted in school. Even though her 
son had been assaulted by another student at the school on school 
grounds, the school refused, upon Ms. Levine's request, provide her son 
with the option to transfer to another public school in the district. 
In fact, the school never even told the family that they had the right 
to transfer under the law, Ms. Levine discovered this through her own 
research.

    QUESTION: Do you think it is important for parents to be given 
notice of the transfer option?

    RESPONSE: Almost every week I hear from parents across the country 
who are frustrated with issues of discipline, crime, and/or violence n 
their children's schools. One of the most common frustrations voiced by 
parents is that they feel school officials are downplaying and even 
covering up these offenses. While the majority of school administrators 
are good people doing a tough job, parents and our broader society fail 
to see just political an issue school safety really is, and how these 
administrators are often pressured by their school boards and central 
office administrations to downplay discipline and crime issues.
    Parents like Ms. Levine and the many others I receive emails and 
contact from almost weekly need to know the truth. Contrary to what far 
too many school officials still believe, parents hear from students, 
school employees, and others that there are problems with discipline 
and crime in their schools. They just don't know the true extent of it. 
Ironically, the negative image many school officials fear they will 
receive by admitting and tackling school crime and discipline problems 
head-on is actually created by their downplaying and denying of crime, 
and in turn creating a fear of the unknown within parents.
    Parents also should be notified of their right to transfer their 
children under the law. If my child is trapped in an unsafe situation 
I, as a parent, should easily be made aware of my options to remove my 
child from an unsafe situation. How we define ``unsafe'' is a tough 
issue, i.e., the quandary we face with ``persistently dangerous 
schools,'' but if the law is such that a transfer option exists, 
parents should not be kept in the dark about their options to transfer, 
in my opinion.
                            no. 5 background
    Mr. Trump, in your testimony you raise concern about schools and 
school buses as potential terrorist targets. In fact, less than one 
month ago the FBI and Department of Homeland Security issued an 
advisory to local law enforcement about foreign nationals with 
extremist associations who have obtained licenses to drive buses and 
who have purchased school buses. The terrorist siege of a school and 
subsequent murder of hundreds of children in Beslan, Russia, in 2004 is 
still fresh in our minds.

    QUESTION: From your professional perspective, what would be the 
potential impact of a terrorist threat or attack against our schools? 
What needs to be done to better prepare our nation's schools against a 
potential terrorist-related attack?

    RESPONSE: Most elected and administrative officials, from inside 
the Beltway down to our local schoolhouses, are terrified (in my 
opinion) of openly discussing the potential for schools and school 
buses to be targets of terrorism. Simply put, they are afraid of 
creating fear and panic among parents, so this whole issue has been 
swept under the rug and out of public discourse.
    As a nation, we acknowledge the terrorist threat against our 
airports. We acknowledge the potential terror threat against our 
government office buildings. We acknowledge the potential for a 
terrorist threat against monuments, bridges, military facilities, 
financial institutions, retail malls, and about every other place--
except our K-12 schools. When it comes time to discuss schools, 
``downplay, deny, deflect, and defend'' seems to become the mantra over 
our homeland security philosophy for elsewhere in society of openly 
discussing the threat and better preparing.
    Fear is reduced by education, communication, and preparation--not 
Ostrich syndrome or government spin to downplay the problem.
    And no only are we not candidly having this conversation within our 
governments, with our parents, and within the education community to 
the extent which we should be doing, but our resources for better 
preparing for this potential threat have actually been cut. As noted in 
my April 23, 2007, hearing testimony, the funding for the Education 
Department's Emergency Response and Crisis Management (ERCM), now 
Readiness and Emergency Management for Schools (REMS) grant, has been 
cut almost 40% since 2003, from a pithy $39 million in 2003 to $24 
million in 2006 and a quoted $24 million again now in 2007.
    A terrorist attack upon our nation's schools would have an 
emotionally and financially crippling impact on this country. If the 
``business'' of education is shut down like the business of the 
airlines was shut down for weeks after 9/11, our economy would suffer a 
severe blow, not to mention the shockwave impact elsewhere in other 
businesses from parents who have to stay home from their jobs to take 
care of their children who they would not be sending to school. And of 
course, emotionally parents would be shocked and paralyzed by a 
terrorist attack upon their children's schools.
    In short, we need to have our nation's leaders acknowledge the 
threat of terrorism that could potentially face our schools and school 
buses. It needs to be openly discussed in a balanced, calm, rational, 
and contextual manner. And the federal resources for preventing and 
preparing our schools for such emergencies certainly need to be 
restored and expanded, not cut as has been repeatedly done in recent 
years.
                            no. 6 background
    Mr. Trump, you note in your testimony, and have even included an 
exhibit with a chart from an Education Department official's 
presentation, that the Department's Emergency Response and Crisis 
Management (ERCM) program (renamed this year as the Readiness and 
Emergency Management (REMS) for Schools program) funding has been cut 
almost 40% from 2003 to 2006. We also know that when NCLB passed in 
2001, it authorized $650 million for FY2002 for the state grants, but 
that since then actual appropriations have been much less and that the 
President proposed zeroing out the state grants in his FY2007 budget. 
Your testimony raises the need for better prevention and preparedness 
for school shootings and other violence. You also stress the need to 
have more focused attention and preparedness for potential acts of 
terrorism against our schools and school buses, an area you believe has 
been given inadequate attention.

    QUESTION: How do the dramatic funding cuts for the ERCM and, Safe 
and Drug Free School program, impact local school violence preparedness 
and preparedness for emergencies? How are these grant programs used by 
schools and what is their value to school administrators?

    RESPONSE: It makes no sense to me, my fellow school safety 
professionals, our educators, our public safety officials, and anyone 
else I talk with across the country that at a time when our federal 
government has put additional resources into protecting airports, 
bridges, monuments, and even the very hallways of government offices in 
which our Congressional hearings on this matter are held , that funding 
for protecting the hallways in which we send our kids and teachers each 
day has been repeatedly cut.
    It is critically important for the House Education and Labor 
Committee to understand that the state grant program of Safe and Drug 
Free Schools is a totally separate and distinct line item from the 
Emergency Response and Crisis Management (ERCM, now Readiness and 
Emergency Management for Schools, REMS grant) line item under the 
national programs of the Office of Safe and Drug Free Schools. In other 
words, restoring funding for the state grant component of the Safe and 
Drug Free Schools overall program would not automatically restore the 
funding for the ERCM/REMS grant since ERCM/REMS is considered a 
national program line item program under the Office of Safe and Drug 
Free Schools.
    Regarding the state grant program component of the Safe and Drug 
Free Schools Program, while critics have said that the amount of 
dollars going to local school districts is too small to be effective, 
my experience of over 25-years in the school safety field shows just 
the opposite. Have there been cases of misuse and abuse? Absolutely. 
But should we throw out the baby with the bath water? Absolutely not!
    It is often said that the ``average'' school district will receive 
about $10,000 in state grant program funding from Safe and Drug Free 
Schools. Can this make a difference in local schools? While critics say 
``no,'' they are just plain wrong. Many schools have stretched a little 
money a long way to support violence prevention curriculum, staff 
awareness and training to recognize early warning signs of violence and 
assess threats, simple security needs, and many other initiatives to 
make schools safer.
    Additionally, the proposal to redirect this state grant component 
money of the Safe and Drug Free School Program from local districts to 
state education agencies, as is reportedly being proposed for the FY08 
budget, is illogical and counterproductive. The proposed $99 million, 
to be distributed among all states and DC, would likely see the pithy 
$2 million or less per state be siphoned off largely for state 
administrative costs, a costly conference or two (that the majority of 
school districts in the states would not even send representatives), 
and other minimally effective state programs. The vast majority of 
local schools would lose the already little, but important, amount of 
money they have been receiving to do important things on the frontlines 
in their local schools and communities. In short, this proposal, in my 
professional opinion, is ludicrous.
    The ERCM/REMS school emergency planning grants have been 
exceptionally helpful to schools. The model includes elements focused 
on prevention, mitigation, preparedness, and response. Schools must 
have activities in their proposals to address all of these components, 
but unlike many other federal and state grants, they can tailor the 
emphasis on one or more of these categories to meet the current needs 
and planning levels unique to their school districts.
    Some districts may be stronger in prevention and less organized and 
ready for preparedness and response. Others may be just the opposite. 
ERCM/REMS grants allows school officials to support their strengths 
while building upon their weaknesses with programming and resources in 
this one-stop grant.
    Recipients of this grant have also told me that their receipt of 
the grant has also served to help push school emergency planning higher 
on the agenda of upper level school administrators and boards who are 
so busy with meeting the educational standards resulting from No Child 
Left Behind that school safety and emergency planning has 
unintentionally been pushed to the back burner in their districts. The 
ERMC/REMS grant requires schools to have firm commitment and 
participation by the critical community organizations, ranging from 
public safety agencies (police, fire, emergency medical services, 
emergency management agencies, etc.) to community partners (mental 
health, public health, etc.), in their schools' emergency planning 
process. The grant encourages, and actually gently forces, these 
relationships to be built prior to an actual crisis.
    The ERCM/REMS grant helps schools get dusty crisis plans off the 
school office shelves and updated, tested and exercised, and staff 
trained, on school emergency preparedness. The grant takes a 
comprehensive and balanced approach, yet is flexible to meet the needs 
and gaps unique to each local school district applicant. In my 25-years 
of school experience, it is the most balanced and comprehensive school 
safety grant program I have ever encountered, and one in which I have 
seen school districts consistently do meaningful, practical, cost-
effective, and useful things.
    As noted in my full written testimony, the number of applications 
for the ERCM grant were well over 550 the first year it was available 
(FY03). However, the Department of Education, for reasons that baffle 
many of us who have looked at this issue, started issuing the request 
for proposals for this program extremely close to the end of each 
school year, such as in the May through July period. School officials 
are overwhelmed with year-end testing, graduations, close of the school 
year, summer vacations, etc., and their public safety and community 
partners are often hard to locate due to late spring and summer 
vacations, so many have been unable to apply that I truly believe would 
pursue this grant program if proposals were opened at a more reasonable 
and school-friendly time of the year, such as between October and 
February, versus ED's recent practice of May through July time period.
    I encourage the House Education and Labor Committee to actively and 
in united, bipartisan fashion:
    1. Restore cuts in funding in recent years to bring the state grant 
program of the Safe and Drug Free Schools Program back to its original 
level;
    2. Restore cuts in funding for the national program, under the 
Office of Safe and Drug Free Schools, now known as the Readiness and 
Emergency Management (REMS) grant, formerly Emergency Response and 
Crisis Management (ERCM), back to its original FY03 funding level of 
over $39 million, and expand funding for this project no less than five 
times that original amount, to better prepare our nation's schools for 
preventing, preparing for, and responding to emergencies of all types 
(natural disasters to school shootings to terrorist attacks).
    and to make sure that funding for both of these separate and 
distinct programs are included in the reauthorization of No Child Left 
Behind in this Congressional session.
                            no. 7 background
    Mr. Trump, your testimony addresses threats to safety coming from 
within our schools such as school shootings, weapons offenses, and 
other serious disciplinary offenses. You talk at length about schools 
and school buses as potential targets for terrorist, a threat from 
outside of the school. We also know that in the Fall of 2006, an adult, 
non-student stranger took hostages in a Colorado school, killing one 
young girl and himself, which was followed a few days later by an adult 
stranger who killed the children in an Amish school in rural 
Pennsylvania.

    QUESTION: Should we place our emphasis for safe school policy and 
funding on the threats from within our schools or the threats from 
outside our schools? Has our funding and programmatic focus been 
balanced on both internal and external threats, and prevention and 
preparedness?

    RESPONSE: Schools must take an ``all hazards'' approach to 
considering, and preparing for, threats to school safety. Threats to 
school safety come from both within and outside of the school, not 
``either--or''. Potential threats may include weather and natural 
disasters, HAZMAT spills on roadways or railroads adjacent to schools, 
or utility failures. Potential threats of crime and violence range from 
non-custodial parent abductions at elementary schools to school 
shootings and even acts of domestic or foreign terrorism. Schools must 
be prepared for preventing and managing all of these threats, both 
internal and external.
    Historically, federal funding has tended to come in the form of 
grants that are narrowly focused on one or a few issues (gangs, 
suicide, drug prevention, mental health, etc.) rather than offering a 
one-stop, comprehensive grant that requires schools to address all 
components from prevention to preparedness and response, with an 
emphasis on those components where they need more help and less 
emphasis on those for which they are already fairly well prepared. The 
Emergency Response and Crisis Management (ERCM), now Readiness and 
Emergency Management for Schools (REMS) grant, is one of the few, if 
not the only, federal school safety grant that is so comprehensive and 
balanced within one grant itself; thus the reason I believe that 
Congress needs to fully restore and significantly expand funding for 
this program.
                            no. 8 background
    Gangs are a growing concern in my district. Gang violence has also 
been identified as a concern in other communities throughout the 
nation. Your biographical information indicates that you created and 
supervised a Youth Gang Unit in the Cleveland City School District back 
in the 1990s which reduced school gang crimes and serious incidents 
over 39% in three years. It also indicates that you served as assistant 
director of a DOJ-funded anti-gang project, one of four model projects 
in the nation at that time, for three southwest Cleveland suburbs.

    QUESTION: Mr. Trump, based on your experience in working with gangs 
and your current role as a school safety consultant nationwide, are you 
seeing any recent trends in gang activities around the nation? How does 
an increase in gang activity in our communities impact safety in our 
schools? What can we do to better prevent and respond to gang violence 
in our communities and schools?

    RESPONSE: Gang violence tends to be cyclical; that is, we tend to 
see it rise and fall over time in a given decade, with variances 
community-to-community based upon the uniqueness of each community and 
history of gangs in that community.
    We are, however, unquestionably seeing an increase in gang activity 
in many communities across the nation in the past three years or so. 
Department of Justice efforts have acknowledged and responded to the 
rise in gangs in a number of acknowledgements in the past year or two, 
in particular. Media stories of gang influences and activities in 
communities and in schools across the nation have also been steadily 
increasing, in my observations, in the past couple years.
    The biggest obstacle for schools, and communities for that matter, 
is their tendency to deny gangs. There is a good deal of academic 
research, and whole lot of practical experience, in the gang prevention 
and enforcement field to support this observation. Schools, police, 
government agencies, social services, and communities themselves must 
acknowledge gangs early on when they surface in a community, or the 
official denial will help fuel the growth of gangs and gang violence.
    Gang violence in schools and elsewhere is different from non-gang 
violence in several ways:
    1. Gang violence typically involves a larger number of individuals;
    2. Gang-related violence tends to be more retaliatory and escalates 
much more quickly than non-gang violence; and
    3. Gang activity is usually more violent in nature and often 
involves a greater use of weapons.
    School and public safety officials must look at gang activity 
differently and not as one-on-one, isolated incidents. Otherwise, the 
problem can escalate so quickly that a school lunchroom fight between 
rival gang members will escalate into a potential drive-by shooting 
just hours later at school dismissal.
    School and community responses require a balanced approach of 
prevention, intervention, and enforcement strategies. Schools must work 
very closely with law enforcement to share information on gang activity 
since what happens in the community spills over into the schools and 
vice versa. Communication and coordination among schools, police, 
probation, parole, social services, mental health, courts, and 
community re-entry for ex-offenders is critical to make sure our 
``systems'' communicate and function in as organized, or hopefully more 
organized, manner than the gangs themselves.
    Practical steps schools can take include:
    1. Communicate to staff, students, and parents that schools are 
neutral grounds and that gang, drug, and weapon activities will receive 
priority response
    2. Apply discipline in a timely, firm, fair, and consistent manner
    3. Institute student anti-gang education and prevention programs
    4. Establish a mechanism for student conflict mediation
    5. Train school personnel and parents in gang identification, 
intervention, and prevention techniques
    6. Obtain input from youth on violence-related concerns and 
prevention strategies
    7. Establish cooperative relationships and communication networks 
with parents, law enforcement and other criminal justice agencies, 
social services, and other community members. Set up mechanisms and 
structures to promote information-sharing and coordination among 
agencies addressing youth, gangs, and related public safety efforts.
    Gangs are a community problem, but schools are a part of that 
community and cannot operate in isolation while hoping that the gang 
members will drop their gang alliances and activities once they cross 
the schoolhouse door.
    Congress can help in providing resources from a law enforcement 
perspective, as is appropriate and necessary, and can be found in a 
number of Department of Justice programs. But the House Education and 
Labor Committee can also help by looking at school-based gang 
prevention, intervention, and enforcement program funding to help 
schools develop specific programs and strategies to prevent and manage 
gang activities on campus. Justice Department resources typically go to 
law enforcement and other public safety agencies, yet K-12 schools need 
gang-specific program funding to address prevention, security, and 
preparedness issues related to gang violence in our schools
                                 ______
                                 
    [The statement of the Delaware Statewide Academic Growth 
Assessment Pilot follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ------                                

    Mr. Kildee. And again, thanks to you, and without 
objection, the hearing is adjourned.
    [Whereupon, at 5:30 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
